index, to appendiGES

APPEND!% A;
CO C» A. No* 15-2.190

to/'7/Zof5 Q&.0&&

(z) D~C, No* 02'044Sy 4/i5/Zc-i5 Qmz&1

^{uol^S1 Dec, Kfo.

ciQ>

APPENDIX B ;
S/t8/z°*5

CO C.A* No-05-1754
(2-) Co. A -No. 64-3 »o8 ?

Ctex>eR. CPciMyuc-fZeu^ASe-)

1/17/2°°^ (n'uP&i^t/o^ioNl)

P-C,Ts

CjLl Q&K&vf 1
^((s:(Zoe-2-

STftTvlUL'f T>i-Li^C'

(3l C.A- f\fo,04'3<o&, 7/*3/2^6 Ofiotfft

Cp'^/K-nora 7b \Z**>Ter VOlD

JoDe-mcsviT )

CA) C*A« c4'3l°8; 8 (rt-l2°i° CteD>&«. CDer^c- mdToms

To f2&cm_L_

/WD eMFfc&cs- wfirr 07 HrA®eaS Corpus)

CS) CtA.Nc '12-IIO8

7

•3"7-2oiZ 0RD6R. CDeivsyttffr!'Ew jfosc PeT

BpfcDR Cl© RAM. No(3iS* MOT F&*. OM,Wli5cJ

for

UGieiT *7

iMMCC* CteUi-KSSr]

C6?VC.A.NOo {(e,-d\lC? J (o/za /zoic? CuDC^GMT/opiMTCRj (pli^JVWC-AFPewL- OfptoTiocJ TS Mc>Olr¥ F)MD

(7] Co A* No. 04-3*08

C&ARC27

^uOouyvT iseoo/zp)

4-/l‘f/lPlt7

{ fta<Mo\Uusc>&weMrf)

>

Cs) D.C. Mo- '02- 44g ? 4/9/2*02- Ofcoefc, en'ffiaw 4/Wzcc^-r poo,
NJ00 5

0?) DXo

C /VPD©0 Pa as PrVaTY fSff-Spc^Dc^r To (SL&'SfhRlD To PcrT-Tc-M)
9/6/2002.
V 5b C

McMd£wn1^ &Sl£fiZrl>

9/9/zc’c2-j.pcCt fs/oc, |2

1

C ST/VToToR'7' "7b UUP|\i&- pcTcrRMu^/v'TIof'i 'j AtJ^ fi&UATfirO of^D&ZS y
9/i7/2®o2 ORDC^y eM7crR.cn?

yjiblzccn-j ogputaitGr PA To fScr-5P0MS>

To PetlTiorJ fpec*

Go) ac.

© G' <

;

. 13)

(6/21 (Zoo Z

Oeot*/M<bivtofi.«N 0* GrfSftMTtASG- Pe^Tl^rf iri

Prt*Tf, p^yuvG-P&TiTtc4 t«\J

GO p*c*

o 3> e>

7

62 /t3/2oC4^, pcCt) M©» 34

11 A6/2«>4 o^ceR /rAs'ivvo^ftNO etvifciecs?

11 /t 8/2004-^

pbo«

(\Jo* 48 G D^YinG- PcT"s IMcT -To Vfvovre'ftwP KoDiFV JMiTi/H- CCST&PV o£D3*)
Gl2) DX‘ »**7 2/23/Z005 .OrOcrRr c^-R^erp

2/2.5/2005

g

ArA'iGfODiMfr

ll/jfc/ZO04 M-CrM.Cv^AAl ) 7 poc.. NTos.(j>S
03) pwc. .0. ;

2/2-3/2005

GDertfytMC- Pc’T'S'

Gl4) D*C

po« (MMoP fLcrL&frSz)

2/23/2*05

t* © - C

6/p («&fiflwT«MG-

O^Deft, e*it&fieO 2/Z'5/2co5? Poc-Nfct (sfl

PA rs /v-ioT 1RX3. STtft RaMDtAfG- ftPp&H~f Detiyi.<c~ pcrT's

paoT To GfiA^T Mat p&rt. IMM&i) fZ.Cr(J0-fr5& lY'S

05) P.c.

J

-zlzS /2oo5■ pcCc Mo*

O&Desfij- ewT&^&D

UrtCC/iUZSTCrO)

4/i9 / zoc.6 0£Ds&? &n&R&£> 4 /2c/2o0& r Ro. No, 80

c» t o

G PiSrmsswOG- i-btem<S Pe-Ti-nort )

(li) P.C.

^

7/s/ 2<0iC? 0fcDCrtt.? Q^TSiSErO 1j(o jzO\L> f PeC. MOe US

© © ©

/ Pi?mVi«&- Pef'j Mo-f TO MoDi-py

67) PoC*

« (ft

CofLfmcr

£&Coft£>)

J §/h f/2020 Or£>6R j (SfJTc&jR&D

r

(-96 / fg.erf^e^i.-oG- ffcT's f^Tioujs To Coui>iS£t_
fosTicT&Q y DiSCit/^RO-et? ArpW)

saJwoh

Poc. Mo.

t

PeT Ft&cr\J'toOQt~y

IrvJvfcW&D fciGH-Jp UNP&Z 2.B U<. S'cC<. J>

16 54)

APPmpix 0*.
Gl ) C.A« Mo* 04-310S ; 4-/6/Z006

0&P&6.

DaMViAiG' Rfr«e^<MG-

AfPeMDi^oi
( 1)

C*A* Af©* l5-2<?o^ 4/26/2017 J’upGMcivi-r/^p-AitoM 'G

PX.<,V App-U-

'2-c,'5 e^Pe*-

(&) Rccicp A^O /&Hvtfh\)p

GarSffecT To PeMiTL. OF- &ul& &o(j?)

)
C b>{|

APPe^PIK g ■«
Co N 3 TToTwM<- /Tip cSWrOTofLY PRovWloisIS

APPEMPtX Ft
CO A&'s Ubifrt&D 4/1?/2^2- L&TT&rt Tb PA /^pTSR CtT^S pefWoT
To p&TTTorvl
C^-) DA'S f2x^S/b^S& To

ftfTTo.'x/

(^Poc.- Mo^ (o')

C3 .) DA’S AoPe^DtiH To R.&5fWSc- To KjTS^S P&rtTtoN Cpoc, M« 7)
(4) D.C. Mo<- 02' 44'8

VccK&T

CS) PA’S’ (\[ernc<r op App^l
00 C-»A* Mo.- 04~3(<?8

C P°c‘4^°* -3?)

DoCKgT BrtTRierS

07) P^T’S Ruts &CO0O) £(6) Mor^w - S/^erT- fyfp&tatyL, Tm£>&X (Poo Mor
Y4)

($) PeTiTfcpl&tf-’s A^Ut/ntasI (2b/T A C&KTfFtCA'fe 6P A^%AjT8iUTy
C*A- No* *5-2170
C?) P&TVS £ Mot ToAm&mo &.ou£r&oLb')C4- MoT

(\MSrtO&D (Z.ULSr (ooCb)(_4-)

|MoT) C^tAC/TT/oM Mot UvcoAJTkfrkO (Doc. No'S*

0°) PerT's ^u«^«Ta/o StFolaT

t Of\( >?

/93^ i?f)

(poceKo.^5)

Cm) Pc-T’s Mot To P&ViST wo G^&oT AWotF&S7’ Xf'S-TosTce-/Qra^z
bP 0u3T*C£r

02-) D/V.S

/lCr5P(^JSar Tb

V o 0

(boc. Mfe i?z)

Part's MoTicoi jfcf? TM-MS0

0^) ^upieewts-Q>ukT |o/z/zoo6
£t4) First Fmje op PeT's

(Doc. Mo, 62)

LTTt^/ciftpaR^ f\/e>.
Fe-TY/o^ ^u&O /"28-2^2.^ Poc= N<v I

APPENDIX A

Case: 15-2190
j

Document: 003112094852

Page: 1

Date Filed: 10/07/2015

M

July-307-2015..
Amended CLD-280
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 15-2190
PAUL SATTERFIELD
vs.
DISTRICT ATTORNEY PHILADELPHIA, ET AL.
(E.D. Pa. CIV. NO. 02-cv-00448)
FUENIES, GREENAWAY, JR. and VANASKIE. Circuit Judges

Present:

Submitted are:

'

(1)

Appellant’s application for a certificate of appealability under 28
U.S.C. § 2253(c)(1);

(2)

Appellant’s motion to expedite the appeal and for leave
to proceed on the original record, F.R.A.P. 24;

(3)

Appellant’s motion to have the Court disregard I.O.P. 9.1;

(4)

Appellant’s motion for expedited consideration of his motion for bail
pursuant to F.R.A.P. 23(b); and

(5)

Appellant’s motion to have his motion for expedited consideration of
his bail motion treated as uncontested

*(6)

Appellant’s “Request for Expedited Consideration, etc.,” filed
on August 3,2015

in the above captioned case.
Respectfully,
Clerk
MMW/LLB/tmm
______ _________ ___________ORDER
____________________ _
The foregoing application for a certificate of appealability is granted with respect
to the issue whether McOuiggin v. Perkins. 133 S. Ct. 1924, 1928 (2013), is adequate,

Case: 15-2190
< y

k

Document: 003112094852

Page: 2

Date Filed: 10/07/2015

-----either standing'alone~or in tmdeinwitlrother factorsytohnvoke-relieffrom final-judgment
under Fed. R. Civ. P. 60(b)(6), see Cox v. Horn. 757 F.3d 113, 124 (3d Cir. 2014), cert
denied. 135 S. Ct. 1548 (2015), and in light of appellant’s valid claim that counsel was
constitutionally ineffective for failing to interview and call Eric and Grady Freeman to
testify at trial. See Slack v. McDaniel. 529 U.S. 473,484 (2000) (certificate of
appealability warranted where prisoner shows that jurists of reason would find it
debatable whether petition states valid claim of denial of constitutional right and that
jurists of reason would find it debatable whether district court was correct in its
procedural ruling). In all other respects, the application is denied. Appellant’s motion
for bail pursuant to Fed. R. App. P. 23(b) is denied. Appellant’s motion to have the Court
disregard I.O.P. 9.1 (en banc consideration required to overrule holding in precedential
opinion of previous panel) is denied. Appellant’s motion to proceed on the original
record is granted, Fed. R. App. P. 24(c). All other motions, including the motions to
expedite, are denied.
By the Court,
s/ Thomas I. Vanaskie
Circuit Judge
Dated: 10/7/lS
JT/cc: Federal Community Defender Eastern District of Pennsylvania
Susan E. Affronti, Esq.
Paul Satterfield

2

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
PAUL SATTERFIELD,
Petitioner,

CIVIL ACTION

v.
PHILIP L. JOHNSON,
THE DISTRICT ATTORNEY OF THE
COUNTY OF PHILADELPHIA, and
THE ATTORNEY GENERAL OF THE
STATE OF PENNSYLVANIA,
Respondents.

L Apr ]t-

NO. 02-448

ORDER
AND NOW, this 15th day of April, 2015, upon consideration of pro se petitioner Paul
Satterfield’s Motion for Relief from Judgment and Orders [Pursuant to Federal Rule of Civil
Procedure 60(b)] (“Rule 60(b) Motion”) (Document No. 94, filed March 31, 2014); a letter from
prose petitioner dated January 20, 2015;1 and pro se petitioner’s Praecipe to Enter Default
(Document No. 95, filed April 13, 2015), IT IS ORDERED as follows:
1.

That part of Satterfield’s Rule 60(b) Motion which seeks to substitute “John E.

Wetzel in place of Philip L. Johnson” as Secretary of the Pennsylvania Department of
Corrections is GRANTED, and the caption shall be AMENDED to reflect that substitution;2
2.

Satterfield’s Rule 60(b) Motion is DENIED in all other respects; and

3.

Satterfield’s Praecipe to Enter Default is REJECTED.

IT IS FURTHER ORDERED that a certificate of appealability WILL NOT ISSUE on
the ground that reasonable jurists would not debate this Court’s procedural rulings with respect

A copy of prose petitioner ’ s letter dated January 20, 2015, shall be docketed by the
Deputy'Clerk.
J
John E. Wetzel became the Secretary of the Pennsylvania Department of Corrections in
December 2010. Pursuant to Rule 25(d) of the Federal Rules of Civil Procedure, John E. Wetzel
is substituted for Philip L. Johnson as a respondent in this case.

APH i e 20ls
g&Rk of court

to Satterfield’s claims or whether Satterfield has stated a valid claim of the denial of a
constitutional right. See Slack v. McDaniel. 529 U.S. 473,484 (2000); 28 U.S.C. § 2253(c).
The decision of the Court is based on the following:
I.

INTRODUCTION
1.

FtP se petitioner Paul Satterfield was convicted of first-degree murder and

possession of instruments of crime on June 10, 1985, in the Court of Common Pleas of
Philadelphia County. On that date, he was sentenced to life imprisonment on the murder
conviction and a consecutive term of two-and-a-half years’ imprisonment on the conviction for
possession of instruments of crime.
2.

On January 28, 2002, Satterfield filed a Petition for Writ of Habeas Corpus in this

Court pursuant to 28 U.S.C. § 2254. By Order and Memorandum dated June 21, 2004, this Court
granted the Petition with respect to the claim that Satterfield’s trial counsel was ineffective. See
Satterfield v. Johnson, 322 F. Supp. 2d 613 (E.D. Pa. 2004). In that Order, the Court vacated
Satterfield’s convictions and sentence, and stayed the execution of the writ of habeas corpus for
180 days to permit the Commonwealth of Pennsylvania (“the Commonwealth”) to grant
Satterfield a new trial.
3.

The Commonwealth appealed the Court’s decision to the United States Court of

Appeals for the Third Circuit on July 21, 2004. The Third Circuit reversed this Court’s decision
by Judgment and Opinion dated January 17, 2006, ruling that Satterfield’s Petition for Writ of
Habeas Corpus was time-barred under the Antiterrorism and Effective Death Penalty Act
(“AEDPA”). See Satterfield v. Johnson. 434 F.3d 185, 188 (3d Cir. 2006). The Third-Circuit
determined that, although the Commonwealth had failed to mention timeliness in its Notice of
Appeal, it had not waived that argument. See id. at 190-91. On remand, in accordance with the

2

Third Circuit’s mandate, this Court dismissed Satterfield’s Petition for Writ of Habeas Corpus by
Order dated April 19,2006.
4.

Presently before the Court are Satterfield’s Rule 60(b) Motion and Praecipe to

Enter Default. In his Rule 60(b) Motion, Satterfield challenges.the validity of this Court’s April
19, 2006 Order, and contends that he is currently being unlawfully imprisoned in the absence of
a valid conviction and judgment of sentence. Liberally construing the Rule 60(b) Motion, the
Court concludes that Satterfield is raising two principal arguments:3 (1) this Court’s April 19,
2006 Order is “void” because the Third Circuit lacked subject matter jurisdiction to order that his
Petition for Writ of Habeas Corpus be dismissed; and (2) his Petition for Writ of Habeas Corpus
should not have been dismissed as untimely because under McOnigpin v. Perkins 133 S. Ct.
1924 (2013), his claims of actual innocence entitle him to an exception to the limitations period.
In his Praecipe to Enter Default pursuant to Federal Rule of Civil Procedure 55(a), Satterfield
requests that a default be entered against respondents because they did not respond to his Rule
60(b) Motion. The Court addresses the issues raised by Satterfield’s filings in turn.

Satterfield also argues that the District Attorney of the County of Philadelphia should be
dismissed from the case and that anything filed by the District Attorney, including the Notice of
Appeal, should be stricken from the record because the District Attorney is not a proper party to
this action. According to Satterfield, this entitles him to the relief requested in his Rule 60(b)
Motion because the District Attorney never had standing to pursue an appeal of this Court’s
original decision to grant his Petition for Writ of Habeas Corpus. The Court rejects this
argument. The District Attorney was lawfully added as a party to this action by Order dated
April 9, 2002, and thus had standing to pursue an appeal. See Konya v. Mevers. No. 03-4065,
2004 WL 1171730, at *4 n.18 (E.D. Pa. May 24, 2004), report and recommendation adopted.
No. 03-4065, 2004 WL 2203727 (E.D. Pa. Sept. 30, 2004) (“[I]t is not clear that, under the
caselaw in the Third Circuit, Rule 2(a) prohibits the inclusion of the District Attorney and the
Attorney General as respondents (in addition to the Superintendent), especially where the
Attorney General specifically indicated an interest in filing an opposing response to the habeas
petition.”) (emphasis in original) (citations omitted).
3

II.

SATTERFIELD’S RULE 60(B) MOTION IS NOT A SECOND OR
SUCCESSIVE HABEAS PETITION
5.

The Court must first determine whether Satterfield’s pending Rule 60(b) Motion

is, in essence, a second or successive petition for habeas relief. Such a ruling is required because
the AEDPA requires a petitioner to obtain certification from the Court of Appeals authorizing the
District Court to address a second or successive habeas petition. See 28 U.S.C. § 2244(b)(3)(A).
6.

A Rule 60(b) motion is treated as a successive habeas petition if it is based on a

challenge to the underlying conviction.' Only when a Rule 60(b) motion challenges the manner in
which an earlier habeas corpus judgment was procured can it be adjudicated on the merits
without Court of Appeals authorization. Pridgen v. Shannon. 380 F.3d 721, 727 (3d Cir; 2004).
A motion that attacks the habeas court’s previous resolution of a claim on the merits constitutes a
second or successive habeas petition. Gonzalez v. Crosby. 545 U.S. 524, 532 (2005) (emphasis
omitted).
7.

The Court concludes that Satterfield’s Rule 60(b) Motion is not a second or

successive habeas petition. Rather than attacking his underlying conviction, the Motion purports
to challenge the validity of this Court’s April 19, 2006 Order, and the propriety of the Third
Circuit’s application of the AEDPA’s statute of limitations in light of McQuiggin. The Motion
thus attacks the manner in which Satterfield’s habeas petition was dismissed and is therefore
properly treated as a Rule 60(b) motion, not a second or successive habeas petition. See, e.g..
Akiens v. Wvnder. No. 06-5239, 2014 WL 1202746, at *2 (E.D. Pa. Mar. 24, 2014) (concluding
that petitioner’s Rule 60(b) motion challenging application of statute of limitations in light of
McQuiggin was not a second or successive habeas petition).

4

III.

SATTERFIELD’S ARGUMENT THAT THE THIRD CIRCUIT LACKED
SUBJECT MATTER JURISDICTION TO ISSUE ITS MANDATE IS
WITHOUT MERIT
8.

Satterfield argues first that this Court’s April 19, 2006 Order is void because the

Third Circuit lacked subject matter jurisdiction to order that his Petition for Writ of Habeas
Corpus be dismissed. According to Satterfield, this means that the Court’s Order dated June 21,
2004, in which the Court initially granted his Petition, remains “lawfully effective” and entitles
him to “be immediately released from lengthy continuing unlawful imprisonment.” This
argument is meritless, and it is one that Satterfield has previously raised, and this Court has
rejected, numerous times. See Order dated July 27, 2011; Order dated August 10, 2011; Order
dated November 4,2011; Order dated November 22, 2011.
9.

As the Court explained in its Order dated November 4, 2011, the Third Circuit

determined that, although the Commonwealth had failed to mention timeliness in its Notice of
Appeal, it had not waived that argument. See Satterfield. 434 F.3d at 190-91. The Third Circuit
then remanded the case to this Court “for dismissal in accordance with” its opinion. Id. at 196.
This Court is bound by the Judgment and Opinion of the Third Circuit. See Cooper Distrib. Co.
v. Amana Refrigeration. Inc.. 180 F.3d 542, 546 (3d Cir. 1999) (quoting Bankers Trust Co. v.
Bethlehem Steel Corp., 761 F.2d 943, 949 (3d Cir. 1985)) (““It is ‘axiomatic’ that On remand
after an appellate court decision, the trial court ‘must proceed in accordance with the mandate
and the law of the case as established on appeal.’”); Noel v. United Aircraft Core.. 359 F.2d 671,
674 (3d Cir. 1966) (“Where the reviewing court in its mandate prescribes that the court shall
proceed in accordance with the opinion of the reviewing court, such pronouncement operates to
make the opinion a part of the mandate as completely as though the opinion had been set out at
length.”). Accordingly, the Court denies that part of Satterfield’s Rule 60(b) Motion in which he

5

argues that the Third Circuit lacked subject matter jurisdiction to order that his Petition for Writ
of Habeas Corpus be dismissed.
IV.

SATTERFIELD’S ARGUMENT THAT HE IS ENTITLED TO RELIEF IN
LIGHT OF THE SUPREME COURT DECISION IN MCOUIGGTN V
PERKINS IS UNAVAILING
10.

Next, Satterfield argues that he is entitled to relief under Rule 60(b)(6) in light of

the Supreme Court decision in McOuiggin v. Perkins. In McOuiggin. the Court held that a claim
of actual innocence, if proven, provides an equitable exception to the one-year statute of
limitations in 28 U.S.C. 2244(d)(1). See 133 S. Ct. at 1928.
11.

Rule 60(b)(6), the catch-all provision, permits a party to seek relief from a final

judgment “when the movant shows ‘any... reason justifying relief from the operation of the
judgment’ other than the more specific circumstances set out in Rules 60(b)(l)-(5).” Gonzalez.
545 U.S. at 528-29 (citations omitted). However, “courts are to dispense their broad powers
under 60(b)(6) only in ‘extraordinary circumstances where, without such relief, an extreme and
unexpected hardship would occur.’” Cox v. Horn, 757 F. 3d 113, 120 (3d Cir. 2014) (quoting
Sawka v. Healtheast, Inc., 989 F.2d 138, 140 (3d Cir. 1993)). Such extraordinary circumstances
“rarely occur in the habeas context.” Gonzalez. 545 U.S. at 535. Moreover, “[intervening
developments in the law by themselves rarely constitute the extraordinary circumstances
required for relief under Rule 60(b)(6).” Agostini v. Felton. 521 U.S. 203, 239 (1997).
12.

The Court concludes that Satterfield has not shown extraordinary circumstances

sufficient to warrant relief under Rule 60(b)(6). McOuiggin was decided more than seven years
after this Court’s April 19, 2006 Order, and therefore constitutes a “development[] in the law,”
which “rarely constitute[s]” extraordinary circumstances sufficient for Rule 60(b)(6) relief.
Agostini, 521 U.S. at 23.9. Satterfield has not cited any authority in support of his contention or
convinced the Court that the legal development in McOuiggin constitutes extraordinary
6

circumstances, and this Court and several other courts have held otherwise. See, e.g., Pridgen v.
Shannon. No. 00-4561, 2014 WL 1884919, at *3-*4 (E.D. Pa. May 12, 2014); Akiens, 2014 WL
1202746, at *3 (collecting cases); Gonzalez. 545 U.S. 524 (rejecting petitioner’s argument that
he was entitled to habeas relief pursuant to Rule 60(b)(6) based on subsequent Supreme Court
decision under which his petition would have been deemed timely). The Court finds these cases
persuasive and denies this part of Satterfield’s Rule 60(b) Motion on the ground that the legal
development in McOuiggin does not constitute extraordinary circumstances sufficient to warrant
Rule 60(b) relief.
V.

SATTERFIELD’S PRAECIPE TO ENTER DEFAULT IS REJECTED
13.

In his Praecipe to Enter Default, Satterfield requests that a default be entered

against respondents because they did not respond to his Rule 60(b) Motion. See Fed. R. Civ. P.
55(a) (“When a party against whom a judgment for affirmative relief is sought has failed to plead
or otherwise defend, and that failure is shown by affidavit or otherwise, the clerk must enter the
party’s default.”).
14.

Rule 55 is inapplicable because “default judgments are not available in habeas

' actions.” Broadbent v. Mitchell, No. 09-1616, 2009 WL 3698131, at *2 (D.S.C. Nov. 3, 2009)
(collecting cases); see also Rule 5(a) of the Rules Governing Section 2254 Cases in the United
States District Courts. Even if Rule 55 was applicable, Satterfield has not cited any authority to
support the contention that the failure to respond to a motion, as opposed to an initial pleading, ,
constitutes a failure to “plead or otherwise defend” under Rule 55, and the Court has found no
such authority.
15.

Respondents filed a response to Satterfield’s Petition for Writ of Habeas Corpus.

Thus, any alleged failure to respond to Satterfield’s Rule 60(b) Motion would not entitle him to
an entry of default. See Green v. Knowlin, No. 09-840, 2010 WL 569572, at *7 (D.S.C. Feb. 11,
7

2010) (“[A]s the respondent timely responded to Green’s Petition [for Writ of Habeas Corpus],
his alleged failure to respond to Green’s motion [for summary judgment] would not entitle Green
to judgment even if Rule 55 were applicable.”) (emphasis in original). Furthermore, a response
to Satterfield’s Rule 60(b) Motion was unnecessary in view of the fact that the Motion merely
restated arguments previously rejected by the Court and is wholly without merit. Accordingly,
the Court rejects Satterfield’s Praecipe to Enter Default.

BY THE COURT:

DUBOIS, JAN E., J.

8

J
&

APPENDIX B
>

g-l
April 21, 2005

APS-210

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A.No. 05-1754
PAUL SATTERFIELD
v.
PHILIP L. JOHNSON, et al.
Appellant
(E D. Pa. Civ. No. 02-cv-000448)

Present:

SLOVITER, NYGAARD AND FUENTES, CIRCUIT JUDGES
Submitted are:
(1)

Appellant’s motion for bail pending appeal and for permanent
release from custody, and supporting affidavit; and

(2)

Commonwealth’s response

in the above-captioned case.
Respectfully,

Clerk
MMW/EAW/zm/arl
______________________
ORDER_______ _
The foregoing motion for release or bail pending appeal, is denied. Hilton v.
Braunskill. 481 U.S. 770 (1987).
By the Court,
/s/ Richard L.Nvgaard
Circuit Judge
Dated: May 18,2005
ARL/cc: PS; JHB

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 04-3108

PAUL SATTERFIELD,
Appellee,
v.
PHILIP L. JOHNSON: THE DISTRICT ATTORNEY OF THE COUNTY
OF PHILADELPHIA; THE ATTORNEY GENERAL OF THE STATE OF
PENNSYLVANIA,
Appellants.
Appeal from the United States District Court
for the Eastern District of Pennsylvania,
(D.C. Civ. No. 02-CV-00448)
District Judge: Honorable Jan E. DuBois

Submitted Under Third Circuit LAR 34.1(a)
(September 30, 2005)
Before: ALITO and AMBRO, Circuit Judges.
RESTANI/ Judge
(Filed January 17, 2006)
JUDGMENT
This cause was submitted on the briefs in accordance with Third Circuit LAR
34.1(a) on September 30, 2005.

* Honorable Jane A. Restani, Chief Judge of the United States Court of International
Trade, sitting by designation.

On consideration whereof, it is ORDERED and ADJUDGED that the order of the
District Court is REVERSED and the petition for writ of habeas corpus is REMANDED
for dismissal in accordance with the opinion of this court.

ATTEST:

Clerk
DATED: Jarmarv 17. 2006

Certified as a true copy and tesu^ In H^u ^
J Tl I :
of a formal manoate on
Tsstsi

Clerk! U.S. Court of Appeals ter the Third dreult

2

"Rcrpo/tTtiO

^

(43ff.3oC 185)

PRECEDENTIAL

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 04-3108

PAUL SATTERFIELD,
Appellee,
v.
PHILIP L. JOHNSON; THE DISTRICT ATTORNEY OF
THE COUNTY OF PHILADELPHIA; THE ATTORNEY
GENERAL OF THE STATE OF PENNSYLVANIA,
Appellants

Appeal from the United States District Court
for the Eastern District of Pennsylvania,
(D.C. Civ. No. 02-CV-00448)
District Judge: Honorable Jan E. DuBois

Submitted Under Third Circuit LAR 34.1(a)
(September 30, 2005)

Before: ALITO and AMBRO, Circuit Judges.
RESTANI*, Judge
(Filed January 17, 2006)
PAUL SATTERFIELD
Fayette State Correctional Institute
P.O.Box 9999
LaBelle, Pennsylvania 15450
Pro Se
J. HUNTER BENNETT, ESQUIRE
Office of the District Attorney
1421 Arch Street
Philadelphia, Pennsylvania 19102
Attorney for the Appellants

OPINION OF THE COURT

RESTANI, Judge
This appeal arises out of a petition for post-conviction
review of a state-court conviction for first-degree murder and

Honorable Jane A. Restani, Chief Judge of the United States
Court of International Trade, sitting by designation.
2

possession of an instrument of crime entered against Paul
Satterfield in 1985. Appellee, Satterfield, was granted a writ of
habeas corpus by Judge Jan E. DuBois of the Eastern District of
Pennsylvania on the basis of ineffective assistance of counsel
arising from trial counsel’s failure to call potentially exculpatory
eye-witnesses at trial. Appellants Philip L. Johnson, the District
Attorney for Philadelphia County, and the Attorney General of
the Commonwealth of Pennsylvania (“The Commonwealth”),
challenge the District Court’s ruling on ineffective assistance of
counsel and also argue that Satterfield’s federal habeas petition
should have been dismissed as time-barred under the
Antiterrorism andEffective Death Penalty Act (“AEDPA”). We
agree that Satterfield’s petition is time-barred and reverse the
judgment of the District Court.
I. FACTUAL BACKGROUND
In April 1983, Satterfield, a repairman, was called to the
house of William Bryant to repair a television set. After
receiving partial payment, Satterfield attempted but failed to fix
Bryant’s television set, returning several times without success.
Eventually, Bryant demanded a refund of his fee, threatening
Satterfield with a baseball bat. Satterfield returned the fee and
left.
On April 28, 1983, at about 3:30 in the morning, Bryant
was shot to death outside his home. Immediately after the
shooting, the police spoke with two eyewitnesses, Eric and
3

Grady Freeman. Eric Freeman described the shooter as a
blonde-haired white male, about five-feet-nine-inches tall,
driving a blue station wagon. Grady Freeman described the
shooter as a “light-skin guy,” about five-feet-eight-inches tall,
driving a dark station wagon, but did not specify his hair color
or ethnicity. Satterfield is a brown-haired African-American.
At that time, the police obtained a warrant to search Satterfield’s
home, but were unable to obtain sufficient evidence to make an
arrest.
In 1984, Satterfield made the acquaintance of Patricia
Edwards and her husband, Wayne. Mr. Edwards testified at trial
that on May 2, 1984, during a conversation after playing tennis,
Satterfield confessed that he murdered Bryant, that he had done
so because Bryant threatened him, and that he had disposed of
his .44 caliber gun after the murder. That day, Edwards
contacted his attorney, who contacted the police on his behalf to
report Satterfield’s admission. Satterfield contended at trial that
Edwards fabricated his confession to punish Satterfield for his
alleged romantic advances towards Edwards’s wife.
Satterfield’s defense consisted of impeaching Edwards’s
testimony as biased and arguing that a different shooter
committed the crime. Defense counsel entered the warrant
describing Eric Freeman’s police report into the record, but
neither Eric nor Grady Freeman testified to their recollection of
the crime. Defense counsel declined to call these witnesses out
of concern that the perhaps helpful effect of the witnesses’
4

police statements would be undermined. Counsel’s belief was
based, at least in part, on the fact that Eric Freeman had
identified the shooter as a white male while his brother Grady
had identified the shooter as a “light-skin guy,” which to counsel
meant a light-skinned African-American.
On June 10, 1985, Satterfield was convicted on both
counts and sentenced to life in prison.
II. PROCEDURAL HISTORY
The Superior Court affirmed judgment against Satterfield
on July 22, 1987. The Pennsylvania Supreme Court denied
allocatur on January 27, 1988. On April 1, 1996, Satterfield,
acting pro se, filed a petition with the Pennsylvania Supreme
Court, entitled “Petition for Writ of Habeas Corpus Ad
Subjiciendum - Inter Alia - King’s Bench Matter” (“King’s
Bench Petition”), which was denied on June 7, 1996. On
October 11, 1996, the Pennsylvania Supreme Court denied
Satterfield’s motion to reconsider dismissal ofhis King’s Bench
Petition.2 On January 13, 1997, Satterfield filed a petition for
relief pursuant to the Pennsylvania Post Conviction Relief Act

2 The Pennsylvania Supreme Court denied the Petition without
opinion. We accept as true the uncontested denial date of
October 11, 1996. See Satterfield v: Johnson. 218 F. Supp. 2d
715, 716 (E.D. Pa. 2002) [hereinafter Satterfield I].
5

(“PCRA”), 42 Pa. Cons. Stat. § 9541.3 The PCRA Court denied
Satterfield’s PCRA petition on September 21, 1998, which the
Superior Court affirmed August 22, 2000. The Pennsylvania
Supreme Court denied allocatur on April 30, 2001.
On January 23,2002, Satterfield filed the pro se Petition
for Writ of Habeas Corpus that is before us. Magistrate Judge
Scuderi initially dismissed the petition as time-barred, but, on
September 6, 2002, Judge DuBois remanded for additional
consideration of statutory tolling. Judge Dubois ruled that
Satterfield’s King’s Bench Petition was “properly filed” for
purposes of tolling the statute of limitations in federal habeas
cases under AEDPA, 28 U.S.C. § 2244(d)(2). Satterfield 1.218
F. Supp. 2d at 723.
On May 16, 2003, Magistrate Judge Scuderi issued a
Supplemental Report and Recommendation (“Supplemental

3 United States Magistrate Judge Peter B. Scuderi initially found
that Satterfield’s PCRA petition was filed on January 16,1997.
Magistrate Judge Scuderi, in his Supplemental Report and
Recommendation, later found that Satterfield’s PCRA petition
was in fact dated January 9 and filed January 13, 1997, the day
Satterfield now alleges he delivered his petition to prison
officials for filing. Pennsylvania deems the date a prisoner
delivers a pro se petition to prison authorities to be the date of
filing under the prison “mailbox rule.” Commonwealth v.
Jones. 700 A.2d 423, 426 (Pa. 1997).
6

-■>

'

Report”) recommending that Satterfield's claims be denied on
their merits. When Satterfield filed no objections, on July 16,
2003, Judge DuBois issued an order adopting the report. See
Satterfield v. Johnson. 322 F. Supp. 2d 613,617 (E.D. Pa. 2004)
[hereinafter Satterfield II].

.

On July 25, 2003, Satterfield filed objections to the
Supplemental Report, requesting the opportunity to file out of
time, which Judge Dubois eventually granted.4 On June 21,
2004, Judge DuBois vacated the report and order issued July 16,
2003, holding that Satterfield’s defense counsel had been
ineffective for failing to interview and call Eric and Grady
Freeman, and vacated Satterfield’s sentence. Satterfield’s
remaining claims of actual innocence and absence of notice of
charges against him were denied. The mandate was stayed for
180 days to permit Pennsylvania to retry Satterfield. IcL at
616-17.
Both Satterfield and the Commonwealth filed timely
notices of appeal from the court’s order.
III. JURISDICTION AND STANDARD OF REVIEW
We have jurisdiction to review the District Court’s grant

4Judge DuBois initially treated this petition as a motion for
reconsideration, but vacated that order, treating it instead as
objections filed out of time to the Supplemental Report.
7

of a writ of habeas corpus under 28 U.S.C. § 2253(a). We
exercise plenary review over issues related to statutes of
limitations. Merrittv. Blaine. 326 F.3d 157.161 (3dCir. 2003).
Where the District Court relies entirely on the state court record
and does not hold an evidentiary hearing, our review of the
District Court’s decision is also plenary. Lewis v. Johnson. 359
F.3d 646, 652-53 (3d Cir. 2004).
IV. DISCUSSION
: '

■ A.

The Commonwealth Did Not Waive the Right
To Assert That Satterfield’s Federal Habeas
Petition Is Time-Barred

Satterfield argues that the Commonwealth has failed to
appeal the portion of the District Court’s order holding that
Satterfield’s federal habeas petition was not time-barred under
AEDPA, and that therefore the Commonwealth has waived any
right to assert that his federal habeas petition is time-barred
under Federal Rules of Appellate Procedure 3(c)(1)(B) and
4(a)(1)(A). (Appellee’s Br. 21.)5 The Commonwealth’s Notice

5The Commonwealth’s Notice of Appeal states that:
Notice is given that [the Commonwealth]. . .
hereby appeal[s] to the United States Court of
Appeals for the Third Circuit, from that portion of
the Order of the Honorable Jan E. DuBois,
8

of Appeal does not mention any appeal from the portion of the
June 21, 2004 order adopting Magistrate Judge Scuderi’s
Supplemental Report (which held, pursuant to the District
Court’s remand order of September 6, 2002, that Satterfield’s
King’s Bench Petition was properly filed and therefore tolled
under AEDPA’s statutory tolling provisions). See 28 U.S.C.
§ 2244(d)(2).
Had the Commonwealth filed a notice of appeal from the
entire order granting collateral relief, the appeal of that final
judgment would have “draw[n] into question all prior non-final
orders and rulings.”. MCI Telecommunications Corp. v.
Teleconcepts. Inc.. 71 F.3d 1086, 1092 (3d Cir. 1995) (quoting
Drinkwater v. Union Carbide Corp.. 904 F.2d 853, 858 (3d Cir.
1990)). The Commonwealth’s notice only identified the portion
of the District Court’s order dealing with ineffective assistance
of counsel. Thus, the question is not whether an appeal from a
final order implicates all prior non-final orders, but whether an
appeal from a portion of a final order determining the merits of

granting the Petition for Writ of Habeas Corpus
with respect to petitioner ’ s claim that trial counsel
was ineffective for failing to call Eric Freeman
and Grady Freeman as witnesses at trial and
vacating petitioner’s conviction, entered in this
case on the 23rd day of June, 2004. (Appellants’
Addendum to App. at AA. 11.)
9

a federal habeas petition implies an appeal from another portion
of that same final order dealing with time-bar under AEDPA.6
We interpret the notice requirements of Rules 3 and 4
liberally, exercising appellate jurisdiction over orders not
specified in a notice of appeal if: “(1) there is a connection
between the specified and unspecified orders; (2) the intention
to appeal the unspecified order is apparent; and (3) the opposing
party is not prejudiced and has a full opportunity to brief the
issues.” Polonski v. Trump Taj Mahal Assocs.. 137 F.3d 139,
144 (3d Cir. 1998).
The District Court’s order adopting the magistrate
judge’s Supplemental Report regarding statutory tolling was
related to the claim for ineffective assistance of counsel because
the ineffective assistance of counsel claim could not be reached
without disposing of the issue of timeliness. See kb (treating
notice of appeal specifying summary judgment order as
including appeal of separate order granting attorney’s fees);
Drinkwater. 904 F.2d at 858 (notice of appeal designating
portions of a summary judgment order on sex discrimination
claim treated as related to prior order dismissing retaliation
count of same complaint).

6The issue of timeliness under AEDPA is not jurisdictional; thus
the court is not required to raise the issue if waived by one of the
parties. United States v. Bendolph. 409 F.3d 155,164-165 (3d
Cir. 2005).
10

The Commonwealth’s intention to appeal the issue of
timeliness was “clearly manifest” from its first brief. The
Kgt) Commonwealth’s brief, filed February 7 , 2004, devotes thirteen
pages to arguing the District Court’s ruling on statutory tolling.
(Appellants’ Br. 14-27.) There is no evidence that the
Commonwealth’s failure to include its objection to statutory
tolling prejudiced Satterfield. He had ample time to prepare a
response on the issue of statutory tolling, although he declined
to address statutory tolling and argued only the question of
equitable tolling in his brief. (Appellee’s Br. 21.) Cf United
States v. Bendolph. 409 F.3d at 169 (holding that one-month
notice for habeas corpus petitioner to prepare brief on issue of
timeliness raised sua sponte is sufficient to avoid prejudice).
B.

Satterfield Is Not Entitled to Statutory
Tolling

AEDPA imposes a one-year statute of limitations on all
federal habeas claims, subject to tolling for the time a “properly
filed application for State post-conviction or other collateral
review with respect to the pertinent judgment or claim is
pending....” 28 U.S.C. § 2244(d)(2). The one-year statute of
limitations on Satterfield’s federal habeas petition began to run
on AEDPA’s effective date, April 24, 1996. Bums v. Morton.
134 F.3d 109, 111 (3d Cir. 1998). Satterfield filed his King’s
Bench Petition prior to AEDPA’s effective date, on April 1,
1996. Assuming for the moment that this petition tolled
AEDPA’s statute of limitations, Satterfield’s time began to mn
11

when the Pennsylvania Supreme Court denied reconsideration
of its order dismissing the King’s Bench Petition on October 11,
1996. The statute oflimitations then ran until January 13,1997,
when Satterfield filed a petition for reliefpursuant to the PCRA,
which is conceded to have tolled AEDPA’s one-year limitation
until the petition was finally denied on April 30, 2001. The
statute oflimitations ran from that date until January 23, 2002,
when Satterfield filed his pro se petition for writ of habeas
corpus in federal court. If the King’s Bench Petition tolled
AEDPA’s statute of limitations, Satterfield timely filed his
federal habeas petition. The timeliness of Satterfield’s federal
habeas petition therefore hinges on whether his King’s Bench
Petition was “properly filed” with the Commonwealth.
1.

The Meaning of “Conditions to Filing”

In Artuz v. Bennett. 531 U.S. 4 (2000), the Supreme
Court held that a petition is properly filed when “its delivery and
acceptance are in compliance with the applicable laws and rules
governing filings.” Id. at 8. A properly filed petition must be in
the proper form, and be timely delivered to the proper court or
office, hf The key distinction developed in Artuz is between
“condition^) to filing,” which go to the application for post­
conviction review, and “conditions] to obtaining relief,” which
go to the individual legal claims contained within the application
for review. See id. at 11. Failure to satisfy the former prevents
a petition from being “properly filed,” which in turn prevents
application of AEDPA’s tolling provision. Failure to satisfy the
12

latter does not prevent statutory tolling. Artuz. 531 U.S. at 10
(“The statute ... refers only to ‘properly filed’ applications ...

Untimely filing, absence of jurisdiction, failure to pay.
fees, and failure to obtain a requisite certificate of appealability
are all examples of flaws going to the application for relief
itself. See Pace v. DiGuglielmo. 125 S. Ct. 1807, 1812-13
(2005) (discussing untimely filing and absence ofjurisdiction);
Artuz 531 U.S. at 8-9 (discussing filing fees and certificates of
appealability). These requirements prevent tolling because they
“go to the very initiation of a petition and a court’s ability to
consider that petition . . . .” Pace. 125 S. Ct. at 1814. By
contrast, a procedural bar on the relitigation of an issue raised on
appeal or a bar on claims that could have been raised on direct
appeal are examples of “mandatory state-law procedural
requirements” that go to conditions of relief, not conditions of
filing. Artuz, 531 U.S. at 8, 11.
The mere fact that a court reviewed an application before
dismissing it does not necessarily mean that an application was
“properly filed.” For example, the Court in Pace made clear that
a petition ruled untimely by a state court cannot be “properly
filed” even if some judicial review is necessary to determine if
the filing condition, or an exception to it, is met. Id at 1812
(finding timeliness, like “jurisdictional matters and fee
payments” to be conditions to filing even though they “often
necessitate judicial scrutiny”). If a state court determines that a
r-

13

petition is untimely, “that would be the end of the matter,
regardless of whether it also addressed the merits of the claim,
or whether its timeliness ruling was ‘entangled’ with the
merits.” Carev v. Saffold. 536 U.S. 214, 226 (2002); see also
Pace. 125 S. Ct. at 1813 (consideration by judge of whether
petitioner may proceed m forma pauperis does not prevent claim
from being dismissed as not “properly filed” for failure to pay
filing fees).
2.

Satterfield’s King’s Bench Petition Did Not
Meet Certain Conditions to Filing Under
Pennsylvania Law

Satterfield appears to concede, while arguing for the
application of equitable estoppel, that he “mistakenly asserted
his rights in the wrong forum” with respect to his King’s Bench
Petition. (Appellee’s Br. 6, 21.) The District Court likewise
found that it was “abundantly clear that the only means of
collaterally attacking a conviction is via a PCRA petition.”
Satterfield 1.218 F. Supp. 2d at 719. We agree that Satterfield’s
King’s Bench Petition was denied for failure to satisfy
conditions of filing and therefore was “improperly filed” under
Pennsylvania law.
If considered strictly as a petition for habeas corpus,
Satterfield’s King’s Bench Petition was improperly filed under
Pennsylvania law. The procedures for filing a petition for post­
conviction relief in Pennsylvania are defined by the PCRA.
14

Commonwealth v. Fahv. 737 A.2d214,223 (Pa.. 1999) (“[T]he
PCRA subsumes the writ of habeas corpus with respect to
remedies offered under the PCRA.”). It required Satterfield to
file three verified copies of the application for post-conviction
relief with the court in which he was convicted. Pa. R. Crim. P.
901(B) (2005). Satterfield failed to comply because he filed his
King’s Bench Petition with the Pennsylvania Supreme Court.
The Court in Pace implied that such failures to comply with the
PCRA’s requirements would prevent statutory tolling. 125 S.
Ct. at 1813 (the PCRA’s timeliness requirement is “every bit as
much a ‘condition to filing’’’ as the requirement that three copies
of a PCRA petition be filed “with the clerk of the court in which
the defendant was convicted”).
The King’s Bench Petition, if construed as an application
for extraordinary relief, also failed to meet certain conditions of
filing. Extraordinary relief may be granted “in any matter
pending before any court.” 42 Pa. Cons. Stat. Arm. § 726
(2005).7 Because Satterfield had already been convicted and his

7 Section 726 provides:
Notwithstanding any other provision of law, the
Supreme Court may, on its own motion or upon
petition of any party, in any matter pending before
any court or magisterial district judge of this
Commonwealth involving an issue of immediate
public importance, assume plenary jurisdiction of
15

direct appeals exhausted, there was no “pending” matter over
which the Pennsylvania Supreme Court could exercise
jurisdiction. See In re Assignment of Judge Bernard J. Avellino.
690 A.2d 1138, 1140 (Pa. 1997). The Pennsylvania Supreme
Court’s lack of jurisdiction goes to the initiation of a petition
and its ability to provide relief, and therefore was dismissed for
failure to meet a condition of filing. See Pace. 125 S. Ct. at
1812 (finding jurisdictional matters are conditions to filing).
Finally, the fact that the Pennsylvania Supreme Court is
vested with the authority to disregard these procedural
shortcomings pursuant to its King’s Bench powers does not
convert Satterfield’s improperly filed petition for post­
conviction relief into a properly filed petition for purposes of
AEDPA. Merely because the Pennsylvania Supreme Court is
vested with the authority to exercise its King’s Bench powers as'
it sees fit does not mean that prisoners are therefore granted the
power to delay indeterminately AEDPA’s statute of limitations
by filing King’s Bench petitions.8
such matter at any stage thereof and enter a final
order or otherwise cause right and justice to be
done.
8While a petition for extraordinary relief is limited to plenary
power over cases pending in lower courts, “[t]he. ‘power of
general superintendency over inferior tribunals,’ may be
exercised where no matter is pending in a lower court.” In re
Avellino. 690 A.2d at 1140.
16

The Seventh Circuit addressed a similar situation in
Brooks v. Walls. 279 F.3d 518 (7th Cir. 2002). In that case,
Illinois law provided that a trial judge could examine whether
untimely filing was the result of the petitioner’s “culpable
negligence” before dismissing. Petitioner Brooks contended
that any review of her claim for culpable negligence constituted
a consideration of the merits, and therefore her petition was
necessarily “properly filed.” The Court refused to accept this
argument, noting that “[i]f this is so, then almost every collateral
attack in Illinois is ‘properly filed’ for purposes of
§ 2244(d)(2).” Id. at 521. This was so despite the fact that the
trial judge could “cast... a sidelong glance at the merits” of a
petition before deciding whether to dismiss. IT Analogizing to
the doctrine of independent and adequate state grounds and
plain error review, the Court concluded that “[a] state does not
abandon the benefits of [the independent and adequate state
grounds doctrine] by allowing plain-error review - or by
accepting untimely collateral attacks when the standards of plain
error have been met.” Id, at 524. Thus, the Court refused to
treat the inclusion of consideration of “culpable negligence” as
rendering untimely filed petitions “properly filed” under
AEDPA.
Even if the Pennsylvania Supreme Court’s justices took
a “sidelong glance” at the merits of Satterfield’s petition when
deciding whether to exercise their King’s Bench powers, we
find that this would not excuse the substantial procedural
deficiencies in Satterfield’s King’s Bench Petition. See
17

Commonwealth v. Fahv. 737 A.2d at 224 (“[I]t goes without
saying that this court’s King’s Bench powers do not constitute
a vehicle by which we may circumvent the time requirements of
the PCRA to reach the merits of an appeal.”); Cf Stokes v.
Vaughn. 132 Fed. App’x 971, 973 (3d Cir. 2005)..(nonprecedential per curiam) (finding Pennsylvania Supreme Court’s
dismissal, “without comment,” of prisoner’s petition for
allowance of appeal nunc pro tunc “indicates that it did not
accept [petitioner’s] petition ... as properly filed under state
law, and thus the pendency of the [petition] did not result in
statutory tolling”).
We conclude that Satterfield’s King’s Bench Petition was
dismissed for failure to comply with conditions of filing
imposed by Pennsylvania law.
3.

A Petition For Relief That Is Improperly Filed
Under State Law May Not Be Treated As
Properly Filed For the Purposes of AEDPA

The remaining question in this case is whether a petition
for post-conviction relief, improperly filed under state law, may
nonetheless be considered “properly filed” for purposes of
AEPDA’s tolling statute. We conclude that it may not here.
In Satterfield I. the District Court noted that, at the time,
it remained an open question whether the Third Circuit’s
“flexible approach” to AEDPA’s “properly filed” requirement
18

extended to petitions seeking remedies “not available under
Pennsylvania law.” 218 F. Supp. 2d at 720-21. Judge DuBois
decided the issue in favor of Satterfield, finding that his King’s
Bench Petition was sufficiently similar to a PCRA petition to
count as properly filed. Id at 721. The District Court’s opinion
relied on Nara v. Frank, which held that an untimely petition
may nonetheless constitute a properly filed application under
§ 2244(d)(2) so long as it is “akin to an application for state
post-conviction or other collateral review.” 264 F.3d 310, 316
(3d Cir. 2001) (finding a motion to withdraw a guilty plea nunc
pro tunc was sufficiently similar to a PCRA petition to warrant
equitable tolling under § 2244(d)). In his opinion, Judge
DuBois recognized that the Supreme Court’s holding in Carev
v. Saffold may have undermined his analysis, but noted that
“this determination is one better left to the Third Circuit.”
Satterfield I. 218 F. Supp. 2d at 722 n.8.
Consistent with Judge DuBois’ recognition, we
subsequently held that Carev overruled Nara to the extent Nara
implied that an untimely petition for state collateral relief may
be deemed “properly filed” under AEDPA. Merritt v. Blaine.
326 F.3d 157, 166 (3d Cir. 2003) (“[DJecisions such as Nara v.
Frank ... to the extent they hold that petitions untimely under
state rules nonetheless may be deemed properly filed, were
wrongly decided.”).
An untimely state petition for post-conviction relief
cannot be “properly filed” for purposes of § 2244(d)(2).
19

Pace,125 S.Ct. at 1811. The Court expressed particular concern
that allowing untimely state applications for post-conviction
relief to toll AEDPA would transform AEDPA’s statute of
limitations into “a de facto extension mechanism.” Id. at 1812.
Although Pace and Merritt dealt specifically with cases
involving untimely state-law petitions for post-conviction
review, we find that the logic of those cases applies to cases
such as this, where the state petition is improperly filed for
reasons other than timeliness. See Brown v. Shannon. 322 F.3d
768, 776 n.5 (3d Cir. 2003) (“Pennsylvania law... did not (and
does not) recognize extra-PCRA petitions like Brown’s notice
of appeal nunc pro tunc. Because such petitions are improperly
filed as a matter of state law, it seems doubtful that they may be
deemed ‘properly filed’ within the meaning of § 2244(d).”).
A rule allowing prisoners to toll AEDPA’s statute of
limitations by filing applications not conforming with state law
would undermine the purpose of AEDPA. Petitioners could,
with the exercise of some creativity, deliberately delay the onset
of AEDPA’s statute of limitations by filing numerous petitions
“akin” to legitimate state-law petitions for post-conviction relief
- creating just the “de facto extension mechanism” feared by the
Supreme Court in Pace. Other circuits have arrived at similar
conclusions. See, e.g.. Sibley v. Culliver. 377 F.3d 1196,
1202-04 (11th Cir. 2004) (assuming petition filed with Florida
Supreme Court to be a petition for collateral review, refusing to
toll statute in part because petition was not “properly filed” for
20

failure to comply with Alabama laws governing the location and
form of filing); Adeline v. Stinson. 206 F.3d 249, 253 (2d Cir.
2000) (“[T]he filing of creative, unrecognized motions for leave
to appeal” does not trigger tolling pursuant to § 2244(d)(2)).
Where state law mandates that petitions for collateral
relief be resolved through a unified system in a definite period,
a practice of accepting non-conforming petitions as “properlyfiled” for the purposes ofAEDPA would encourage prisoners to
abuse state post-conviction procedures, undermining the finality
of state-law judgments. This is exactly what AEDPA was
designed to prevent. Carev. 536 U.S. at 220 (“The exhaustion
requirement serves AEDPA’s goal ofpromoting comity, finality,
and federalism.”) (citation omitted); Duncan v. Walker. 533
U.S. 167, 178 (2001) (AEDPA’s purpose is not only to further
the interests of comity and federalism, but also to further finality
of convictions).
We conclude that Satterfield’s King’s Bench Petition was
not “properly filed” for purposes of § 2244(d)(2) and therefore
did not toll AEDPA’s one-year statute of limitations. Thus,
Satterfield’s federal habeas petition should be dismissed as timebarred unless equitable principles warrant tolling of the statute
of limitations.
C. Satterfield Has Not Demonstrated Diligence and
Extraordinary Circumstances Justifying Equitable
Tolling of AEDPA’s Statute of Limitations
21

Having failed to meet AEDPA’s one-year statute of
limitations, Satterfield’s petition can only be saved by
application ofthe doctrine of equitable tolling. Equitable tolling
is available ‘“only when the principle of equity would make the
rigid application of a limitation period unfair.’” Merritt. 326
F.3d at 168 (quoting JFahyvJHom, 240 F.3d 239, 244 (3d Cir.
2001)). A petitioner seeking equitable tolling bears the burden
to show that he diligently pursued his rights and that some
“extraordinary circumstance stood in his way.” Pace. 125 S. Ct.
at 1814.
Equitable tolling may be had if: “(1) the defendant has
actively misled the plaintiff; (2) if the plaintiff has in some
extraordinary way been prevented from asserting his rights; or
(3) if the plaintiff has timely asserted his rights mistakenly in the
wrong forum.” Fahv v. Horn. 240 F.3d at 244 (citing Jones v.
Morton. 195 F.3d 153, 159 (3d Cir. 1999)). There are no
allegations that the Commonwealth misled Satterfield regarding
.his claim. Therefore equitable tolling must be justified either
because of extraordinary circumstances or a timely assertion of
rights in the wrong court.
Satterfield alleges “extraordinary circumstances” in the
form of a prison riot that deprived him of his legal materials in
1989. He concedes, however, that the materials were replaced
by May 4,1995, almost a full year before the AEDPA statute of
limitations went into effect on his -claim. (Appellee’s, Br. 22.)
Where a petitioner is ultimately able to file his habeas petition.
22

with or without having received replacement materials, the
deprivation of legal documents does notjustify equitable tolling
See Brown, 322 F.3d at 773 (failure of attorney to obtain a
complete set of trial transcripts not an “extraordinary
circumstance^” justifying equitable tolling).
Equitable tolling may also apply if Satterfield’s
improperly filed King’s Bench Petition constitutes a timely
application for relief in the wrong forum. Jones v. Morton. 195
F.3dat 159. The Commonwealth claims that the “wrong forum”
test does not toll the federal habeas deadline on the basis of a
state collateral-relief petition filed with the wrong state court.
(Appellants’ Reply Br. 2-3.) The Commonwealth is correct that
cases interpreting the “wrong forum” element of Jones v.
Morton usually refer to a peremptory filing in federal court prior
to exhaustion of state-law claims. See Pace 125 S. Ct. at 1813
(noting the right of a petitioner to file a “protective petition” in
federal court to guard against AEDPA’s statute of limitations).
Because Satterfield has failed to exercise reasonable diligence
in the pursuit of his claims, we do not decide whether a
petitioner who files a state-law petition in the wrong state court
may invoke the doctrine of equitable tolling for filing in the
“wrong forum.”
Even if Satterfield’s filing in the wrong court constituted
an extraordinary circumstance, he would not be eligible for
equitable tolling because of his lack of diligence in pursuing his
petition. The record shows that Satterfield waited nearly a year
23

to initiate the process of petitioning for post-conviction relief
alleging ineffective assistance of counsel after receiving
replacement legal materials. Following dismissal of his PCRA
petition, he waited more than eight months to file his habeas
petition in federal court. Such a delay demonstrates that
Satterfield did not diligently pursue available routes to collateral
relief. Pace, 125 S. Ct. at 1815 (The “lack of diligence
precludes equity’s operation” where petitioner waited years to
bring first post-conviction claim, and over five months after
denial of state post-conviction relief to pursue federal habeas
corpus).
V. CONCLUSION
For the foregoing reasons, the order of the District Court
granting Appellee’s petition for habeas corpus is REVERSED
and the petition is ordered REMANDED for dismissal in
accordance with this opinion.

24

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
>'
June 29, 2006
No. 04-3108
PAUL SATTERFIELD
y.

PHILIP L. JOHNSON, et al., Appellant
(U.S. District Court for the Eastern District of PA: No. 02-cv-00448)
Present:

AMBRO, Circuit Judge, and RESTANI, Judge of International Trade
Motion by Appellee, Paul Satterfield,\ to Vacate/Void Judgment.

Opinion filed: 01/17/06
Mandate issued: 04/14/06

/s/ Aina R. Laws
Case Manager 267-299-4957
_ ORDER

The foregoing motion by Appellee, Paul Satterfield to Vacate/Void Judgement is denied.

By the Court,

/s/ Thomas L. Ambro. Circuit Judge
Dated: July 13, 2006
ARL/cc: JHB; PS

5-4
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
July. 13, 2010
* Amended: August 6, 2010
No. 04-3108
\

PAUL SATTERFIELD
Y.

PHILIP L. JOHNSON, et al. Appellant
(E.D. Pa. No. 02-cv-00448)
Present:

AMBRO, FUENTES and SMITH, Circuit Judges

1.

Motion by Appellee, Paul Satterfield, to Recall Mandate, with Appendix in Support
thereof.

2.

Motion by Appellee, Paul Satterfield, for Immediate Enforcement of Writ of Habeas
Corpus Pending Disposition of Appellee’s Motion to Recall the Mandate.

Opinion filed: 01/17/06
Mandate issued: 04/14/06
Any Response due 7/12/10 has not been received.

/s/ Aina R. Laws_________
Case Manager 267-299-4957

ORDER
The foregoing motions are DENIED.

By the Court,

/s/ Julio M. Fuenf.es
Circuit Judge
Dated: August 12, 2010
ARL/cc: JHB; PS

g-5
GLD-120

February 16, 2012

UNITED STATES COURT OF APPEALS FOR TTTF, THIRD CIRCUIT
C.A. No. 12-1108
IN RE: PAUL SATTERFIELD
Petitioner
(Related to E.D. Pa. Civ. No. 2:02-cv-00448)
Present: FUENTES, GREENAWAY, JR. and NYGAARD, Circuit Judges
Submitted are:
(!)•

Petitioner s Petition En Banc for a Writ of Error Coram Nobis”;

(2)

Letter from Petitioner construed as a motion for “omnibus relief’;
and

(3)

Letter from Petitioner construed as a motion to expedite and for
immediate release from custody pending disposition of this matter
in the above-captioned case.
Respectfully,

Clerk
MMW/TW C/tnh
__ ____________________ _________ ORDER
_____________________________
The foregoing petition, which principally seeks to challenge our January 17, 2006
decision issued in Petitioner’s 28 U.S.C. § 2254 proceedings, see Satterfield v, Johnson.
434 F.3d 185 (3d Cir. 2006), is denied. “Coram nobis is an extraordinary remedy that has
traditionally been used to attack federal convictions with continuing consequences when
the petitioner is no longer in custody for purposes of 28 U.S.C. § 2255.” United States v.
^lines- 640 F-3d
71 (3d Cir- 2011.) (per curiam) (internal quotation marks and
citation omitted). That remedy is clearly inapplicable here, for Petitioner, a state
prisoner, has not been released from custody and is not attacking a federal conviction.
We note that Petitioner has already sought en banc rehearing of our January 17, 2006
decision, as well as moved to recall the mandate that followed that decision. Both of
those requests were denied. To the extent the instant petition could be construed as

I

seeking coram nobis relief with respect to his underlying state court proceedings, he may
not pursue that relief in federal court. See Obadorv, New Jersey 328 F3d716 718 (3d
Cin 2003) (per curiam). Smce the petition is wholly without merit, we declineto refer it
to the Court en banc. The various relief sought in Petitioner’s two motions
accompanying the instant petition is denied.

By the Court.

/s/Richard L. Nvgaard
Circuit Judge
.

Dated: March 9, 2012
Tnh/cc:

Paul Satterfield
Thomas W. Dolgenos, Esq.

* o
■■S'.

a
X

■\>

*

- O

A True Copj^;''
lv3S

,?97'
Marcia M. Waldron, Clerk

DLD-011
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 16-3176
PAUL SATTERFIELD,
Appellant
v.
DISTRICT ATTORNEY PHILADELPHIA;
ATTORNEY GENERAL PENNSYLVANIA;
SECRETARY PENNSYLVANIA DEPARTMENT OF CORRECTIONS
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil No. 2-02-cv-00448)
District Judge: Honorable Jan E. Dubois
Submitted for Possible Summary Action
Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
October 13, 2016
Before: CHAGARES, VANASKIE and KRAUSE. Circuit Judges
JUDGMENT
This cause came to be considered on the record from the United States District
Court for the Eastern District of Pennsylvania and was submitted for possible summary
action pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6 on October 13,2016. On
consideration whereof, it is now hereby
ORDERED and ADJUDGED by this Court that the judgment of the District Court
entered July 6, 2016, be and the same hereby is affirmed. All of the above in accordance
with the opinion of this Court.

ATTEST:

s/Marcia M. Waldron
Clerk
DATED: October 26, 2016

V-

msi;

CertrBeli.
y*^d issued in lieu
i oft0 November 17,2016
of a forifi^J Tna&date
fa' &/cut&Wv*Teste:
Clerk, U.S. Court of Appeals for the Third Circuit

Case: 16-3176

Document: 003112444929

Page: 1

Date Filed: 10/26/2016

NOT PRECEDENTIAL

DLD-011

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 16-3176
PAUL SATTERFIELD,
Appellant
v.
DISTRICT ATTORNEY PHILADELPHIA;
ATTORNEY GENERAL PENNSYLVANIA;
SECRETARY PENNSYLVANIA DEPARTMENT OF CORRECTIONS
OnAppeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil No. 2-02-cv-00448)
District Judge: Honorable Jan E. Dubois
Submitted for Possible Summary Action
Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
October 13, 2016
Before: CHAGARES, VANASKIE and KRAUSE, Circuit Judges
(Opinion filed: October 26, 2016)
OPINION*
PER CURIAM

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

Case: 16-3176

Document: 003112444929

Page: 2

Date Filed: 10/26/2016

Paul Satterfield is serving a life sentence, imposed in 1985 pursuant to a statecourt murder conviction. The District Court granted Satterfield’s January 2002 petition
for a writ of habeas corpus, but we reversed on appeal and remanded with instructions to
dismiss the petition as time-barred. Satterfield v. Johnson. 434 F.3d 185 (3d Cir. 2006).
The District Court then dismissed Satterfield’s petition by order dated April 19, 2006.
Years later, Satterfield, invoking the rule from McQuiggin v. Perkins. 133 S. Ct.
1924 (2013), moved under Fed. R. Civ. P. 60(b) to vacate the April 19, 2006 judgment of
dismissal. The District Court denied relief. We granted Satterfield a certificate of
appealability (“COA”), and that appeal is pending. See CA No. 15-2190.
In 2016, Satterfield filed in the District Court a pro se motion under Fed. R. App.
P. 10(e).1 He primarily argued that the form used to draft his January 2002 habeas
petition was supplied by the District Court (see ECF No. 2) and contained pre-printed
text requiring, in error, identification of a district attorney’s office (“the DA”) as a partyrespondent (see ECF No. 3).2 Satterfield argued that only his jailor and the local
Attorney General were proper respondents, see Habeas Corpus Rule 2(a), yet the DA was

1 Fed. R. App. P. 10(e) “authorizes the district court to augment the record in two
situations: (1) when the parties dispute whether the record truly discloses what occurred
in the district court, or (2) when a material matter is omitted by error or accident. All
other questions on the form and content of the record are to be presented to the court of
appeals.” Fassett v. Delta Kappa Epsilon, 807 F.2d 1150, 1165 (3d Cir. 1986).
2 Satterfield also argued that the docket failed to reflect the date when his habeas petition
was served on the other respondents.
2

Case: 16-3176

Document: 003112444929

Page: 3

Date Filed: 10/26/2016

added as a party and the caption was amended to reflect as much (see ECF No. 5).
Satterfield requested that the District Court excise the DA’s appearance from the record.
The District Court denied Satterfield’s motion to correct the record on appeal,
concluding that it had previously rejected his request to, in effect, erase the DA from the
history of the habeas case. See ECF No. 96 (District Court’s April 15, 2015
memorandum order), p. 3 n.3 (“The District Attorney was lawfully added as a party to
this action by Order dated April 9, 2002, and thus had standing to pursue an appeal.”).
Satterfield timely appealed.
We exercise jurisdiction under 28 U.S.C. § 1291. “When a district court settles a
dispute about what occurred in proceedings before it, the court’s determination is
conclusive unless intentionally false or plainly unreasonable.” United States v.
Hernandez, 227 F.3d 686, 695 (6th Cir. 2000); accord United States v. Graham, 711 F.3d
445, 452 (4th Cir. 2013). We may affirm on any ground supported by the record. See
Tourscher v. McCullough, 184 F.3d 236, 240 (3d Cir. 1999).
We will summarily affirm the District Court’s judgment because this appeal
presents no substantial question. See 3d Cir. L.A.R. 27.4; I.O.P. 10.6. The District Court
correctly observed that Satterfield’s challenge to the party-respondent status of the DA
was previously raised (see ECF No. 94) and rejected (see ECF No. 96). Indeed, we, too,
have rejected Satterfield’s attempts to invalidate the DA’s participation in his habeas
proceedings. See CA No. 15-2190 (3d Cir. Oct. 7, 2015) (denying peripheral motions).
In any event, we perceive no flaws in the record on appeal to this Court—in CA Nos. 043

Case: 16-3176

Document: 003112444929

Page: 4

Date Filed: 10/26/2016

3066, 04-3108 or 15-2190—of the sort complained of by Satterfield and which resulted
from “error or accident.” Fed. R. App. P. 10(e)(2); cf Marron v. Atlantic Refining Co.,
176 F.2d 313, 315 (3d Cir. 1949).
The District Court’s judgment will, therefore, be summarily affirmed.
Satterfield’s motions for a COA, to expand the COA in CA No. 15-2190, and for
expedited adjudication are denied as unnecessary, improper, and moot, respectively.

4

g-7
OFFICE OF THE CLERK

MARCIA M. WALDRON

United States Court of Appeals

TELEPHONE

CLERK

21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790

215-597-2995

Website: www.ca3.uscourts.gov
April 19, 2017

Mr. Paul Satterfield
Fayette SCI
P.O. Box 9999
LaBelle, PA 15450
RE:

Satterfield v. Johnson
C.A. No. 04-3108

Dear Mr. Satterfield:
This will acknowledge receipt on April 17, 2017, of your letter to accept the
original of Appellee’s Petition for Leave to Seek Relief from a Void Judgment from a
Prior Term on the Ground of Being Contrary to Marbury v. Madison, 5 U.S. 137 (1803).
No action may be taken on request and it is returned to you.
The mandate in this matter was entered on April 14, 2006, finalizing this Court’s
decision. A motion to recall the mandate was filed on July 8, 2010, and denied on
August 12, 2010. No further submissions will be considered. Any further review must
be sought in the United States Supreme Court. This office will not continue to respond to
documents and inquiries submitted in this matter.
Very truly yours,

'h

fal' fa/tUjhtr*.

Marcia M. Waldron, Clerk
MMW/mb
Enclosure

£'8
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
.rtf

PAUL SATTERFIELD

CIVIL ACTION

v.
• :1

PHILIP L. JOHNSON, ET AL.

: ; ’ NO. 02-448
ORDER

AND NOW, this

Cftl

day of

, 2002,

upon consideration of Relator's Petition for a Writ of Habeas
Corpus, IT IS ORDERED that:
1.

The District Attorney of PHILADELPHIA is added as a

party respondent and the caption is hereby so amended.
2.

The District Attorney shall file specific and

detailed Answers within thirty (30) days of the date of this
order pursuant to Rule 5, 28 U.S.C. fol. § 2254.1
BY THE COURT:

HMTERED
'APR ! f] 2002
CLERIC OF COURT

5

PETER B. SCUDERI
U.S. MAGISTRATE JUDGE

1. Upon review of Relator's petition, it appears that the
petition may be
_ subject to the one-year limitation period found
at
28
U.S.C.
,.
. , .
Section 2244 (d)(1). As a result, Respondents are
directed to address the applicability of the one-year limitations
period and any equitable considerations thereto. We note
however, that compliance with this Order in no way excludes or
restricts Respondents from filing a full and complete Answer
applying all relevant legal theories and defenses. If, indeed,
an Answer on the merits of Relator's claims is deemed necessary,
please. note in ^ 2 that the. court requires an Answer to be
specific and detailed as to Relator's claims.

gIN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
PAUL SATTERFIELD,
Petitioner,

CIVIL ACTION

v.
PHILIP L. JOHNSON; THE DISTRICT
ATTORNEY OF THE COUNTY OF
PHILADELPHIA; and THE ATTORNEY
GENERAL OF THE STATE OF
PENNSYLVANIA,

NO. 02-0448

V

:j

vr:

■

;

i ‘ i'-L t , ' U

C-.br::

Respondents.

DuBOIS, J.

September 6, 2002
MEMORANDUM

I.

INTRODUCTION
Petitioner, Paul Satterfield, is a state prisoner currently serving a life sentence at the State

Correctional Institution, Pittsburgh, Pennsylvania. His sentence arises out of a June 10, 1985,
conviction for first-degree murder and possession of an instrument of crime. On January 23,
2002, petitioner filed a pro se Petition for Writ of Habeas Corpus by a Person in State Custody
pursuant to 28 U.S.C. § 2254. (Document No. 1). 1 On March 25, 2002, this Court referred the
petition to United States Magistrate Judge Peter B. Scuderi. After respondents filed a response to
the petition, on May 29, 2002, Judge Scuderi issued a Report and Recommendation (Document

i

Under the “prison mailbox rule,” the petition is considered as having been filed on the
date petitioner gave the petition to prison authorities for mailing. Bums v. Morton. 134$sAj09,
112-13 (3d Cir. 1998). Thus, the Court considers the petition filed as of January 23, 2002, tlre^^
date on which petitioner submitted it for mailing, rather than the date on which it was a^t^lly
filed with the Court, January 28, 2002.

No. 8, filed May 29, 2002) (“R & R”) recommending that the petition be dismissed on the ground
that it was filed beyond the one-year statute of limitations under 28 U.S.C. § 2244(d).
Presently before the Court are Petitioner’s Objections to Magistrate Judge’s Report and
Recommendation (Document No. 11, filed June 14, 2002). In that filing, petitioner states a
number of objections to Judge Scuderi’s Report and Recommendation, most relevant of which are
those pertaining to the timeliness of the petition under § 2244(d). Upon review of the objections
relating to timeliness, the Court reaches a different conclusion than Judge Scuderi with respect to
statutory tolling under § 2244(d). This conclusion will require further analysis as to the timeliness
of the habeas petition. Accordingly, the Court will sustain petitioner’s objections as to statutory
tolling, and remand the petition to Judge Scuderi for further consideration and submission of a
supplemental report and recommendation. Petitioner’s remaining objections will be overruled
without prejudice.
II.

PROCEDURAL HISTORY
Petitioner appealed his June 10, 1985, conviction and his life sentence to the Pennsylvania

Superior Court, which affirmed the conviction and sentence on July 22, 1987. Commonwealth v.
Satterfield. 531 A.2d 528 (Pa. Super. Ct. 1987) (table). Petitioner then filed a petition for
allowance of appeal with the Supreme Court of Pennsylvania, and the petition was denied on
January 27, 1988. Commonwealth v, Satterfield. 539 A.2d 811 (Pa. 1988) (table).
On April 1, 1996, petitioner filed a “Petition for Writ of Habeas Corpus Ad Subjiciendum
- Inter Alia - King’s Bench Matter” in the Supreme Court of Pennsylvania. That court denied the

-2-

petition on June 7, 1996,2 and, thereafter, on October 11, 1996, denied petitioner’s petition for
reconsideration.
Some time between January 13, 1997 and January 16, 1997,4 petitioner filed a pro se
petition attacking his conviction under Pennsylvania’s Post Conviction Relief Act, 42 Pa. C.S.A. §
9541 et seq. (“PCRA”). After counsel was appointed, petitioner requested that he be permitted
to proceed pro se, which request the PCRA court granted. Thereafter, on September 21, 1998,
the Court of Common Pleas denied petitioner’s pro se petition. The Superior Court affirmed that
ruling on August 22, 2000. Commonwealth v, Satterfield, 764 A.2d 1128 (Pa. Super. Ct. 2000)
(table). The Supreme Court of Pennsylvania denied petitioner’s petition for allowance of appeal
on April 30, 2001. Commonwealth v, Satterfield. 775 A.2d 805 (Pa. 2001) (table). Petitioner
then filed the instant § 2254 petition on January 23, 2002.
m.

DISCUSSION
A.

RELEVANT STATUTE OF LIMITATIONS

The instant petition is governed by the Antiterrorism and Effective Death Penalty Act of
1996 (“AEDPA”), which codified a one-year statute of limitations for actions brought under 28
U.S.C. § 2254. See 28 U.S.C. § 2244(d)(1). Unless one of three exceptions apply, see 28 U.S.C.
§ 2244(d)(l)(B)-(D), the statute runs from “the date on which the judgment became final by the
-

2 The Supreme Court of Pennsylvania’s denial of the “Petition for Writ of Habeas Corpus
Ad Subjiciendum - Inter Alia - King’s Bench Matter” is not reported. Respondents do not,
however, challenge the date of the denial.
3 Respondents state that they have no record of this denial. They do not, however, contest
the fact that the petition for reconsideration was filed.
4 As discussed below, the date on which the PCRA petition was filed is the subject of one
of petitioner’s objections.
-3-

conclusion of direct review or the expiration of the time for seeking such review.” 28 U.S.C §
2244(d)(1)(A). In this case, that would mean that the one-year statute began to run ninety days
after January 27, 1988, the final date on which petitioner could have petitioned for certiorari after
the Supreme Court of Pennsylvania declined consideration of petitioner’s direct appeal. The
Third Circuit has decided, however, that, for a petitioner whose conviction became final before
AEDPA’s enactment, the one-year statute of limitations is treated as running from the date of that
enactment, April 24, 1996. Bums v. Morton. 134 F.3d 109, 111-12 (3d Cir. 1998); see also
Morris v. Horn. 187 F.3d 333, 337 (3d Cir. 1999).
Without any tolling of the statute, petitioner would be barred from filing a habeas petition
after April 23, 1997. AEDPA further provides, however, that the statute should be tolled for
\

“[t]he time during which a properly filed application for State post-conviction or other collateral
review with respect to the pertinent judgment or claim is pending.” 28 U.S.C. § 2244(d)(2). In
this case, petitioner filed two state-court actions, the “Petition for Writ of Habeas Corpus Ad
Subjiciendum - Inter Alia - King’s Bench Matter” filed on April 1, 1996 (hereinafter, “the King’s
Bench petition”), and the PCRA action filed in January 1997. A threshold question for assessing
the timeliness of the instant habeas petition is whether these state-court actions constitute
“properly filed application^] for State post-conviction or other collateral review” under
§ 2244(d)(2) such that the AEDPA statute of limitations would be tolled for the time period
during which they were pending.
B.

THE REPORT AND RECOMMENDATION: CALCULATION OF
PETITIONER’S FILING DEADLINE UNDER AEDPA

Judge Scuderi, in addressing the effect of petitioner’ s state-court petitions, concluded that

■4-

the King’s Bench petition was not a properly filed state collateral attack. He did so on the ground
that petitioner’s King’s Bench petition “essentially sought a remedy that was not available under
Pennsylvania law.” R & R at 5-6. The remedy was not available, Judge Scuderi explained,
because the PCRA explicitly states that a PCRA petition “shall be the sole means of obtaining
collateral relief’ and that the PCRA “encompasses all other common law and statutory remedies
for the same purpose that exist when this subchapter takes effect including habeas corpus and
coram nobis.” 42 Pa. C.S.A. § 9542. Likewise, the remedy was not available because, “under
state law, the authority to hear a collateral appeal lies with the Pennsylvania Court of Common
Pleas and not the Supreme Court.” R & R at 6 (citing 42 Pa. C.S.A. § 9545(a)). Because the
remedy petitioner sought in the King’s Bench petition was not available under Pennsylvania law,
Judge Scuderi concluded that the petition was not “properly filed” under § 2244(d)(2), and,
accordingly,' that it did not toll the AEDPA statute of limitations.
Additionally, Judge Scuderi determined that, because the King’s Bench petition was not
properly filed, petitioner’s petition for reconsideration of the Supreme Court of Pennsylvania’s
dismissal of the King’s Bench petition could not be viewed as “properly filed.” In doing so, Judge
Scuderi also noted Pa. R. App. P. 3309, which governs King’s Bench matters and does not
explicitly permit petitions for reconsideration. That determination by Judge Scuderi led him to
conclude that the AEDPA statute of limitations was not tolled while the petition for
reconsideration was pending.
Judge Scuderi did, however, determine that the PCRA petition was “properly filed” under
§ 2244(d)(2). Thus, he concluded, the AEDPA statute of limitations was tolled during the
pendency of that petition - from January 16, 1997, the date Judge Scuderi adopted as the date
-5-

petitioner filed the PCRA petition, through April 30, 2001, when the Supreme Court of
Pennsylvania denied the petition for allowance of appeal.
Based on this analysis, Judge Scuderi calculated petitioner’s deadline for filing a federal
habeas petition, as follows. The statute began to run on April 24, 1996, the date AEDPA was
enacted. It ran for 268 days until January 16, 1997, when petitioner filed his PCRA petition,
tolling the statute of limitations under § 2244(d)(2). The statute then began to run again at the
end of the tolling period, on April 30, 2001, the date on which the Supreme Court of Pennsylvania
denied petitioner’s petition for allowance of appeal. It expired 97 days later, on August 5, 2001.
Because petitioner filed the § 2254 petition more than five months later, on January 22, 2002,
Judge Scuderi concluded the petition was time barred.
C.

PETITIONER’S OBJECTIONS

In his objections, petitioner argues, inter alia, that his King’s Bench petition and petition
for reconsideration with respect to the King’s Bench petition, should be considered as “properly
filed” under § 2244(d)(2). Should the King’s Bench petition and petition for reconsideration be
viewed as tolling the limitations period under § 2244(d)(2), the AEDPA statute of limitations
would not have run from April 24, 1996; instead, it would have run from October 11, 1996, the
date the petition for reconsideration was denied. Assuming, arguendo, that petitioner filed his
PCRA petition on January 16, 1997, the date Judge Scuderi adopted, the statute would have run
for 98 days until that date. The running of the statute would then have tolled until the conclusion
of the PCRA proceedings on April 30, 2001. From that date, petitioner had 267 days to file his
habeas petition, or until January 21, 2002. Thus, assuming that the King’s Bench petition and the
petition for reconsideration were “properly filed,” petitioner’s filing of the § 2254 petition on
-6\

January 23, 2002, would have been untimely by two days.
However, petitioner’s additional objection as to the date on which his PCRA petition was
filed, if sustained, would render his habeas petition timely. Specifically, petitioner objects to
Judge Scuderi’s adoption of January 16, 1997, as the date on which the PCRA petition was filed,
and argues that the petition was actually filed, under the prison mailbox rule,5 on January 13,
1997, when he gave the PCRA petition to prison authorities for mailing. Should the Court adopt
January 13, 1997, as the date on which the PCRA petition was filed, petitioner’s filing deadline
would be extended by three days, and January 23, 2002, the date on which he filed, would have
been the next to last day of the one-year statutory period.
D.

ANALYSIS OF PETITIONER’S OBJECTIONS

The Court must resolve two issues: (1) the date on which the PCRA petition was filed and
(2) whether the King’s Bench petition and the subsequent petition for reconsideration constitute
. “properly filed application^] for State post-conviction or other collateral review” under §
2244(d)(2). The Court addresses these issues in reverse order.
1.

Tolling During Pendency of King’s Bench Petition and Petition for
Reconsideration

At the outset, the Court notes its agreement with Judge Scuderi that, in filing the King’s
Bench petition and the subsequent petition for reconsideration, petitioner was seeking “a remedy
that was not available under Pennsylvania law.” R & R at 5-6. Pennsylvania law is abundantly
clear that the only means of collaterally attacking a conviction is via a PCRA petition. See 42 Pa.
C.S.A. § 9542. It is not so clear, however, that the unavailability of a remedy sought in a state-

5 The “prison mailbox rule,” see supra note 1, applies in Pennsylvania. Commonwealth v.
Jones, 700 A.2d 423, 426 (Pa. 1997).
-7-

court petition removes the petition from the realm of “properly filed” state collateral attacks.
This Court discussed this issue in its recent decision, Washington v. Bvrd. No. 00-6389,
2002 WL 461729, at *4-6 (E D. Pa. March 22, 2002).6 In Washington, the petitioner had filed a
state-court habeas corpus petition, as opposed to a PCRA petition. The Superior Court dismissed
the petition on the ground that the writ of habeas corpus had been subsumed by the PCRA. Id at
*2. In this Court, petitioner argued that the state habeas petition was “properly filed” and tolled
the AEDPA statute of limitations. This Court addressed the issue, but, because the question was
not necessary to a decision in Washington, the Court did not rule on it. However, the Court’s
analysis of the issue in Washington is equally applicable to this case; the Court therefore sets forth
an adaptation of its analysis from Washington:
The Superior Court’s grounds for dismissing the habeas corpus petition at issue in
Washington - that the petitioner’ s requested remedy of habeas corpus was subsumed by the
statutory PCRA remedy - might suggest that the petitioner’s action was not “properly filed”
because it sought a remedy that was unavailable under Pennsylvania law. The Third Circuit,
however, has adopted a “flexible approach” in determining whether an action is in fact properly
filed Nara v. Frank. 264 F.3d 310, 315 (3d Cir. 2001). Specifically, the Third Circuit has held
that § 2244(d)(2) “covers ‘various forms of state review,”’ id (quoting Jones v. Morton. 195
F.3d 153, 159 (3d Cir. 1999)), and it has “rejected ‘the notion that a meritless PCRA petition
cannot constitute a “properly filed application” under § 2244(d)(2),’” Id (quoting Lovasz v.

6 The Third Circuit denied a request for a certificate of appealability in Washington on
August 22, 2002, and “[f]or substantially the reasons set forth in [this Court’s] opinion,” ruled
that the petition was barred by the statute of limitations. Washington v. Bvrd. No. 02-2136, slip
op. (3d Cir, Aug. 22, 2002).
-8-

Vaughn. 134 F.3d 146, 149 (3d Cir. 1998)). This approach draws support from a recent Supreme
Court decision where “[t]he Court stated that ‘an application is “properly filed” when its delivery
and acceptance are in compliance with the applicable laws and rules governing filings. These
usually prescribe, for example, the form of the document, the time limits upon its delivery, the
court and office in which it must be lodged, and the requisite filing fee”” Id at 316 (quoting
Artuz v. Bennett. 531 U.S. 4, 8 (2000)).
In light of these principles, the Third Circuit concluded in Nara that a state-court motion
to withdraw a guilty plea nunc pro tunc eleven years after conviction was “akin to an application
for state post-conviction or other collateral review” and “properly filed” for tolling purposes
under § 2244(d)(2). Id. at 316. The cases on which the Third Circuit relied in Nara further
demonstrate the flexibility of the “properly filed” inquiry. See, e.g.. Artuz, 531 U.S. at 7-8
(holding that statute of limitations was tolled while state court was considering prisoner’s motion
to vacate conviction even though motion was procedurally barred under state law); Dictado v.
Ducharme, 244 F.3d 724 (9th Cir. 2001) (holding state court actions characterized as “repetitive
and untimely” were “properly filed”); Villegas v. Johnson. 184 F.3d 467, 469-70 (5th Cir. 1999)
(holding that petition dismissed by state court as successive or an abuse of the writ was “properly
filed”); Lovasz, 134 F.3d at 148-49 (holding second or successive PCRA petition tolled statute
of limitations). Further, since Nara. Chief Judge Giles and Judge Shapiro of this Court have held
that PCRA petitions untimely filed under Pennsylvania law are nonetheless “properly filed” and
toll the AEDPA statute of limitations. See Pace v. Vaughn. 2002 WL 485689, at *5 (E.D. Pa.
March 29, 2002) (Giles, C.J.); Rosado v. Vaughm 2001 WL 1667575, at *3 (E.D. Pa. Dec. 28,
2001) (Shapiro, J.); Cooper v. Vaughn. 2001 WL 1382493, at *3-4 (E.D. Pa. Nov. 6, 2001)
-9-

(Shapiro, I).
The petition at issue in Washington presented a different question than that presented in
the above-cited cases. As opposed to submitting an untimely or second/successive collateral
attack as did the petitioners in the above-cited cases, the petitioner in Washington, in his state
habeas corpus action, essentially sought a remedy not available under Pennsylvania law. It is not
clear from the above cases whether the Third Circuit’s “flexible approach” would include such an
action within the realm of “properly filed” collateral attacks, and the matter is further complicated
by the fact that Pennsylvania courts have, in some cases, characterized pro se petitions for habeas
corpus relief as PCRA petitions. See Commonwealth v. Weimer. 756 A.2d 684, 685 (Pa. Super.
Ct. 2000) (citing Commonwealth v. DiVentura. 734 A.2d 397, 398 (Pa. Super. Ct. 1999)). Thus,
some courts might characterize the petitioner’s state-court habeas action as a second or
successive PCRA petition. If so construed, following the Third Circuit’s ruling in Lovasz. such
an action would be “properly filed”; moreover, even if the action were not timely filed under
Pennsylvania law, it might still be viewed as “properly filed” under Pace. Rosado, and Cooper.7
The above stated issue in Washington, not necessary to a decision in that case, is
necessary to a decision in the instant case. The Court must therefore decide the question it left
open in Washington.
The Court concludes that, in this case, petitioner’s King’s Bench petition and petition for

7 Even if the Court were to have characterized the petitioner’s state court habeas action as
“frivolous” - which it may well have been - that would not have been fatal to the tolling claim.
See Lovasz. 134 F.3d at 149 (refusing to read into “properly filed” provision “any requirement
that the application be non- frivolous”); but cf United States ex rel. Belmore v. Page. 104 F.
Supp. 2d 943, 945-46 (N.D. Ill. 2000) (holding that petitioner’s filing of state court habeas corpus
action was seeking a “totally unavailable remedy” that “must be viewed as legally frivolous” and
could not, therefore, be viewed as “properly filed”).
-10-

reconsideration, though seeking remedies unavailable under Pennsylvania file, do constitute “a
properly filed application for State post-conviction or other collateral review.” The Court reaches
this conclusion in light of the above-cited, precedents, all of which counsel in favor of broadly
construing the “properly filed” language of § 2244(d)(2).8 Most relevant is the Third Circuit’s

8 In reaching this conclusion, the Court acknowledges that the Supreme Court’s recent
decision in Carey v. Saffold, 122 S. Ct. 2134 (2002), might be read to somewhat narrow the
construction of what constitutes a “properly filed” state petition. In Saffold. the Court considered
the tolling effect of a petition filed in California’s unique collateral review system, which does not
“technically” require appellate review of lower court determinations. Id at 2139. Specifically,
the Court considered whether a petition was “pending” under § 2244(d)(2) during the time
between a lower court’s dismissal of the petition and the petitioner’s filing of a new petition in an
appellate court. Id at 213 7-41. After concluding that the petition was pending during this time
period, the Court remanded to the Ninth Circuit for a determination as to the timeliness of the
state petition. Id at 2141.
The Court’s remand in Saffold might suggest that the timeliness of a state petition is
dispositive of the “properly filed” issue. See ]d at 2141 (stating that if the California Supreme
Court had found delay in filing petition “unreasonable,” and, therefore, under California law,
untimely, “that would end the matter, regardless of whether [that court] also addressed the merits
of the claim”); see also [ft at 2146 (Kennedy, J., dissenting) (citing Artuz. 531 U S. at 8) (“If the
California court held that all of respondent’s state habeas petitions were years overdue, then they
were not ‘properly filed’ at all, and there would be no tolling of the federal limitations period.”).
One court to have addressed the impact of Saffold. the Seventh Circuit, has read that
decision to have the effect of removing untimely filed state petitions from the coverage of
“properly filed” in § 2244(d)(2). Brooks v. Walls. - F.3d -, 2002 WL 1949693, at *2 (7th Cir.
Aug. 23, 2002) (“Saffold tells us (ending any ambiguity left by Artuz ) that to be “properly filed”
an application for collateral review in state court must satisfy the state’s timeliness
requirements.”). In light of this reading, the Seventh Circuit concluded that appellate decisions,
including the Third Circuit’s ruling in Nara. “to the extent they hold that petitions untimely under
state rules nonetheless may be deemed ‘properly filed,’ were wrongly decided.” Id.
This Court, however, does not deem it appropriate to decide whether Nara - and District
Court opinions following it - have in fact been undermined by Saffold. In the first instance,
Saffold may be subject to a more narrow reading, in that it was only addressing the term
“pending” in § 2244(d)(2) as it applied to California’s unique collateral review system. See
Saffold. 122 S. Ct. at 2141 (stating that if California Supreme Court found petition untimely filed,
then, under California’s system, petition “would no longer have been ‘pending’”). More
fundamentally, the majority opinion in Saffold did not discuss, let alone cite, Artuz, a case that the
-11-

decision in Nara, which placed heavy emphasis on whether a petition is “akin to an application for
state post-conviction or other collateral review.” Nara. 264 F.3d at 316.9 In this case,
petitioner’s King’s Bench petition and his petition for reconsideration of the Supreme Court’s
denial of that petition, claimed ineffective assistance of counsel and prosecutorial misconduct and
sought vacatur of his conviction. The substance of the King’s Bench petition and the petition for
reconsideration are, therefore, most certainly “akin to an application for state post-conviction or
other collateral review.”
In reaching this conclusion, the Court notes that some courts - none of which are in this
Circuit - have rejected arguments that petitions seeking unavailable remedies can be considered

Courts of Appeals, including the Third Circuit in Nara. have read to require a broad construction
of § 2244(d)(2).
Even if Saffold were to have undermined Nara. the Court concludes that this
determination is one better left to the Third Circuit. Accordingly, the Court decides this case
based on its reading of Nara.
9 The Nara court also found relevant the fact that the “PCRA trial court accepted the
motion, allowed the parties to brief the motion, and made full consideration of the record before
denying it.” Nara. 264 F.3d at 316. This Court does not, however, read Nara to provide that
these circumstances are prerequisite to concluding that a state-court petition was properly filed.
Such a reading of Nara would be inconsistent with the decisions in Pace. Rosado, and
Cooper - decisions with which this Court agrees - finding that untimely PCRA petitions were
properly filed. Pennsylvania courts have determined that the timeliness provisions in the PCRA
are jurisdictional. Commonwealth v. Fahv. 737 A.2d 214, 222 (Pa. 1999). Thus, a PCRA court’s
decision on an untimely petition is not based on a “full consideration of the record”; rather,
because Pennsylvania courts do not have jurisdiction to consider an untimely petition, courts
dismissing untimely petitions will have, by necessity, only undertaken a limited consideration of
the record as it applies to the PCRA statute of limitations.
In sum, the Court concludes that the true import of Nara is to direct that courts focus on
whether a petition is “akin to an application for state post-conviction or other collateral review”
when conducting the “properly filed” inquiry.
-12-

“properly filed.” See, e.g.. Adeline v. Stinson. 206 F.3d 249, 252-53 (2d Cir. 2000) (per curiam)
(holding that state-court motion not recognized under New York law as an application for postconviction relief was not “properly filed” on ground that petitioners are not permitted to “create
their own methods of seeking post-conviction relief’); Bond v. Walsh. 2002 WL 460046, at *2
(E.D.N.Y Feb. 12, 2002) (citing Adeline. 206 F.3d at 252) (“Bond’s time to file a § 2254 petition
was not tolled while he ignored established state procedures to seek relief plainly unavailable from
the New York Court of Appeals. Neither was it tolled while he moved that court for
reconsideration of its order of dismissal.”); Draughon v, Dewitt. 2001 WL 840312, at * 1 (S .D.
Ohio July 11, 2001) (citing Adeline. 206 F.3d at 252) (holding that “motion for reconsideration”
was not “properly filed” because such motion was “not an application for state post-conviction
relief recognized as such under governing state procedures”).
These contrary cases in other jurisdictions, rtot binding on this Court, do not change the
Court’s conclusion. In short, the Court reads the Third Circuit’s decision in Nara to demand a
broader application of the “properly filed” inquiry. Notably, this reading of Nara does not
implicate the concerns raised by the Second Circuit in Adeline with respect to the impact of
including petitions seeking unavailable remedies in the realm of “properly filed” petitions.
Specifically, the Second Circuit was concerned that an application of § 2244(d)(2) allowing
petitioners to “create their own methods of seeking post-conviction relief’ would result in a
deluge of frivolous state-court filings:
[S]o long as the state court were willing to keep its clerk’s office
door open to a petitioner, he or she could bring successive motions
seeking to reinstate a denied petition for leave to appeal indefinitely
and thus stave off the running of the AEDPA-proscribed time to file
a federal petition for habeas corpus virtually in perpetuity.
-13-

Adeline, 206 F.3d at 252-53. Applying the Nara court’s analysis avoids this problem because, at
some point, the filing of state-court petitions crosses the line from petitions that are “akin to an
application for state post-conviction or other collateral review” to petitions that are clearly
intended to delay.10
The Court need not decide in this case when a state court filing crosses the line from one
seeking collateral relief to one filed for some other purpose because the King’s Bench petition at
issue can only be viewed as seeking collateral review of petitioner’s conviction. It sought the
same remedy that is available under the PCRA. Additionally, there is no evidence that petitioner
filed the petition intending to cause delay or for some other improper purpose. Significantly,
assuming, arguendo, that petitioner’s King’s Bench petition, which was filed on April 1, 1996,
was treated as a PCRA petition, it was timely filed. See Commonwealth v. Crider. 735 A.2d
730, 732 (Pa.Super.Ct. 1999) (explaining that for petitioners whose convictions became final
before January 16, 1996, amendments to the PCRA adopting a one-year statute of limitations,
“the operative deadline” for first-time PCRA petitions would be January 16, 1997, well after
petitioner’s filing).

10 The Court notes that the Adeline court’s concerns about repetitive filings in this manner
are inconsistent with the Second Circuit’s earlier rejection of the position that “construing
‘properly filed’ narrowly will invite a paper flow by state prisoners trying to extend the time in
which they can file a habeas corpus petition indefinitely” because “prisoners serving jail time
usually have little incentive to delay determinations of their habeas petitions.” Bennett v Artnz
199 F,3d 116, 122-23 (2d Cir. 1999), affd, 531 U.S. 4 (2000). See also Harrison v. Artuz. 105
F. Supp. 2d 101, 105 n.4 (E.D.N.Y. 2000) (comparing Bennett with Adeline and noting “some
ambivalence in the Second Circuit on the question whether a narrow construction of the ‘ properly
filed’ requirement in 28 U.S.C. § 2244(d)(2) serves any useful purpose”).

-14-

Nor does the Court find any reason to treat the petition for reconsideration differently: To
the extent that the King’s Bench petition is viewed as a PCRA petition, petitioner clearly would
have been entitled to seek reconsideration of an adverse decision. See Commonwealth v. Castro.
766 A. 2d 1283, 1285 (Pa. Super. Ct. 2001) (recognizing propriety of PCRA court’s granting of
motion to reconsider dismissal of PCRA petition on timeliness grounds) Respondents’ argument
emphasizing the unavailability of petitions for reconsideration in the Supreme Court of
Pennsylvania does not convince the Court otherwise.
In sum, the substance of petitioner’s King’s Bench petition and the petition for
reconsideration - as opposed to their form - compels the Court to conclude that they were
“properly filed” under § 2244(d)(2). Accordingly, while those petitions were pending in the
Supreme Court of Pennsylvania, the AEDPA statute of limitations was tolled.
2.

Date of Filing of PCRA Petition

Petitioner provides no support for his statement in his Objections that he filed his PCRA
petition on January 13, 1997, as opposed to January 16, 1997. Likewise, although petitioner
must have mailed his PCRA petition some time before the date on which it was filed in the PCRA
court, the record before this Court does not provide any support for petitioner’s assertion that he
did so on January 13, 1997.
Given the Court’s conclusion that the King’s Bench petition and petition for
reconsideration tolled the AEDPA statute of limitations, the filing date of the PCRA petition is
essential to the outcome of this case. If petitioner is correct, and the PCRA petition was filed on
January 13, 1997, his habeas petition was timely filed - on the 364th day of the one-year
limitations period. If petitioner is incorrect, however, and his PCRA petition was filed on January
-15-

16, 1997, his habeas petition was not timely filed, as it was filed two days after the expiration of
the limitations period. Thus, the Court will remand the petition to Judge Scuderi for further
analysis of the timeliness issue.
IV.

CONCLUSION
For the foregoing reasons, the Court will sustain petitioner’s objection as to the tolling

effect of the King’s Bench petition and the petition for reconsideration: The Court will remand
the § 2254 petition to Judge Scuderi for a supplemental report and recommendation covering
further analysis of the timeliness of that petition consistent with this Memorandum, and,
depending on the resolution of the timeliness issue, further analysis of the claims raised in the
§ 2254 petition:
An appropriate order follows.

-16-

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
PAUL SATTERFIELD,
Petitioner,

CIVIL ACTION

v.
PHILIP L. JOHNSON; THE DISTRICT
ATTORNEY OF THE COUNTY OF
PHILADELPHIA; and THE ATTORNEY
GENERAL OF THE STATE OF
PENNSYLVANIA,

NO. 02-0448

Respondents.

ORDER
AND NOW this 6th day of September, 2002, upon consideration of petitioner’s Petition
for Writ of Habeas Corpus by a Person in State Custody pursuant to 28 U.S.C. § 2254
(Document No. 1, filed January 28, 2002), United States Magistrate Judge Peter B. Scuderi’s
Report and Recommendation dated May 29, 2002 (Document No. 8, filed May 29, 2002),
Petitioner’s Objections to Magistrate Judge’s Report and Recommendation (Document No. 11,
filed June 14, 2002), and all related filings, for the reasons stated in the foregoing Memorandum,
IT IS ORDERED, as follows:
1. Petitioner’s Objections to Magistrate Judge’s Report and Recommendation (Document,
No. 11, filed June 14, 2002) are SUSTAINED IN PART and OVERRULED IN PART, as
follows:
(a) Petitioner’s Objections as to whether his King’s Bench petition and petition for
reconsideration were “properly filed” under 28 U.S.C. § 2244(d)(2) such that they tolled the
statute of limitations governing the pending § 2254 petition are SUSTAINED;

(b) In all other respects, petitioner’s Objections are OVERRULED WITHOUT
PREJUDICE to petitioner’s right to raise arguments contained in his Objections during farther
proceedings on the § 2254 petition.
2. Petitioner’s § 2254 petition is REMANDED to United States Magistrate Judge Peter
B. Scuderi for submission of a supplemental report and recommendation covering (a) further
analysis as to the timeliness of the petition consistent with the foregoing Memorandum and (b)
depending on the result of that analysis, consideration of the claims raised in the petition.
BY THE COURT:

Q/1A

CL. ’Q

JAN E. DuBOIS, J.

-2-

— IN THE UNITED STATES DISTRICT COURT----FOR THE EASTERN DISTRICT OF PENNSYLVANIA
PAUL SATTERFIELD

CIVIL ACTION
''

V.

PHILIP L. JOHNSON, et al.

1

No. 02-0448
*4

ORDER
AND NOW, this

7/f

day of September, 2002, upon consideration of Judge

Jan E. DuBois' Order of September 6, 2002, (copy attached), IT IS ORDERED that:
1.

The District Attorney shall file a specific and detailed supplemental

answer specifically addressing the merits of the petition within sixty (60) days of the date
of this Order, or no later than (11/17/02), pursuant to Rule 5, 28 U.S.C. fol. § 2254.
■ 2.

.

Respondents are directed to append to their supplemental answer any and

all relevant documents, including, but not limited to, state court opinions, filings and
notes of testimony.

BY THE COURT:
)

/ . L
_/_

r\
PETER B. SCUDERI
UNITED STATES MAGISTRATE JUDGE
■j

°^T
r

3-io

^ee&Tcv fin 322. f- Sotfi 2x6 Co t 3
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA

civil actio;

PAUL SATTERFIELD
Petitioner,
vs.

JUN 2
Michai?
By

PHILIP L. JOHNSON, et al.,
Respondents

2 2004
L
J^KU>q: Ck

m

—~Qep Qj

erk

NO. 02-0448
ORDER AND MEMORANDUM
ORDER

AND NOW, this 21st day of June, 2004, upon consideration of Paul Satterfield’s Pro Se
Petition for Writ of Habeas Corpus (Docket No. 1, filed January 28, 2002), Response to Petition
for Writ of Habeas Corpus (Docket No. 6, filed May 13, 2002), Addendum to Response to
Petition for a Writ of Habeas Corpus (Docket No. 7, filed May 15, 2002), Report and
Recommendation of United States Magistrate Judge Peter B. Scuderi (Docket No. 8, filed May
29, 2003), Traverse [by Petitioner Paul Satterfield] (Docket No. 9, filed June 5, 2002), Petitioner
Paul Satterfield’s Objections to Magistrate Judge’s Report and Recommendation (Docket No. 10,
filed June 13, 2002), Order of September 9, 2002 remanding Habeas Petition to Magistrate Judge
for submission of supplemental report and recommendation (Docket No. 12), Petitioner Paul
Satterfield’s Affidavit in Support of Objections to Magistrate Judge Report and Recommendation
(Docket No. 14, filed September 19, 2002), Response to Petition-Writ of Habeas Corpus (iiltjtet
n

■%

No. 15, filed November 18, 2002), Traverse by Petitioner Paul Satterfield (Docken^jJU,
%

March 5, 2003), Motion by Petitioner Paul Satterfield for Summary Judgment (Docket Nor^S^
&

filed April 23, 2003), Supplemental Report and Recommendation of Magistrate Judge Peter B.
Scuderi, (Docket No. 23, filed May 16, 2003), Order of July 16, 2003 adopting Supplemental

Report and Recommendation and denying Habeas Petition (Docket No. 26), Petitioner’s
Objections to Magistrate Judge’s Supplemental Report and Recommendation (Docket No. 61,
filed July 21, 2003), Order of July 24, 2003, granting petitioner’s request of July 21, 2003, for
leave to file objections out-of-time (Docket No. 29, filed July 25, 2003), and Petitioner’s
Supplement to Motion for Reconsideration (Docket No. 31, filed August 1, 2003), IT IS
ORDERED as follows:
1. That part of the July 24, 2003 Order which provides that petitioner’s Objections to
Magistrate Judge’s Report and Recommendation would be treated as a Motion for
Reconsideration of the Court’s Order of July 16, 2003, is VACATED;
2. The Court’s Order of July 16, 2003, in which the Court, inter alia, denied the Petition
for Writ of Habeas Corpus is VACATED;
3. Petitioner’s objection to the Magistrate Judge’s conclusion that the ruling of the
Superior Court of Pennsylvania that trial counsel was not ineffective was neither contrary to nor
an unreasonable application of federal law is SUSTAINED;
4. All other objections to the Supplemental Report and Recommendation are
OVERRULED;
5. The Supplemental Report and Recommendation of United States Magistrate Judge
Peter B. Scuderi (Docket No. 8, filed May 29,2003) is ADOPTED IN PART and
OVERRULED IN PART, as follows:
(a) The Supplemental Report and Recommendation is NOT ADOPTED with
respect to petitioner’s claim that his trial counsel was ineffective for failing to interview and call
Eric Freeman and Grady Freeman as witnesses at trial;

2

(b) The Supplemental Report and Recommendation is APPROVED AND
ADOPTED as to all other issues raised in the Petition, for a Writ of Habeas Corpus;
4. Paul Satterfield’s Pro Se Petition for Writ of Habeas Corpus is GRANTED IN PART
and DENIED IN PART, as follows:
(a) The Petition is GRANTED with respect to petitioner’s claim that his trial
counsel was ineffective for failing to interview and call Eric Freeman and Grady Freeman as
witnesses at trial;
(b) The Petition is DENIED as to all other claims;
5. Petitioner’s conviction and sentence of June 10, 1985 are VACATED and SET
ASIDE;
6. The execution of the writ of habeas corpus is STAYED for 180 days from the date of
this Order to permit the Commonwealth of Pennsylvania sufficient time to grant petitioner a new
trial and, if petitioner is found guilty, a new sentencing; and
7. Petitioner’s Motion to Compel Compliance with Federal Rule of Appellate Procedure
Rule 23(a) is DENIED.
MEMORANDUM
Currently before the court is the petition for a writ of habeas corpus filed by Paul
Satterfield ( Satterfield or “petitioner”). Satterfield, was convicted of first degree murder and
possession of instruments of crime on June 10, 1985. On that date he was sentenced to life
imprisonment on the murder conviction and a consecutive term of two and one-half years
imprisonment on the conviction for possession of an instrument of crime. Id.
On January 23, 2003, petitioner filed the present Petition for Writ of Habeas Corpus
3

(“Habeas Petition”). In their original answer, respondents asserted that the Habeas Petition
should be dismissed because it was filed beyond the one-year statute of limitations under the
Anti-Terrorism and Effective Death Penalty Act (“ADEPA”), 28 U.S.C. § 2244(d). The matter
was referred to Magistrate Judge Peter B. Scuderi for a report and recommendation. Magistrate
Judge Scuderi filed a Report and Recommendation on May 29, 2002, recommending that the
matter be dismissed as time-barred. Petitioner filed Objections to the Report and
Recommendation. .
• By Memorandum and Order dated September 6, 2003, the Court sustained in part and
overruled in part petitioner’s Objections and remanded the matter to Magistrate Judge Scuderi for
a supplemental report and recommendation, directing that the timeliness issue be further
analyzed and, depending on the resolution of the timeliness issue, that the merits of the petitioner
be addressed.
Respondents then filed a Supplemental Response to the Habeas Petition, arguing that
petitioner’s claims were either unexhausted and procedurally defaulted or meritless. On May 16,
2003, Magistrate Judge Scuderi filed a Supplemental Report and Recommendation, addressing
petitioner’s claims on the merits and concluding the claims should be denied. No objections to
the Supplemental Report and Recommendation were filed during the allowed time. The Court
then adopted the Supplemental Report and Recommendation and denied the Petition for a Writ
of Habeas Corpus by Order dated July 16, 2003.
Thereafter, on July 25, 2003, petitioner filed Objections to the Supplemental Report and
Recommendation, accompanied by a letter request for an extension of time to file them. The
Court granted that request by Order dated July 24, 2003, ruling that the Objections would be
4

treated as a Motion for Reconsideration of the Court’s July 16, 2003, Order.
The Court now concludes the most appropriate way to address petitioner’s objections to
the Supplemental Report and Recommendations is to vacate that part of the July 24, 2003 Order
which provides that the objections would be treated as a motion for reconsideration and vacate
the Order of July 16, 2003, approving and adopting the Supplemental Report and
Recommendation and denying Satterfield’s Habeas Petition.
Petitioner makes 27 objections to the Magistrate Judge’s Supplemental Report and
Recommendation. Many of these objections re-assert issues first raised in the Petition for Writ
of Habeas Corpus and correctly addressed by the Magistrate Judge in his Supplemental Report
and Recommendation. Other objections raise issues which can have no effect on this Court’s
decision to grant relief and need not be addressed by the Court.
The Court writes at this time to address only one objection-petitioner’s objection to the 1
Magistrate Judge s conclusion that the ruling of the Superior Court of Pennsylvania that trial
counsel was not ineffective for failing to investigate and call at trial two exculpatory
eyewitnesses, Eric Freeman and Grady Freeman, was neither contrary to nor an unreasonable
application of federal law. For the reasons that follow, the Court sustains this objection.
The Habeas Petition will be granted and petitioner’s convictions and sentence will be
vacated and set aside without prejudice to the right of the Commonwealth of Pennsylvania to
grant petitioner, within 180 days, a new trial and, if petitioner is found guilty, a new sentencing.
The Supplemental Report and Recommendation is adopted and approved in all other respects and
the Habeas Petition is denied in all other respects.

5

I.

FACTS
This case arises out of a state prosecution for murder. The Pennsylvania Superior Court

summarized the facts as follows:
[On] April 28, 1983, at approximately 3:30 a.m. [petitioner], a television
repairman, shot and killed William Bryant due to an earlier dispute between them
over payment of a television repair bill. [Petitioner] shot Bryant four times with a
.44 caliber handgun. The final shot was fired at close range, through Bryant’s
head, as he lay wounded in the street. A police search of [petitioner’s] home and
vehicle for ammunition under a properly issued warrant was conducted within
several weeks of the murder but uncovered no evidence.
Over a year later, [Petitioner] became acquainted with Wayne Edwards and his
wife, Patricia Edwards. During a conversation with Mr. Edwards, [petitioner]
described, in great detail, his shooting and killing of a former customer. Mr.
Edwards immediately informed authorities of the information [petitioner] had
divulged. [Petitioner] was arrested and charged. At trial, the Commonwealth’s
chief witness was Mr. Edwards, who testified on the details of the murder as told
to him by [petitioner]. [Petitioner] admitted at trial he told Mr. Edwards he had
once been a murder suspect. However, [petitioner] contended that the remainder
of Mr. Edwards’ testimony was fabricated because [petitioner] had pursued a
romantic relationship with Mrs. Edwards.
Commonwealth v. Satterfield. No. 3054 Phila. 1998, at 8 (Pa. Super. Aug. 22, 2000).
The warrant used to search petitioner’s home contained a description by an eyewitness of
a Caucasian blond haired male as the perpetrator of the crime. Petitioner is an African-American
male with brown hair. The defense never interviewed the eyewitness who gave that description,
Eric Freeman, and he was not called to testify at trial. In addition, Eric Freeman’s brother Grady
Freeman, also an eyewitness, was never interviewed by the defense nor called to testify at trial.
However, petitioner read to the jury the statement in the warrant made by Eric Freeman. In
addition, defense counsel, in summation, referred to the statement in the warrant.

6

II.

STANDARD OF REVIEW
A.

FEDERAL REVIEW OF STATE COURT CONVICTIONS

The Anti-Terrorism and Effective Death Penalty Act, 28 U.S.C. § 2254 (“ADEPA”)
establishes the scope of federal habeas review of a state court conviction. Section 2254(d)
provides:
An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect
to any claim that was adjudicated on the merits in State court proceedings
unless the adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established federal law, as determined by the
Supreme Court of the United States.
(2) resulted in a decision that was based on an unreasonable determination
of the facts in light of the evidence presented in the State court proceeding.
This case implicates § 2254(d)(2). As will be discussed in detail below, the Court
concludes that the decision of the Superior Court denying relief to Satterfield was based on an
unreasonable determination of the facts in light of the evidence presented in state court.
B.

INEFFECTIVE ASSISTANCE OF COUNSEL

The standard for evaluation of an ineffective assistance of counsel claim was set forth by
the Supreme Court in Strickland v. Washington. 466 U.S. 668 (1984). To establish ineffective
assistance of counsel under Strickland, petitioner must demonstrate that his counsel’s
performance (1) “fell below an objective standard of reasonableness,” i± at 688, and (2) that
counsel’s deficient performance prejudiced the defendant. Id. at 692. “The benchmark for
judging any claim of ineffectiveness must be whether counsel’s conduct so undermined the
proper functioning of the adversarial process that the trial cannot be relied on as having produced
a just result.” Id. at 686.
7

A court, in determining whether counsel’s performance fell below an objective standard
of reasonableness, must evaluate “whether counsel’s assistance was reasonable considering all
the circumstances.” Id. at 688. In applying the Strickland test to counsel’s performance, a court
must be “highly deferential,” and “must indulge a strong presumption that counsel’s conduct falls
within the wide range of reasonable professional assistance; that is, the defendant must overcome
the presumption that, under the circumstances, the challenged action ‘might be considered sound
trial strategy.’” Id at 689. The Court must not use the benefit of hindsight to second-guess
strategic decisions made by counsel unless they are unreasonable. Id at 690.

(j."

■

An evaluation of the failure on the part of defense counsel to call a witness at trial under
the first prong of Strickland, requires the Court to decide whether the decision not to call the ■
witness was "in the exercise of reasonably professional judgment." Strickland 466 U.S. at 690;
see also Duncan v. Morton. 256 F.3d 189, 201 (3d Cir.2001) (citing Strickland and concluding
that the failure to use certain testimony "amounted to a tactical decision within the parameters of
reasonable professional judgment")). Given professional reasonableness as a touchstone, "[t]he
Constitution does not oblige counsel to present each and every witness that is suggested to him."
United States v. Balzano. 916 F.2d 1273, 1294 (7th Cir.l990)(observing that "such tactics would
be considered dilatory unless the attorney and the court believe that the witness will add
competent, admissible, and non-cumulative testimony to the trial record").
The second prong of Strickland, requires a defendant to "show that there is a reasonable
probability that, but for counsel's unprofessional errors, the result of the proceeding would have
been different. Strickland. 466 U.S. at 694. A reasonable probability is a, “probability sufficient
to undermine confidence in the outcome” Id. In other words, a petitioner must show a
8

reasonable likelihood that... information [not presented] would have dictated a different trial
strategy or led to a different result at trial," Lewis v. Mazurkiewicz. 915 F.2d 106, 115 (3d.
Cir. 1990), or a 'reasonable probability that he would have been acquitted had [the uncalled
witness] testified either alone or in conjunction with [him.]" Id.
C.

OBJECTIONS TO A REPORT AND RECOMMENDATION

Pursuant to 28 U.S.C.A. § 636(b)(l)( C) the district court “shall make a de novo
determination of those portions of the report or specified proposed findings or, recommendations
to which objection is made. A judge of the court may accept, reject or modify, in whole or in
part, the findings or recommendations made by the magistrate.”
III.

DISCUSSION
A.

PETITIONER’S OBJECTIONS TO THE MAGISTRATE JUDGE’S
SUPPLEMENTAL REPORT AND RECOMMENDATION

Petitioner filed untimely objections to the Supplemental Report and Recommendation
which the court chose to consider. The Court writes at this time to address only one
objection-petitioner’s objection to the Magistrate Judge’s finding that the ruling of the Superior
Court of Pennsylvania that trial counsel was not ineffective for failing to investigate and call at
trial two exculpatory eyewitnesses, Eric Freeman and Grady Freeman, was neither contrary to nor
ah unreasonable application of federal law. This ineffective assistance of counsel claim was the
third claim petitioner raised in the Habeas Petition. Petitioner exhausted this claim on direct
appeal and raised the issue again on collateral review.
1.

The Decision of the Superior Court on Petitioner’s Ineffective
Assistance of Counsel Claim for Failure to Interview and Call the
Freemans as Witnesses at Trial is Based on an Unreasonable

9

Determination of the Facts in Light of Evidence Presented in the
State Court Proceedings.
In considering the claim on direct appeal, the Pennsylvania Superior Court stated the
following:
During the course of the investigation of the Bryant homicide, the police
interviewed Grady and Eric Freeman who lived within the vicinity of the
homicide. Both stated they heard gunshots at about 3:45 a.m. on April 28, 1983.
Eric described the man he saw when he looked out his window as a “white male
with short blond hair.” Grady gave a description of a “light-skinned guy,1 about
57" or 8" in his early thirties.”
* * * *

[T]rial counsel testified at the evidentiary hearing that although he had not
personally interviewed either witness, he had reviewed their statements made to
the police and he did send his investigator to try to talk to them. The investigator
was unable to locate either witness. Additionally, counsel admitted that he was
interested in Eric Freeman’s statement as Eric had identified the man he saw as a
white male with blond hair. Grady, on the other hand, identified the man as a
“light-skinned” black male, with short cut hair, in his early thirties... Trial
counsel determined that only the description given by Eric would possibly have
been of value to the defense.
At trial, counsel chose to make reference to Eric Freeman’s statement through
[Petitioner’s] testimony. Counsel had [Petitioner] read the arrest warrant
including the description of the subject given by Eric Freeman thereby getting the
eyewitness statement before the jury. Counsel also argued this description to the
jury in closing statement. The course chosen by counsel had a reasonable basis in
promoting [Petitioner’s] interests. Counsel chose this strategy so as to avoid the
Commonwealth’s cross-examination of Eric Freeman and additionally to avoid
the Commonwealth’s rebutting Eric’s statement with that of Grady Freeman.
Commonwealth v. Satterfield. 2697 Phila. 1986, at 2, 5-6 (Pa. Super. July 22, 1987) (emphasis
added). The Magistrate Judge concluded that this decision was neither contrary to, nor an

Grady Freeman identified the man as a “light skin guy” in the Police Report.
10

unreasonable application of, the standard set forth in Strickland, the relevant federal law on
ineffective assistance of counsel.
The Court disagrees with the Magistrate Judge’s conclusion regarding trial counsel’s
decision not to interview and call Eric Freeman and Grady Freeman as witnesses at trial and
rejects that part of the Supplemental Report and Recommendation. To the contrary, the Court
rules that the determination of the Superior Court of Pennsylvania that “the course chosen by
counsel had a reasonable basis in promoting [petitioner’s] interest” is based on a misreading by
trial counsel and the Superior Court of the statement given to the police by Grady Freeman.
Thus, reliance by the Superior Court on that misreading is “an unreasonable determination of the
facts in light of evidence presented in the state court proceedings.” 28 U.S.C. § 2254(d)(l)-(2).
Counsel’s statement that the Freemans’ statements were contradictory and that, therefore,
not presenting Eric Freeman and Grady Freeman as witnesses was a reasonable trial strategy is
based on an erroneous reading of Grady Freeman’s statement to the police. Grady Freeman told
the police the following:
Q.

Mr. Freeman, what can you tell me about the shooting that occurred in the
5600 blk. of Litchfield St. a short while ago?

A.

I was upstairs in my room, in the back room. I heard a shot and I didn’t
pay any attention to it at first. Then I heard about four more shorts. Then I
looked out my back window that looks up Litchfield St. and I saw a light
skin guy about 57" or 8" wearing a dark sports jacket, about his early 30's,
walking fast at first, but then he started running towards a car in the
middle of Litchfield St. He had his right hand inside his jacket by the
pocket, the inside pocket. The car was like a Volks Wagen station wagon,
a dark color, and it was running and the lights were on. He was looking all
around and then he just hopped in the car and drove off and he turned right
on Florence St. I came downstairs to where my brother was in the kitchen
then we went outside when the cops got there.

11

* * * *

Q-

Would you recognize the male you saw running and drive off if you saw
him again?

A.

I can’t say. I know he was medium height and real thin and light skin but
I only saw him from the side and back. His hair was cut real close. He
was dressed in like a suit, like Navy blue coat but the pants were darker.

Petitioner’s Obj., Exhibit A (and within Exhibit A, Exhibit D) (emphasis added).
Eric Freeman told the police the following about the man he saw:
Q-

Mr. Freeman, what do you know about the shooting?

A.

I was downstairs in the kitchen of my house, I was doing dishes. I heard
gunshots, it was like three in a row. I heard like three in a row. I
hesitated, then I looked out the window, I lifted the shade a little bit and I
seen this guy he looked like he was white, he had like blond hair and was
wearing dark clothes it looked like a dark blue sports coat, he was about
my height (5'9"). I could only see him from the side. He walked back to
his car fast and before he open the door he looked both ways, he had a neat
looking face, I tried to make out the license plate but it was a blur, it was
yellow it had a little light on each side. He drove off, he stopped at the
stop sign and then drove around the comer on Florence Ave towards 58th
Street. When he was walking toward his car, he had his hand inside his
jacket like he was putting away something.
* * * *

Q:

When you say the guy looked white, was he white or light skinned
Negro?

A.

He was white with like blond hair, he was slim
* * * *

Q-

Describe the male that you say walking to the car?

A.

He was white, blond hair, clean cut looking face, slim, clear complexion,
5'9", about 14-150 lbs, wearing a blue sport coat, dark pants, in his late
twenties or early thirties.

12

Q-

Is there still white people living in the neighborhood?

A.

Not too many in that area.

Petitioner s Obj., Exhibit A (and within Exhibit A, Exhibit E) (emphasis added).
Grady Freeman never described the man he saw to the police as a “light skinned black
male” as counsel asserted. To the contrary, he described him as a “light skin guy . . ..” The two
statements, which is all the information on these witnesses possessed by defense counsel,
corroborate rather than contradict one another. Both Grady and Eric Freeman describe a man
with white or light skin, between 5’7"-9" in height, in his early thirties wearing a blue sports
jacket/blazer with dark pants. The statements are nearly identical.

. .

Further, at an evidentiary hearing on post-trial motions, both Eric and Grady Freeman
testified that the man they saw was “Caucasian” and in any event was not the defendant.
Petitioner s Obj., Exhibit A at. 3-4. Specifically, Grady Freeman testified that the man he saw
was a Caucasian, with light blond short hair and was much thinner than petitioner. According to
Grady Freeman, he saw petitioner come out of the courtroom during the trial “but I had said to
myself, I went home and told my mother, that he wasn’t the one.” Id. Eric Freeman similarly '
testified that the man he saw was Caucasian, weighing 140 pounds with short blond hair. Id.
Their statements at that hearing were consistent with the statements they had earlier given to the
police. Id.
The ruling of the Superior Court that the .course chosen by counsel in not calling Eric
Freeman as a witness at trial had a reasonable basis in promoting petitioner’s interest was based
entirely on a misreading of Grady Freeman’s statement and the erroneous conclusion that his
statement was inconsistent with that of his brother. Thus, the Court concludes that the decision
13

of the Superior Court was based on an unreasonable determination of the facts in light of the
evidence presented in state court.
2.

Counsel’s Failure to Interview and/or Call the Freemans as Witnesses
at Trial Amounts to Ineffective Assistance of Counsel

Although not controlling, the Court notes a relatively recent decision of the Pennsylvania
Supreme Court announcing a five-part test for analyzing ineffective assistance of counsel claims
based on counsers failure to call a witness at trial. Commonwealth v. Holloway. 739 S.2d 1039,
1048 (Pa. 1999). There has not been a comparable elucidation of Strickland’s standards in the
federal courts as they apply to these particular facts. In Holloway, the Pennsylvania Supreme
Court held that to prove that counsel was ineffective for failing to call a witness at trial, petitioner
must show that: (1) the witness existed; (2) the witness was available to testify; (3) counsel knew
or would have known of the existence of the witness; (4) the witness was willing to testify for the
defense; and (5) the absence of the witness was so prejudicial as to have denied petitioner a fair
trial. The Court concludes that Holloway provides a useful framework to .analyze petitioner’s
claims under Strickland and adopts that framework in this case. Read together, the first four
prongs of Holloway clearly relate to the first prong in Strickland and the fifth prong of Holloway
clearly relates to the second prong of Strickland.
As to the first Holloway prong—that the witness existed—petitioner established this fact
when he called Eric Freeman, and Grady Freeman as witnesses at the evidentiary hearing on post­
trial motions.
As to the second prong-the witness was available to testify-petitioner presented evidence
that Grady Freeman received a subpoena from the assistant district attorney handling the case,

14

Mr. Byrd, and sat outside the courtroom for half a day during the trial. N.T. 9/23/86, pp. 21-23.
Similarly, Eric Freeman testified that at the end of May or the beginning of June 1985, he
received a subpoena from Mr. Byrd. In response, he appeared at Mr. Byrd’s office, spoke with
him about his statement and was later driven home by a detective. N.T. 9/24/86, pp. 105-111.
As to the third prong-counsel knew or would have known of the existence of the
witness-counsel testified to this fact at the evidentiary hearing. At the evidentiary hearing on
post-trial motions, counsel testified:

T:

It was my feeling that Eric Freeman might have been of some benefit to the
defense. In reviewing Grady’s statement as recently as a matter of half an hour
ago, I don’t recall anything in Grady freeman’s statement that would have been a
great help to the defense although maybe, if we had the opportunity to talk with
him, maybe we would have learned something, but Eric Freeman’s statement did
give us some interest because it referred to a white man with blond hair; and, of
course, that is quite a different description than Mr. Satterfield’s appearance.
N.T. 9/22/86, 15. From this statement it is clear that counsel was aware of the existence of both
witnesses.
As to the fourth prong-the witness was willing to testify for the defense-the evidence
supports the conclusion that both Eric and Grady Freeman were willing to testify at trial. Both
witnesses responded to subpoenas from the prosecution; Grady Freeman appeared at the
courtroom during the trial and Eric Freeman went to. the District Attorney’s Office.2 In addition,
2Counsel testified that he thought a subpoena was served on Eric Freeman but not Grady
Freeman:
THE COURT: .. . give us your judgment as to why you did not call the
Freemans?
MR. MANDELL: My reason for not calling them is we could not locate them, at
least we could not physically get them to come into either my office or the
courtroom although a subpoena was served on at least Eric Freeman. I do not
have a copy of one prepared for Grady Freeman, but I know we had one for Eric
15

both witnesses appeared at the evidentiary hearing on post-trial motions.
The analysis of the first four prongs of Holloway leads inescapably to the conclusion that
petitioner has met his burden under the first prong of Strickland. The failure to interview Eric
Freeman and Grady Freeman and call them as witnesses at trial fell below an objective standard
of reasonableness. Trial counsel’s decision could not be considered sound trial strategy and was
not made in the exercise of reasonably professional judgment.
The fifth prong of Holloway- the absence of the witness was so prejudicial as to have
denied petitioner a fair trial-corresponds to the second prong of Strickland-counsel’s deficient
performance prejudiced the defendant. The Court concludes petitioner was prejudiced by
counsel’s deficient performance. Both Freemans testified at the evidentiary hearing on post-trial .
motions that the defendant was not the man they saw and that the man they saw was Caucasian.
The Freemans were the only eyewitnesses to the crime. As described above, the statements of
both Freemans were consistent and corroborated one another. Further, their testimony would
have supported petitioner’s trial testimony that he did not commit the crime.
The Superior Court ruled that petitioner was not prejudiced by counsel’s failure to call
Eric and Grady Freeman as witnesses at trial because when the petitioner testified he read the

and I recall it was served on his house. Whether he actually took it or someone
else in the household did, I don’t recall.
THE COURT: When he did not appear you did not ask for a bench warrant?
MR. MANDELL: No.
N.T. 9/24/86 40-41. However, both Eric and Grady Freeman testified at the evidentiary hearing
on post-trail motions that they never received a subpoena from defense counsel but did receive
them from Mr. Byrd of the district attorneys’ office. N.T. 9/22986, pp. 21, 23; N.T. 9/24/86, pp.
105-109,111.
16

section of the warrant where the perpetrator was described as “Caucasian.” The Superior Court
thought this approach constituted an acceptable trial strategy because it prevented the prosecution
from impeaching Eric Freeman with Grady Freeman’s statement. However, as discussed above,
the two witnesses gave consistent statements to. the police and thus it was objectively
unreasonable for counsel to conclude that Grady Freeman’s statement could have been used to
impeach Eric Freeman.
In addition, the Court notes that the prosecution commented in a negative way on the fact
that Eric Freeman had not been called in its closing:
Unlike this phantom person from the search warrant whose name we don’t have,
whose point of observations you don’t have, whose sobriety or lack thereof you
know nothing about, who is not subjected to cross-examination which as brought
out by defense. Witnesses in a criminal care are equally available to both sides. If
you have some evidence, put the person on the stand, subject him to crossexamination... There’s this business with the unnamed witness who supposedly
saw whatever distance a man that looked like a white man with blond hair. If the
defendant is smart enough to get two driver’s licenses, I submit that if this person
did see what he saw, what is to prevent this defendant from planning on wearing a
hat? And who is to say what kind of tricks the light played? And who is this
person?
N.T. 6/7/85, pp. 75-73, 93. Because of the way in which the defense presented the exculpatory
evidence, the prosecution was able to attack its evidentiary value and raise some of the issues it
would have likely raised on cross-examination without the risk of the witness giving an answer.
damaging to the prosecution’s case. Thus, the-strategy utilized by defense counsel did not
immunize the exculpatory evidence from attack.
In sum, the Court concludes that counsel’s failure to interview and call the Freemans as
witnesses at trial as amounts to ineffective assistance of counsel. Sullivan v. Fairman. 819 F.2d
1382 (7th Cir. 1987) (perfunctory attempts by counsel to investigate, locate, and interview
17

ii

l

disinterested exculpatory witnesses whose testimony would have been material in a murder case,
constitutes ineffective assistance of counsel). Although not binding on this Court, the opinion of
the Supreme Court of Pennsylvania in Commonwealth v. Twiggs. 331 A.2d 440 (Pa. 1975) is
directly on point and is instructive. In Twiggs, the Supreme Court of Pennsylvania ruled,
[i]f counsel’s failure to seek compulsory process was the result of sloth or lack of
awareness of available alternatives then his assistance was ineffective. In a case
where virtually the only issue is credibility of the Commonwealth’s witness versus
that of the defendant, failure to explore all alternatives to assure that the jury heard
the testimony of a known witness who might be capable of casting a shadow of a
doubt upon the Commonwealth’s witness’ truthfulness is ineffective assistance of
counsel.
Id. at 443. Such is the case presented by petitioner.
m.

CONCLUSION
For the reasons set forth above, the petitioner’s Habeas Petition is granted as to his claim

of ineffective assistance of counsel for failure to interview and call Grady Freeman and Erie
Freeman as witnesses at trial. The Court adopts the Supplemental Report and Recommendation
as to all other claims and issues.

BY THE COURT:

JAN E. DUBOIS, J.

18

g'll
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
PAUL SATTERFIELD
Petitioner,

CIVIL ACTION
-^ A
\\
'l

VS.

\V-.) 1

PHILIP L. JOHNSON, et al.,
Respondents

ns**
AC-

NO. 02-0448

ORDER AND MEMORANDUM
ORDER
AND NOW, this 16th day of November, 2004, upon consideration of Petitioner’s Motion
to Vacate Stay and Modify Initial Custody Order filed by pro se petitioner, Paul Satterfield,
(Document No. 42, filed July 29, 2004), Response to Petitioner’s Motion to Vacate Stay and
Modify Initial Custody Order and Supporting Memorandum (Document No. 45, filed August 13,
2004), and Petitioner’s Reply (Document No. 46, filed August 23, 2004), IT IS ORDERED that
Petitioner’s Motion to Vacate Stay and Modify Initial Custody Order is DENIl^N
MEMORANDUM
I.

INTRODUCTION

£R£Q

Nov l 8 2004
cierk of court

Petitioner, Paul Satterfield, is a state prisoner currently serving a life
sentence at State
r
Correctional Institution-Fayette in LaBelle, Pennsylvania. His sentence arises out of a June 10,
1985 conviction for first degree murder and possession of an instrument of crime.
Petitioner filed a Petition for a Writ of Habeas Corpus on January 28, 2002. By Order
and Memorandum dated June 21, 2004, this Court granted the habeas petition with respect to the
claim that petitioner’s trial counsel was ineffective. Satterfield v. Johnson, 322 F. Supp. 2d 613,

614 (E.D. Pa. 2004). In that Order, the Court vacated the convictions for first degree murder and
possession of an instrument of crime and the sentence, and stayed the execution of the writ of
habeas corpus for 180 days to permit the Commonwealth of Pennsylvania (“Commonwealth”) to
grant petitioner a new trial. The Commonwealth appealed the ruling of this Court on July 21,
2004. The appeal is presently pending.
On July 29, 2004, petitioner filed the instant Motion to Vacate Stay and Modify Initial
Custody Order. That Motion is denied.
The facts of the case are detailed in this Court’s opinions in Satterfield v. Johnson, 218 F.
Supp. 2d 715 (E.D. Pa. 2002), and Satterfield v. Johnson, 322 F. Supp. 2d 613. The facts will be
repeated in this Memorandum only where necessary to explain the Court’s ruling
II.

DISCUSSION
Fed. R. App. P. 23(c) provides that when the Government appeals a decision granting a

writ of habeas corpus, the habeas petitioner shall be released from custody “unless the court or
justice or judge rendering the decision, or the court of appeals or the Supreme Court, or a judge
or justice of either court orders otherwise.” The Supreme Court has recognized in Fed. R. App.
P. 23(c) a presumption of release pending retrial but, in doing so, it underscored that “[A]
successful habeas petitioner is in a considerably less favorable position than a pretrial arrestee,
[having] been adjudged guilty beyond a reasonable doubt by a judge or jury, and this adjudication
of guilt [having] been upheld by the appellate courts of the State.” Hilton v. Braunskill, 481 U.S.
. 770, 779 (1987).
The Supreme Court in Hilton explained that the decision of a district court on the
question whether to release a petitioner on bail pending the Commonwealth’s appeal of the grant
2

of a writ of habeas corpus should be guided by an analysis of several factors:
[W]e think that a court making an initial custody determination under Rule 23(c)
should be guided not only by the language of the Rule itself but also by the factors
traditionally considered in deciding whether to stay a judgment in a civil case . . . .
[TJhe possibility of flight should be taken into consideration [.]... We also think
that, if the State establishes that there is a risk that the prisoner will pose a danger
to the public if released, the court may take that factor into consideration in
determining whether or not to enlarge him. The State’s interest in continuing
custody and rehabilitation pending a final determination of the case on appeal is
also a factor to be considered; it will be strongest where the remaining portion of
the sentence to be served is long, and weakest where there is little of the sentence
remaining to be served.
The interest of the habeas petitioner in release pending appeal, always substantial,
will be the strongest where the factors mentioned in the preceding paragraph are
weakest. The balance may depend to a large extent upon determination of the
State’s prospects of success in its appeal. Where the State establishes that it has a
strong likelihood of success on appeal, or where, failing that, it can nonetheless
demonstrate a substantial case on the merits, continued custody is permissible if
the second and fourth factors in the traditional stay analysis militate against
release.
Hilton, 481 U.S. at 777-78.
Petitioner sets forth in his Petition and Reply many facts, not in evidence before this
Court, in support of his argument that, because of the conduct of the Commonwealth, it is not
entitled to a new trial and that, in any event, the Commonwealth will not prevail in any new trial.
The Commonwealth, on the other hand, argues that “the evidence against petitioner is quite
strong. He spontaneously confessed to the crime to his tennis partner, whom he had met more
than a year after the killing took place. The jury heard this witness’ testimony and found him
entirely credible.” Response to Petitioner’s Motion at p. 2. In order to address these conflicting
positions, this Court would be required to schedule an evidentiary hearing which would involve
appointment of counsel and a significant delay in proceedings so as to enable counsel to review

3

the voluminous record. However, that is unnecessary because the Court concludes that, by
reason of developing case law related to the timeliness of petitioner’s habeas corpus petition
following this Court s ruling on that issue on June 21, 2004, some of which was noted in that
opinion, petitioner has not made a strong showing that he is likely to succeed on the merits.
In deciding to reach the merits of petitioner’s claims, this Court determined that
petitioner’s “Petition for Writ of Habeas Corpus Ad Subjiciendum - inter alia - King’s Bench
Matter” and his motion for reconsideration of the denial of the King’s Bench petition were
properly filed petitions for state collateral relief. Satterfield v. Johnson, 218 F. Supp. 2d at 724.
In the Order and Memorandum of September 6, 2002, this Court also determined that the
limitation period of the Antiterrorism and Effective Death Penalty Act (“AEDPA”), 28 U.S.C.
§ 2254, should be tolled during the time the King’s Bench petition and the motion for
reconsideration were pending. Id: In so ruling this Court relied on the Third Circuit opinion in
Nara v. Frank, 264 F.3d 310 (3d Cir. 2001). Thereafter, the Third Circuit in Merritt v. Blaine,
326 F.3d 157, 166 (3d Cir. 2003), clarified the law with regard to what constitutes a “properly
filed” petition for state collateral relief in Pennsylvania and noted that, because of the intervening
Supreme Court decision in Carey v. Saffold, 536 U.S. 214 (2002), “Nara would be analyzed
differently.” See Merritt, 326 F.3d at 166, n.7. This Court in its Memorandum of September 6,
2002, noted the fact that the Saffold case might be read to “somewhat narrow the construction of
what constitutes a ‘properly filed’ state petition,” but concluded that it was inappropriate to
decide whether Nara - and district court opinions following it - have in fact been undermined by
Saffold, and decided that this determination was better left to the Third Circuit. Satterfield v.
Johnson, 218 F. Supp. 2d at 721, n.8.

4

The Saffold and. Merritt decisions represent a refinement in the law that this Court applied
in deciding on September 6, 2002, that the instant Petition for Writ of Habeas Corpus was timely
filed. In view of the issues raised in Saffold and Merritt, the Court concludes that petitioner has
not made a strong showing that he is likely to succeed on the merits.
III.

CONCLUSION
This Court concludes that, because of decisions of the Supreme Court and the Third

Circuit on what constitutes “a properly filed” petition for purposes of the AEDPA limitation
period after this Court decided the issue on June 21, 2004, petitioner has not made a strong
showing that he is likely to succeed on the merits. To the contrary, the Third Circuit might very
well decide that the instant petition was untimely. Based on Hilton, this Court concludes that
determination, without more, warrants denial of the Motion to Vacate Stay and Modify Initial
Custody Order.

BY THE COURT:

9. OJX^
JAN E. DUBOIS, J.

5

B'lZIN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION

PAUL SATTERFIELD
Petitioner,

'? 7
v

vs.
NO. 02-0448

■-J

PHILIP L. JOHNSON, et al.,
Respondents
ORDER
AND NOW, this 23rd day of February, 2005, upon consideration of petitioner’s Motion
for Relief From Judgment and Order (Document No. 61, filed January 31, 2005), IT IS
ORDERED that this Court’s Memorandum of November 16, 2004, is AMENDED to reflect
that the issue of the timeliness of petitioner’s habeas corpus petition was addressed in the Court’s
Memorandum of September 6, 2002, not in its Memorandum of June 21, 2004. Thus, the
November 16, 2004 Memorandum is AMENDED as follows:
1. Page 4, third line, DELETE the date “June 21, 2004,” and SUBSTITUTE the date
“September 6, 2002;” and,
2. Page 5, under the heading Conclusion, third line, DELETE the date “June 21, 2004,”
and SUBSTITUTE the date “September 6, 2002.”
IT IS FURTHER ORDERED that, excepting only as noted above, petitioner’s Motion
for Relief From Judgment and Order is DENIED.

!\l ■>»

BY THE COURT:

C/t5

Hk

?. QjPze-s.
JAN E. DUBOIS, J.

uch* k

E-t3
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
PAUL SATTERFIELD
Petitioner,

CIVIL ACTION
i

VS.

NO. 02-0448
PHILIP L. JOHNSON, et al.,
Respondents
ORDER
AND NOW, this 23rd day of February, 2005, upon consideration of Petitioner’s Motion
for Immediate Release From Custody (Document No. 56, filed January 7, 2005), Addendum to
Petitioner’s Motion for Immediate Release From Custody (Document No. 55, filed January 6,
2005), and Response to Petitioner’s Motion for Immediate Release From Custody (Document
No. 62, filed February 7, 2005), IT IS ORDERED that Petitioner’s Motion for Immediate
Release From Custody and Addendum to Petitioner’s Motion for Immediate Release From
Custody are DENIED for the reasons set forth in this Court’s Order and Memorandum dated
November 16, 2004.

ttsi»

5 iWb
GOUtfT
BY THE COURT:

Cw-s

9^

JAN E. DUBOIS, J.

f

6-14
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
PAUL SATTERFIELD
Petitioner,

CIVIL ACTION
a

VS.

s.

I i‘

t nr!

NO. 02-0448
PHILIP L. JOHNSON, et al.,
Respondents

3y

~

■ - ••

\

ORDER
AND NOW, this 23rd day of Febraary, 2005, upon consideration of respondents’ Motion
for Stay Pending Appeal Pursuant to Federal Rule of Civil Procedure 62(d) (Document No. 58,
filed January 12, 2005), Petitioner’s Brief in Opposition to Respondent’s Motion for Stay
Pending Appeal Pursuant to Federal Rule of Civil Procedure 62(d) (Document No. 59, filed
January 27, 2005), Addendum to Petitioner’s Brief in Opposition to Respondent’s Motion for
Stay Pending Appeal Pursuant to Federal Rule of Civil Procedure 62(d) (Document No. 60, filed
January 31, 2005), Petitioner’s: Objection to and Motion to Strike Respondents’ Response to
Petitioner’s Motion for Immediate Release From Custody and Motion for Immediate Release
From Custody to Be Granted as Uncontested (Document No. 64, filed February 16, 2005), and
Addendum to Petitioner’s: Objection to and Motion to Strike Respondents’ Response to
Petitioner’s Motion for Immediate Release From Custody and Motion for Immediate Release
From Custody to Be Granted as Uncontested received by the Court on February^2^2005^ ^ITJS^
ORDERED as follows:

FEB 2 5 2005
CLERK OF COURT

’A copy of the Addendum to Petitioner’s: Objection to and Motion to Strike
Respondents’ Response to Petitioner’s Motion for Immediate Release From Custody and Motion
for Immediate Release From Custody to Be Granted as Uncontested shall be docketed by the
Deputy Clerk.

1. Respondents’ Motion for Stay Pending Appeal Pursuant to Federal Rule of Civil
V

Procedure 62(d) (Document No. 58) is GRANTED;2 and,
2. Petitioner’s Objection to and Motion to Strike Respondents’ Response to Petitioner’s
Motion for Immediate Release From Custody (Document No. 64) and Petitioner’s Motion for
Immediate Release From Custody to Be Granted as Uncontested (Document No. 64) are
DENIED.3
BY THE COURT:

^TfANE. DUBOIS, J.

2The Court concludes, for the reasons set forth in its Order and Memorandum of
November 16, 2004, that respondents are entitled to a stay pending appeal.
Petitioner objects to the Response filed by respondents on the ground that it was filed a
little over two (2) weeks late after a routine inquiry from a member of the Chambers staff as to
whether respondents intended to file a response. That inquiry, entirely proper in all respects,
does not entitle petitioner to any relief. Moreover, the Court routinely grants reasonable requests
for extension of time even when the request is made after the due date for a filing, and did so in
this case for petitioner in extending the time for responding to the Supplemental Report and
Recommendation of United States Magistrate Judge Peter C. Scuderi dated May 16, 2003. See
Order dated July 24, 2003.
2

0W5
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
PAUL SATTERFIELD
Petitioner,

CIVIL ACTION

vs.
NO. 02-0448

PHILIP L. JOHNSON; THE DISTRICT
ATTORNEY OF THE COUNTY OF
PHILADELPHIA; and, THE ATTORNEY
GENERAL OF THE STATE OF
PENNSYLVANIA
Respondents
ORDER

AND NOW, this 19th day of April, 2006, the Court of Appeals for the Third Circuit, by
Opinion and Order dated Januruy 17, 2006, having reversed the Order of this Court dated June
21, 2004, granting Paul Satterfield's pro re Petition for Writ of Habeas Corpus, and remanded
the ease to this Court for dismissal, and the Mandate having issued, IT IS ORDERED that Paul
Satterfield s pro se Petition for Writ of Habeas Corpus is DISMISSED.

BY THE COURT:

JAN E. DUBOIS, J.

6-/4
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
PAUL SATTERFIELD,
Petitioner,

CIVIL ACTION

v.
JOHN E. WETZEL,
THE DISTRICT ATTORNEY OF THE
COUNTY OF PHILADELPHIA, and
THE ATTORNEY GENERAL OF THE
STATE OF PENNSYLVANIA,
Respondents.

NO. 02-448

PILEi JUL “ 5 2016

ORDER
AND NOW, this 5th day of July, 2016, upon consideration of pro se petitioner, Paul
Satterfield’s Motion pursuant to Federal Rules of Appellate Procedure 10(e)(1) and (2) to correct
and modify the record on appeal (Document No. 112, filed June 13, 2016), and Response to
Motion to Correct and Modify the Record on Appeal (Document No. 114, filed June 29, 2016),
IT IS ORDERED that pro se petitioner, Paul Satterfield’s Motion pursuant to Federal Rules of
Appellate Procedure 10(e)(1) and (2) to correct and modify the record on appeal is DENIED on
the ground that the issue raised in the Motion - whether the District Attorney of Philadelphia
County should be dismissed from the case - was raised by pro se petitioner in his Motion for
Relief from Judgment and Orders (Document No. 94, filed March 31, 2014), and rejected by the
Court by Order dated April 15, 2015. In the 2014 Motion pro se petitioner argued that the
District Attorney is not a proper party to the action. The Court, in footnote 3 to its Order dated
April 15, 2015, ruled that “[t]he District Attorney was lawfully added as a party to this action by
Order dated April 9, 2002, and thus had standing to pursue an appeal.”

ENTERED
JUL -6 20,5
0L2B1* OT COURT

IT IS FURTHER ORDERED that a certificate of appealability will not issue because
reasonable jurists would not debate the propriety of this Court’s procedural ruling with respect to
petitioner’s claim. See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473, 484 (2000).
BY THE COURT:
/s/ Hon. Jan E. DuBois
DuBOIS, JAN E., J.

2

Case 2:02-cv-00448-JD Document 196 Filed 08/11/20 Page 1 of 2

£-17

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION

PAUL SATTERFIELD,
Petitioner,
v.

NO. 02-448

JOHN E. WETZEL,
THE DISTRICT ATTORNEY OF THE
COUNTY OF PHILADELPHIA, and
THE ATTORNEY GENERAL OF THE
STATE OF PENNSYLVANIA,
Respondents.
ORDER

AND NOW, this 11th day of August, 2020, upon consideration of Petitioner’s Amended
Motion for Relief from Judgment And Orders (Document No. 191, filed July 28, 2020),
Petitioner’s Motion to Revisit and Correct Manifest Injustice/Grave Miscarriage of Justice
Involving Court’s Denial of Rule 60(b)(4) Relief Upon Consideration of Amended Rule 60(b)(4)
Motion (Document No. 192, filed July 28, 2020), Petitioner’s Motion’s to Amended Motion for
Relief From Judgment And Orders (Document No. 193, filed July 28, 2020) all of which were
filed pro se, and the Court noting that petitioner is represented by counsel, IT IS ORDERED
that all such motions submitted by petitioner, Paul Satterfield, pro se, are REFERRED to
petitioner’s counsel and are not considered by the Court on the ground that petitioner is

Case 2:02-cv-.00448-JD Document 196 Filed 08/11/20 Page 2. of 2

represented by counsel.1 All such motions are referred to petitioner’s counsel for adoption or
rejection on or before August 25, 2020. To the extent that that motions are not adopted by
petitioner’s counsel they will be denied unless the Court grants petitioner’s motion to proceed
pro se.
BY THE COURT:
/s/ Hon. Jan E. DuBois
DuBOIS, JAN E., J.

l

See United States v. Agofsky, 20 F.3d 866 (8th Cir. 1994), cert, denied, 513 U.S. 909
(1994) (holding that a court commits “no error” in refusing to rule on pro se motions raised by a
represented party); Abdullah v. United States, 240 F.3d 683 (8th Cir. 2001) (upholding district
court’s decision to deny a defendant’s pro se motions without consideration because the
defendant was represented by counsel); see also United States v. D’Amario, 328 F. App’x 763,
764 (3d Cir. 2009) (“[A] district court is not obligated to consider pro se motions by represented
litigants.”); Pagliaccetti v. Kerestes, 948 F. Supp. 2d 452, 457 (E.D. Pa. 2013) (“Because there is
no constitutional right to hybrid representation,... a district court is not obligated to consider
pro se motions by represented litigants.), ajf’d, 581 F. App’x 134 (3d Cir. 2014).
2

APPENDIX C

c-i
united states court of appeals
. FOR THE THIRD CIRCUIT

No. 04-3108

PAUL SATTERFIELD,
Appellee
v.
PHILIP L. JOHNSON; THE DISTRICT ATTORNEY OF THE COUNTY OF
PHILADELPHIA; THE ATTORNEY GENERAL OF THE STATE OF
PENNSYLVANIA,
Appellants
Present: SCIRICA, Chief Judge. SLOVITER, ROTH, McKEE, BARRY,
AMBRO, FUENTES, SMITH, VAN ANTWERPEN, Circuit Judges
and RESTANI,* Judge

SUR PETITION FOR PANEL REHEARING
. WITH SUGGESTION FOR REHEARING ENBANC

The petition for rehearing filed by Appellee having been submitted to the judges
who participated in the decision of this Court, and to all the other available circuit judges
in active service, and no judge who concurred in the decision having asked for rehearing,
and a majority of the circuit judges of the circuit in regular active service not having
voted for rehearing by the court en banc, the petition for rehearing is DENIED.

•

By the Court,

Dated: April 6, 2006
ARL/cc: PS: JHB

Is/ Thomas L. Ambro. Circuit Judve

* Honorable Jane A. Restani, Chief Judge, United States Court of International Trade,
sitting by designation, limited to panef rehearing only.

c

APPENDIX D

t

Satterfield v. District Attorney Philadelphia, 872 F.3d 152 (2017)

C=> Altering, amending, modifying, or
vacating judgment or order;proceedings
after judgment

I-

KeyCite Yellow Flag - Negative Treatment
Distinguished by Santini v. Wenerowicz, E.D.Pa., June 11, 2018.

Court of Appeals reviews district court's
denial of motion for relief from judgment for
abuse of discretion. Fed. R. Civ. P. 60(b)(6).

872 F.3d 152
United States Court of Appeals,
Third Circuit.
Paul SATTERFIELD, Appellant
v.
DISTRICT ATTORNEY PHILADELPHIA;
Attorney General Pennsylvania; Secretary
Pennsylvania Department of Corrections

2 Cases that cite this headnote
[21

Federal Courts
@=» Abuse of discretion in general
District court “abuses its discretion” when
it bases its decision upon clearly erroneous
finding of fact, erroneous conclusion of law,
or improper application of law to fact.

\

No. 15-2190

I
Argued March 27, 2017

1 Cases that cite this headnote
(Opinion Filed: September 26, 2017)
Synopsis
Background: Following affirmance of. his first degree
murder conviction, 369 Pa.Super. 652, 531 A.2d 528,
state inmate filed petition for writ of habeas corpus. The
United States District Court for the Eastern District of
Pennsylvania, Jan E. DuBois, J.,'322 F.Supp.2d 613,
granted petition, and respondent appealed. The Court of
Appeals, 434 F.3d 185, reversed and remanded. Following
dismissal of petition on remand, petition moved for relief
from judgment. The United States District Court for the
Eastern District of Pennsylvania, No. 2-02-cv-00448, Jan
E. DuBois, J., denied motion, and petitioner appealed.

[3]

Federal Civil Procedure
#=■ Catch-all provisions
District court may only grant relief from
judgment based on “any other reason that
justifies relief’ in extraordinary circumstances
where, without such relief, extreme and
unexpected hardship would occur. Fed. R.
Civ. P. 60(b)(6).
8 Cases that cite this headnote

[4]

Habeas Corpus
©=» Newly discovered evidence
Habeas petitioner asserting actual innocence
may not avail himself of fundamental
miscarriage of justice exception to overcome
Antiterrorism and Effective Death Penalty
Act's (AEDPA) one-year statute of limitations
unless he persuades district court that, in light
of new evidence, no juror, acting reasonably,
would have voted to find him guilty beyond
reasonable doubt. 28 U.S.C.A. § 2244(d)(1).

[Holding:] The Court of Appeals, Vanaskie, Circuit
Judge, held that district court was required to consider
full panoply of equitable circumstances in determining
whether change of law in Supreme Court's decision in
McQuiggin v. Perkins warranted relief from judgment.

Vacated and remanded.

7 Cases that cite this headnote
West Headnotes (9)
[1]

Federal Courts

[5]

Habeas Corpus
&=■ Relief from judgment;revocation or
modification

WESfLAW © 2019 Thomson Reuters. No. claim to original U.S. Government Works.

1

Satterfield v. District Attorney Philadelphia', 872 F.3d 152 (2017)

-----In—deciding- whether—change of—law—inSupreme Court's decision in McQuiggin v.
Perkins,. which held that properly supported
claim of actual innocence could excuse
failure to comply with Antiterrorism and
Effective Death Penalty Act's (AEDPA)
statute of limitations, was “extraordinary
circumstance” that could support relief
from judgment dismissing habeas petition
as untimely, district court was required
to consider full panoply of equitable
circumstances, evaluate nature of change
along with all equitable circumstances, and
clearly articulate reasoning underlying its
ultimate determination. 28 U.S.C.A. § 2244(d)
(1); Fed. R. Civ. P. 60(b)(6).

7 Cases that cite this headnote
[8]

In ruling on motion for relief from judgment
dismissing habeas petition as untimely,
district court may account for principles of
finality and comity, as expressed through
Antiterrorism and Effective Death Penalty
Act (AEDPA) and habeas jurisprudence, by
considering whether conviction and initial
federal habeas proceeding were only recently
completed or ended years ago, and when more
time has elapsed since final conviction, court
will give more weight to state's interest in
finality. 28 U.S.C.A. § 2244(d)(1); Fed. R. Civ.
P. 60(b).

10 Cases that cite this headnote

[6]

Habeas Corpus
©=» Miscarriage of justice; actual innocence
Underlying
fundamental-miscarriage-ofjustice exception to Antiterrorism and
Effective Death Penalty Act's (AEDPA)
statute of limitations is sensitivity to injustice
of incarcerating innocent individual, and
doctrine aims to balance societal interests in
finality, comity, and conservation of scarce
judicial resources with individual interest in
justice that arises in extraordinary case. 28
U.S.C.A. § 2244(d)(1).
Cases that cite this headnote

[7]

Habeas Corpus
Q=> Relief from judgmentjrevocation or
modification

1 Cases that cite this headnote

[9]

Habeas Corpus
0=> Relief from judgment;revocation or
modification
In ruling on motion for relief from judgment
dismissing habeas petition as untimely,
considerations of finality and comity must
yield to fundamental right not to be
wrongfully convicted. 28 U.S.C.A. § 2244(d)
(1); Fed. R. Civ. P. 60(b),
Cases that cite this headnote

Habeas Corpus
®=» Miscarriage of justice; actual innocence
Change in law brought about by Supreme
Court's decision in McQuiggin v. Perkins,
which held that properly supported claim
of actual innocence could excuse failure
to comply with Antiterrorism and Effective
Death Penalty Act's (AEDPA) statute of
limitations, will only permit habeas petitioner
to overcome his time-barred petition if he can
make credible showing of actual innocence. 28
U.S.C.A. § 2244(d)(1); Fed. R. Civ. P. 60(b)
(6).

*154 On Appeal from the United States District Court
for the Eastern District of Pennsylvania (D.C. Civil No.
2_02-cv-00448), District Judge: Hon. Jan E. DuBois
Attorneys and Law Firms
Aren K. Adjoian, Esq. [Argued], Arianna J. Freeman,
Esq., Federal Community Defender Office for the Eastern
District of Pennsylvania, 601 Walnut Street, The Curtis
Center, Suite 540 West, Philadelphia, PA 19106, Counsel
for Appellant Paul Satterfield

WEStLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

2.

Satterfield v. District Attorney Philadelphia, 872 F.3d 152 (2017)

Susan E. Affronti, Esq., Simran Dhillon, Esq. [Argued],
Philadelphia County Office of District Attorney, 3
South Penn Square, Philadelphia, PA 19107, Counsel
for Appellees District Attorney of Philadelphia, Attorney
General of Pennsylvania, and Secretary of the
Pennsylvania Department of Corrections
Before: AMBRO, VANASKIE, and RESTREPO, Circuit
Judges

OPINION OF THE COURT
VANASKIE, Circuit Judge,
Society views the conviction of an innocent person as
perhaps the most grievous mistake our judicial system
can commit. Reflecting the gravity of such an affront
to liberty, the “fundamental miscarriage of justice”
exception has evolved to allow habeas corpus petitioners
to litigate their constitutional claims despite certain
procedural bars if the petitioner can make a credible
showing of actual innocence. In 2013, the Supreme
Court's decision in McQuiggin v. Perkins, 569 U.S.
383, 133 S.Ct. 1924, 185 L.Ed.2d 1019 (2013), extended
this doctrine to allow petitioners who can make this
showing to overcome the Antiterrorism and Effective
Death Penalty Act's (“AEDPA”) one-year statute of
limitations.1 In doing so, the Supreme Court recognized
that an untimely petition should not prevent a petitioner
who can adequately demonstrate his actual innocence
from pursuing his claims. This view reflects society's value
judgment that procedure should yield to substance when
actual innocence is at stake.
1

AEDPA, 110 Stat. 1214, states that “[a] 1-year period
of limitation shall apply to an application for a writ of
habeas corpus by a person in custody pursuant to the
judgment of a State court.” 28 U.S.C. § 2244(d)(1).

Despite repeatedly asserting his innocence, Appellant Paul
Satterfield was convicted of first degree murder in 1985
and sentenced to life in prison. After many years of direct
and collateral litigation, he appeared to emerge victorious
when the District Court, acting on his habeas petition,
found that his ineffective assistance of counsel claim was
meritorious. But Satterfield's hopes for relief were short­
lived, as we reversed the order granting habeas relief after
finding that his petition was barred by AEDPA's statute
of limitations. Satterfield's fight was revived several years

-later-when-the-Supreme-Cour-t-handed-down its-decision—
in McQuiggin. Had this decision been earlier, Satterfield
had more solid support to pursue his ineffective assistance
of counsel claim in spite of his untimely petition. In
McQuiggin' s wake, Satterfield sought relief from the
judgment denying his habeas petition, characterizing
McQuiggin's change in relevant decisional law as an
extraordinary circumstance to justify relief under Federal
Rule of Civil Procedure 60(b)(6).
The District Court denied Satterfield's Rule 60(b)(6)
motion after determining that McQuiggin was not an
extraordinary circumstance. While we do not opine *155
whether the Rule 60(b)(6) motion should ultimately be
granted, we will nonetheless vacate the District Court's
order. In Cox v. Horn, 757 F.3d 113 (3d, Cir. 2014), we
held that changes in decisional law may—when paired
with certain circumstances—justify Rule 60(b)(6) relief. A
district court addressing a Rule 60(b)(6) motion premised
on a change in decisional law must examine the full
panoply of equitable circumstances in the particular case
before rendering a decision. In this case, we believe that
the District Court did not articulate the requisite equitable
analysis, and we will remand for proper consideration.
Separately, and perhaps more importantly, we explain
that the nature of the change in decisional law must
be weighed appropriately in the analysis of pertinent
equitable factors. McQuiggin implicates the foundational
principle of avoiding the conviction of an innocent
man and attempts to prevent such a mistake through
the fundamental miscarriage of justice exception. If
Satterfield can make the required credible showing of
actual innocence to avail himself of the fundamental
miscarriage of justice exception had McQuiggin been
decided when his petition was dismissed, equitable
analysis would weigh heavily in favor of deeming
McQuiggin's change in law, as applied to Satterfield's case,
an exceptional circumstance justifying Rule 60(b)(6) relief.
While Satterfield's ability to show actual innocence is not
case determinative in that the District Court must weigh
all of the equitable factors as guided by precedent, we
clarify that the nature of the change in law cannot be
divorced from that analysis.

I.

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

3

Satterfield v. District Attorney Philadelphia, 872 F.3d 152 (2017)

:—The tortuous~patlrto~SatterfieldVcurrentappeal-begins
more than three decades ago. In 1983, Satterfield visited
the home of Azzizah Abdullah to repair her television set.
When Satterfield had finished and the television appeared
to be working properly, Abdullah paid Satterfield's fee.
But the television ceased working only a short while later,
prompting Abdullah to summon Satterfield back to her
home to complete the task. He made several additional
attempts to fix the recalcitrant television, but his efforts
were in vain. During Satterfield's final service call to
Abdullah's home, her husband William Bryant became
frustrated with Satterfield's repeated failures. Conflict
erupted. When Bryant demanded Abdullah's money back
while brandishing a knife and a baseball bat,2 Satterfield
returned the money and quickly departed, never reporting
the incident to the police.
2

There are three versions of this event: (1) Satterfield
testified that Bryant poked him with the baseball
bat, (J.A. 544); (2) Wayne Edwards claimed that
Satterfield told him Bryant had struck him with
the bat, (J.A. 488); and (3) Abdullah explained that
Bryant had nudged Satterfield’s shoulder with the bat,
(J.A. 465).

Approximately one week after the altercation in
Abdullah's home, Bryant was shot outside his home in the
early morning hours. Police interviewed two eyewitnesses
—brothers Eric and Grady Freeman—on the morning
of Bryant's murder. The Freemans had been in their
home at the time of the shooting and, upon hearing the
gunshots, peered out from their windows at the crime
scene. Eric Freeman reportedly saw a man who “looked
like he was white,” “had like blond hair,” and was about
5'9”.3 (J.A. 695-97.) According to Eric, the man briskly
walked to a parked car, looked both ways before getting
in, *156 and had his hand inside his jacket “like he was
putting away something.” (J.A. 695-97.) Grady Freeman
similarly described seeing a “light skin guy” about 5'7” or
8”. (J.A. 698.) Critically, Satterfield is a black man with
brown hair and stands six feet tall. (J.A. 439.)
3

Both brothers also described the shooter has having
closely cropped hair, while Satterfield was said to
have had a bushy Afro of a brown or reddish color.
(J.A. 436, 614.)

Investigators soon learned of Satterfield's recent
altercation with Bryant. This information yielded a search
warrant for Satterfield's home and car. Upon execution,

however, tlic searchesproduced no cvidcncc iniplictiting-----Satterfield, and the investigation went dormant for about
a year.
The story picks back up in 1984, when Satterfield met
Patricia Edwards at a nearby racquet club. Mrs. Edwards
suggested that Satterfield play tennis with her husband,
Wayne Edwards, After playing together on several
occasions, Satterfield and Mr. Edwards met for lunch at
the racquet club. The conversation began with benign
pleasantries, with the two discussing commonalities in
their upbringings, among other things. Mr. Edwards
claimed that the conversation eventually culminated with
Satterfield admitting to Bryant's murder in fairly explicit
detail. Mr. Edwards contacted the police through his
attorney, and Satterfield was arrested days later.
At Satterfield's trial, Mr. Edwards testified to Satterfield's
confession. The State Respondents characterize Mr.
Edwards' testimony on the stand as both credible and
corroborated by the evidence. Mr. Edwards told the jury
that Satterfield had not reported his altercation with
Bryant to the police because he assumed it would be futile
based on a past experience with a customer. Mr. Edwards
also explained that Satterfield had admitted to disposing
of his .44 caliber gun—the purported murder weapon—
shortly after the killing, only to later tell police the firearm
had been stolen. According to the State Respondents, Mr.
Edwards also testified to details of the crime that nobody
beside the killer could have known; for instance, that the
killer had fired four shots at the victim and that the victim
was running away at the time he was struck.4
4

We note, however, that the search warrants indicated
four bullets were removed from Bryant's body. (J.A.
708.)

Satterfield took the stand in his own defense. He admitted
that he had told Mr. Edwards that he was once suspected
of murder and recounted to Mr. Edwards the details
laid bare in the search warrants he had been served with
during the investigation. But Satterfield insisted that Mr.
Edwards had fabricated the rest of the confession, possibly
prompted by a developing romantic relationship between
Satterfield and Mr. Edwards' wife. Satterfield also testified
that he had owned a .44 caliber special gun like the one
used in Bryant's murder, but reaffirmed that it had been
stolen in an unreported burglary years before the killing.
He nonetheless admitted that he had purchased .44 special

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

Satterfield v. District Attorney Philadelphia, 872 F.3d 152 (2017)

ammunition-on_the very day "that-hre_was-assaulted_by----presiding over-Satterfield's--habeas-proceedings^wouldpoint out that the Superior Court's characterization of
Bryant.
Grady's statement was in error. Grady Freeman had never
the suspect as a “light-skinned black male,” but
described
Satterfield was represented by attorney Lee Mandell at his
merely as “light-skinned.” Nonetheless, the Pennsylvania
murder trial. Mandell did not call either of the Freeman
Supreme Court denied allocatur.
brothers as witnesses, nor did Mandell even interview
either of the brothers prior to trial.5 Instead, the only
mention of either brother's eyewitness statement came
when Satterfield read Eric Freeman's description of *157
the suspect from a search warrant affidavit. The jury
convicted Satterfield of first degree murder in June 1985.
5

Satterfield next filed a pro se King's Bench petition with
the Pennsylvania Supreme Court in 1996. This petition
was denied, along with his petition for reconsideration.
Satterfield's 1997 pro se PCRA petition was also denied,
and his appeals were unsuccessful.

Mandell testified his investigator had encountered
difficulty tracking the Freeman brothers down. Both
brothers, however, responded to the State's subpoena
to appear for the trial. Satterfield's initial post-trial
counsel, Ms. Gelb, also had no problem locating the
brothers and easily procuring their appearance at the
post-trial motion hearing.

In 2002—almost 20 years after Bryant's murder—
Satterfield filed a federal habeas petition raising
nine claims, including actual innocence and ineffective
assistance of trial counsel for failing to present the •
Freemans as witnesses. A Magistrate Judge initially
recommended the petition be dismissed as time-barred.
After finding that Satterfield's King's Bench petition
After his conviction, Satterfield filed post-verdict motions
was a “properly filed” application for state post­
alleging that Mandell was ineffective for failing to present
conviction review, the District Court remanded the
the Freemans as defense witnesses at trial. The trial
petition to the Magistrate Judge for further analysis of
court held an evidentiary hearing during which it heard
the timeliness issue and the merits of Satterfield's claims.
testimony from Mandell and both Freeman brothers. Eric
The Magistrate Judge then issued a supplemental report
Freeman repeated his earlier description of the suspect
recommending Satterfield's claims be denied on their
as a white man with blonde hair. (J.A. 642.) Grady
. merits, which the District Court initially adopted. But
Freeman, however, took the opportunity to clarify his
after Satterfield's objections, the District Court granted
initial description of the suspect as having “light skin,”
relief on his ineffective-assistance-of-counsel claim. The
now explaining that the suspect was “Caucasian” and had
District Court concluded that the Pennsylvania Superior
light blonde hair. (J.A. 620.) He further proclaimed that
Court's determination that Mandell had a reasonable
he was “positive” Satterfield was not the man he had seen
basis in not putting forth the Freemans' testimony
at the time of the shooting. (J.A. 620.) Importantly, there
was based, as mentioned earlier, on a misreading of
was some sparring at the evidentiary hearing over whether
Grady Freeman's statement. Satterfield v. Johnson, 322
Grady's initial statement to police that the suspect was
F.Supp.2d 613, 620, 623-24 (E.D. Pa. 2004). The District
light-skinned meant that the suspect had lighter black skin
Court, however, adopted the supplemental report and
or was white. (J.A. 612.)
recommendation of the Magistrate Judge denying relief
on Satterfield's other claims. Id. at 624.
Following the evidentiary hearing, the trial court
dismissed Satterfield's post-verdict motion and sentenced
*158 The State Respondents appealed the District
him to life imprisonment. The Pennsylvania Superior
Court's decision, arguing that Satterfield's petition should
Court then denied his appeal, determining that that
be dismissed as time-barred. We reversed and remanded,
Mandell had pursued a valid trial strategy in attempting
finding that Satterfield's King's Bench petition to the
to avoid a rebuttal of Eric's favorable description of the
Pennsylvania Supreme Court was not a “properly filed”
suspect with Grady's initial statement. (J.A. 675.) But
collateral challenge to his conviction for the purposes of 28
the Superior Court's conclusion relied on its observation
U.S.C. § 2244(d)(2), and thus did not toll AEDPA's statute
that Grady Freeman had identified the fleeing man
of limitations. Satterfield v. Johnson, 434 F.3d 185,195 (3d
“as a ‘light-skinned’ black male, with cut short hair,
Cir. 2006). We also determined that Satterfield was not
in his early thirties,” a description which “closely fit
that of Satterfield.” (J.A. 674.) Later, the District Court

WESTLAW ® 2019 Thomson Reuters. No claim to original U.S. Government Works.

5

Satterfield v. District Attorney Philadelphia, 872 F.3d 152 (2017)

entitled_t(requitableTollingrMratT96rUpon-remand7theDistrict Court dismissed Satterfield's petition.
In 2014, approximately 30 years after Satterfield's arrest in
connection with Bryant's murder, he filed a motion with
the District Court under Federal Rule of Civil Procedure
60(b)(6) seeking relief from the judgment dismissing his
habeas petition. Satterfield argued that the Supreme
Court's holding in McQuiggin was a change in decisional
law that served as an extraordinary circumstance upon
which Rule 60(b)(6) relief may issue. McQuiggin held that
“actual innocence, if proved, serves as a gateway through
which a petitioner may pass” to overcome an untimely
petition under AEDPA. 133 S.Ct. at 1928. Upon review,
the District Court-ruled that McQuiggin was not a ground
for relief and denied the Rule 60(b)(6) motion. Satterfield
then requested a Certificate of Appealability, which we
granted on the issue of whether McQuiggin, either alone or
in combination with other equitable factors, is sufficient
to invoke relief from final judgment under Rule 60(b)(6) to
allow an appellant to raise an otherwise time-barred valid
claim that trial counsel was ineffective.

reasonthat justifiesrelief-rHSespite the-open-ended-nature
of the provision, a district court may only grant relief
under Rule 60(b)(6) in “extraordinary circumstances
where, without such relief, an extreme and unexpected
hardship would occur.” Cox, 757 F.3d at 120 (quoting
Sawka v. Healtheast, Inc., 989 F.2d 138, 140 (3d Cir.
1993)); see also Boughner v. Sec'y ofHealth, Ed. & Welfare,
572 F.2d 976, 978 (3d Cir. 1978). This is a difficult
standard to meet, and “[s]uch circumstances will rarely
occur in the habeas context.” Gonzalez, 545 U.S. at 535,
125 S.Ct. 2641.

[4J Satterfield asserts in his Rule 60(b)(6) motion
that a change in relevant decisional law occurring
after his petition had been denied is an extraordinary
circumstance upon which his Rule 60(b)(6) relief may
issue. Satterfield identifies the *159 Supreme Court's
ruling in McQuiggin—handed down seven years after the
District Court dismissed Satterfield's habeas petition on
remand—as an intervening change in relevant decisional
law that requires such relief. McQuiggin focused on the
“fundamental miscarriage ofjustice” exception, a doctrine
that had previously been applied to allow a habeas
petitioner “to pursue his constitutional claims ... on the
merits notwithstanding the existence of a procedural bar
II.
to relief’ where the petitioner makes “a credible showing
[1] [2] The District Court had jurisdiction pursuant to 28 of actual innocence.” 133 S.Ct. at 1931. The Supreme
Court clarified that the fundamental miscarriage of justice
U.S.C § 2241 and § 2254. We have appellate jurisdiction
exception would also permit a petitioner to overcome
under.28 U-S.C. § 1291 and § 2253. We review the District
a petition that failed to comply with AEDPA's statute
Court's denial of Satterfield's Rule 60(b)(6) motion for
of limitations. Even so, a petitioner asserting actual
abuse of discretion. Cox v. Horn, 757 F.3d 113, 118 (3d
innocence may not avail himself of the exception “unless
Cir. 2014)! “A district court abuses its discretion when
he persuades the district court that, in light of the new
it bases its decision upon a clearly erroneous finding of
evidence, no juror, acting reasonably, would have voted to
fact, an erroneous conclusion of law, or an improper
find him guilty beyond a reasonable doubt.” Id. at 1928,
application of law to fact.” Id.
1935 (quoting Schlup v. Delo* 513 U.S. 298, 329,115 S.Ct.
851, 130 L.Ed.2d 808 (1995)).

m.
[3] Satterfield invokes Federal Rule of Civil Procedure
60(b)(6) to seek relief from the District Court's judgment
dismissing his habeas petition. Rule 60(b) provides
litigants with a mechanism by which they may obtain
relief from a final judgment “under a limited set
of circumstances including fraud, mistake, and newly
discovered evidence.” Gonzalez v. Crosby, 545 U.S. 524,
528, 125 S.Ct. 2641, 162 L.Ed.2d 480 (2005). Satterfield
specifically relies upon Rule 60(b)(6), a catch-all provision
extending beyond the listed circumstances to “any other

The decision in McQuiggin is particularly relevant to
Satterfield's case because we reversed his successful
ineffective assistance of counsel claim after finding
that his petition was untimely under AEDPA. Had
McQuiggin been in place at the time of Satterfield's
habeas proceedings, an appropriate showing of actual
innocence may have allowed Satterfield to overcome his
untimely petition and pursue his ineffective assistance
claim. Thus, we must determine whether McQuiggin is a
change in decisional law that can serve as an extraordinary
circumstance upon which Rule 60(b)(6) relief may issue,

WE.STLAW ® 2019 Thomson Reuters. No claim to original U.S. Government Works.

6

Satterfield v. District Attorney Philadelphia, 872 F.3d 152 (2017)

either-oiT its own or when paired-witlrthe"equitable---- petitioner's showing of-actual innocence-to be inadequate);
Teagle v. Diguglielmo, 336 Fed.Appx. 209, 212 (3d Cir.
circumstances of the case.
2009) (same); Knecht v. Shannon, 132 Fed.Appx. 407,
409 (3d Cir. 2005) (same). While Satterfield could have
looked to other circuits to make an equitable-exception
A.
argument at the time his petition was denied, actual
innocence had not yet been established as a basis for an
Satterfield properly characterizes McQuiggin as effecting
.
equitable exception to untimely filing under AEDPA in
a change in our decisional law. Prior to McQuiggin,
we had never affirmatively held that a showing of
actual innocence could serve as an equitable exception to •
AEDPA's one-year statute of limitations. In fact, several
circuits were split on the issue of whether such an equitable
exception or basis for equitable tolling existed at the
time McQuiggin was decided. Compare Rivas v. Fischer,
687 F.3d 514, 548 (2d Cir. 2012) (a compelling claim
of actual innocence may excuse an otherwise untimely
habeas petition); Lee v. Lampert, 653 F.3d 929, 934 (9th
Cir. 2011) (en banc) (same); San Martin v. McNeil, 633
F.3d 1257, 1267-68 (11th Cir. 2011) (same); Lopez v.
Trani, 628 F.3d 1228, 1230-31 (10th Cir. 2010) (same);
and Souter v. Jones, 395 F.3d 577 (6th Cir. 2005) (same),
with David v. Hall, 318 F.3d 343, 347 (1st Cir. 2003) (a
showing of actual innocence does not excuse an otherwise
untimely filing of a habeas petition); Cousin v. Leasing,
310 F.3d 843, 849 (5th Cir. 2002) (same); and Escamilla v.
Jungwirth, 426 F.3d 868, 871—72 (7th Cir. 2005) (same).
We had numerous opportunities to confront habeas
petitioners' arguments that their actual innocence should
permit an equitable exception to, or equitable tolling
of,6 the statute of limitations. In each case, we declined
to decide whether a showing of actual innocence could
provide a basis for an equitable exception or equitable
tolling *160 in the habeas context and instead opted to
sidestep the issue by determining that the petitioners had
failed to establish actual innocence. See, e.g., Munchinski
v. Wilson, 694 F.3d 308, 329 n.16 (3d Cir. 2012) (noting
that other circuits Were split on the existence of an
actual innocence exception, but declining to consider
the issue because the petitioner had shown the diligence
and extraordinary circumstances sufficient for equitable
tolling); Scott v. Lavan, 190 Fed.Appx. 196, 199 (3d Cir.
2006) (declining to consider whether an actual innocence
exception exists because the petitioner had no basis
to assert a claim of actual innocence); Hussmann v.
Vaughn, 67 Fed.Appx. 667, 669 (3d Cir. 2003) (same);
see also Sistrunk v. Rozum, 674 F.3d 181, 191 (3d Cir.
2012) (avoiding the question of whether actual innocence
allowed for equitable tolling, and instead finding the

our circuit. 7
6

The Supreme Court explained in McQuiggin that
there is a distinction between equitable tolling, where
a petitioner seeks an extension of the prescribed
statutory period to file, and an equitable exception,
which would permit a petitioner to override the
statute of limitations. 133 S.Ct. at 1931; see also
Rivas, 687. F.3d at 547 n.42 (distinguishing between
equitable tolling and equitable exceptions).

7

Satterfield did argue that actual innocence should
allow for equitable tolling at the time of his petition.

B.
We turn next to whether the change in law borne
by McQuiggin may properly serve as the basis of
a Rule 60(b)(6) motion. Precedent makes clear that
changes in decisional law alone will “rarely” constitute
“extraordinary circumstances” for purposes of a Rule
60(b) motion. Cox, 757 F.3d at 121. Satterfield's reliance
on an intervening change in the law is hardly novel in
the habeas context, and petitioners have had little success
with such arguments. The Supreme Court's decision in
Gonzalez v. Crosby is a prime example of the difficulty of
pursuing a Rule 60(b)(6) motion premised on a change in
law. In Gonzalez, a district court had denied a prisoner's
habeas petition on statute of limitations grounds. The
prisoner later sought Rule 60(b)(6) relief, arguing that the
Supreme Court's intervening decision in Artuz v. Bennett,
531U.S. 4, 121 S.Ct. 361,148 L.Ed.2d 213 (2000), marked
a change in the interpretation of AEDPA's statute of
limitations. Gonzalez, 545 U.S. at 536, 125 S.Ct. 2641.
The Court affirmed the denial of the prisoner's Rule 60(b)
(6) motion, emphasizing that the district court's initial
rilling on the timeliness of the petition was consistent
with the Eleventh Circuit's then-prevailing interpretation
of the statute. In that sense, the Court observed, “[i]t is
hardly .extraordinary that subsequently, after petitioner's
case was no longer pending, this Court arrived at a

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

7

Satterfield v. District Attorney Philadelphia, 872 F.3d 152 (2017)

““different-interpretatibn;”_and"“[a]lthough_[the_Court’s]" —------- the~notion-that-a“particular-change-in-law-is-never—an extraordinary circumstance. Notably, all of these
constructions of federal statutes customarily apply to
district court cases were decided before Cox was
all cases then pending on direct review, not every
issued, and none engage in a thorough examination
interpretation of the federal statutes setting forth the
of the case-specific equities.
requirements for habeas provides cause for reopening
The State Respondents also cite several cases from
cases long since final.” Id: (citation omitted).
other circuits, all of which were rendered before Cox.
See, e.g., Tamayo v. Stephens, 740 F.3d 986, 990 (5th
8
Cir. 2014); Ryburn v. Ramos, No. 09-cv-1176, 2014
The Supreme Court in Artuz held “that an application
WL 51880, at *2-3 (C.D. Ill. Jan. 7, 2014); Rodgers v.
for state postconviction relief can be ‘properly filed’
Pfister, No. 11-3120, 2013 WL 5745835, at *2 (C.D.
even if the state courts dismiss it as procedurally
Ill. Oct. 23, 2013). Indeed, the Fifth Circuit decision
barred.” Gonzalez, 545 U.S. at 527, 125 S.Ct. 2641.
in Tamayo relies on an earlier decision in Adams v.
Both the State Respondents and the District Court
Thaler, 679 F.3d 312, 320 (5th Cir. 2012), which we
interpret Gonzalez as foreclosing Rule 60(b)(6) relief
explicitly declined to adopt in Cox. 757 F.3d at 121.
in Satterfield's case. They conclude that the change in
Our decision in Cox, rendered almost ten years after
law brought about by McQuiggin—or any change in
Gonzalez, further confirms that our Circuit has “not
habeas law for that matter— *161 cannot serve as
embraced
any categorical rule that a change in decisional
an extraordinary circumstance justifying Rule 60(b)(6)
law is never an adequate basis for Rule 60(b)(6) relief.” Id.
relief. But Gonzalez does not mean that a change in law
at 121-22. Instead, we have consistently taken the position
may never serve as the basis for Rule 60(b)(6) relief.
“that intervening changes in the law rarely justify relief
See Cox, 757 F.3d at 123 (“Gonzalez did not say that
from final judgments under 60(b)(6).” Id. (emphasis in
a new interpretation of the federal habeas statutes—
original). Rather than impose any per se or bright-line rule
much less, the equitable principles invoked to aid their
that a particular change in law is never an extraordinary
enforcement—is always insufficient to sustain a Rule
circumstance, we adhere to a “case-dependent analysis”
60(b)(6) motion.”). Rather, Gonzalez leaves open the
rooted in equity. Id. at 124. This analysis manifests
possibility that a change in law may—when accompanied
as a “flexible, multifactor approach to Rule 60(b)(6)
by appropriate equitable circumstances—support Rule
motions... that takes into account all the particulars of a
60(b)(6) relief.9
movant’s case,” even where the proffered ground for relief
9

is a post-judgment change in the law.10 Cox, 757 F.3d at
The State's brief and District Court's opinion cite
several Eastern District of Pennsylvania decisions
holding that the change in law in McQuiggin is not
an “extraordinary circumstance” that can support
a 60(b)(6) motion. See, e.g., Garcia v. Varner, Civ.
A. No. 00-3668, 2014 WL 2777398, at *4 (E.D, Pa.
June 19, 2014); Williams v. Patrick, Civ. A. No.
07-776, 2014 WL 2452049, at *6 (E.D. Pa. June
2, 2014); Pridgen v. Shannon, Civ. A. No. 00-4561,
2014 WL 1884919, at *3 (E.D. Pa. May 12, 2014);
Akiens v. Wynder, Civ. A. No. 06-5239, 2014 WL
1202746, at *2-3 (E.D. Pa. Mar. 24,2014). All of these
decisions compare McQuiggin to Gonzalez, noting
that both represent a change in decisional law based
on the interpretation of the federal habeas statute of
limitations. As in Gonzalez, these courts found that
McQuiggin was not sufficient to be an extraordinary
circumstance. We later explain that McQuiggin is not
merely a change in the procedural law governing the
statute of limitations, in habeas cases, as Gonzalez
was. But to the extent that McQuiggin and Gonzalez
are similar, our decision in Cox, emphatically rejects

122.
10

We have explained that district courts should
examine, “inter alia, [1] the general desirability that a
final judgment should not be lightly disturbed; [2] the
procedure provided by Rule 60(b) is not a substitute
for an appeal; [3] the Rule should be liberally
construed for the purpose of doing substantial justice;
[4] whether, although the motion is made within
the maximum time, if any, provided by the Rule,
the motion is made within a reasonable time; ...
[5] whether there are any intervening equities which
make it inequitable to grant relief; [6] any other factor
that is relevant to the justice of the [order] under
attack....” Lasky v. Cont'l Prods. Corp., 804 F;2d 250,
256 (3d Cir. 1986) (quoting Mayberry v. Maroney, 558
F.2dll59, 1163 (3d Cir. 1977)).

[5] In this context, we opt for more analysis of the
equitable circumstances at play in Satterfield's case. The
■ District Court concluded that the change of law in

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

8

Satterfield v. District Attorney Philadelphia, 872 F.3d 152 (2017)

McQuigginW&snot an extraordinary-circumstance-* 162
that could support Rule 60(b)(6) relief. As best we can tell,
it incorrectly focused on whether McQuiggin, in isolation,
was sufficient to serve as an extraordinary circumstance.
Cox, on the other hand, requires a district court to
consider the full panoply of equitable circumstances
before reaching its decision. Whenever a petitioner bases
a Rule 60(b)(6) motion on a change in decisional law, the
court should evaluate the nature of the change along with
all of the equitable circumstances and clearly articulate the
reasoning underlying its ultimate determination. Thus we
remand.
We will vacate the order of the District Court as it relates
to Satterfield's Rule 60(b)(6) motion and remand to it
to carry out another analysis. The task of weighing the
equitable factors in order to grant or deny a Rule 60(b)(6)
motion is “left, in the first instance, to the discretion of a
district court.” Cox, 757 F.3d at 124, Should the District
Court grant Satterfield's motion, he will be permitted
to pursue his meritorious ineffective-assistance-of-counsel
claim once more.

IV.
While the District Court must take the first pass at
weighing the equitable factors involved in Satterfield's
Rule 60(b)(6) motion, we emphasize that the nature of
the change in decisional law itself must be a factor in the
analysis. The principles underlying the Supreme Court's
decision in McQuiggin are fundamental to our system of
government and are important to the inquiry on remand.
[6] McQuiggin allows a petitioner who makes a credible
showing of actual innocence to pursue his or her
constitutional claims even in spite of AEDPA's statute
of limitations by utilizing the fundamental-miscarriage. of-justice exception—an exception “grounded in the
‘equitable discretion’ of habeas courts to see that
federal constitutional errors do not result in the
incarceration of innocent persons.” McQuiggin, 133
S.Ct. at 1931. Underlying the fundamental-miscarriageof-justice exception is a “[sjensitivity to the injustice of
incarcerating an innocent individual,” and the doctrine
aims “to balance the societal interests in finality,
comity, and conservation of scarce judicial resources
with the individual interest in justice that arises in the
extraordinary case.” Id. at 1932. For this reason, “ ‘[i]n

appropriate-casesf-the-principles -of- comity-a-nd-finalitythat inform the concepts of cause and prejudice ‘must yield
to the imperative of correcting a fundamentally unjust
incarceration.’ ” Murray v. Carrier, All U.S. 478, 495,
106 S.Ct. 2639, 91 L.Ed.2d 397 (1986) (quoting Engle v.
Isaac, 456 U.S. 107, 135, 102 S.Ct. 1558, 71 L.Ed.2d 783
(1982)) (alteration in the original). The Supreme Court has
underscored the importance of these principles, explaining
that “concern about the injustice that results from the
conviction of an innocent person has long been at the core
of our criminal justice system. That concern is reflected,
for example, in the ‘fundamental value determination of
our society that it is far worse to convict an innocent man,
than to let a guilty man go free.’ ” Schlup, 513 U.S. at
325, 115 S.Ct. 851 (quoting In re Winship, 397 U.S. 358,
372, 90 S.Ct. 1068, 25 L.Ed.2d 368 (1970) (Harlan, J.,
concurring)),
The values encompassed by the fundamental-miscarriageof-justice exception and which drive the Supreme Court's
decision in McQuiggin cannot be divorced from the Rule
60(b)(6) inquiry. Cox requires a weighing of the equitable
factors at play in a particular case, and the nature of the
change in law itself is highly relevant to that analysis.
McQuiggin illustrates that where a petitioner makes an
adequate showing of actual innocence, our *163 interest
in avoiding the wrongful conviction of an innocent person
Permits the petitioner to pursue his constitutional claims
in spite of the statute-of-limitations bar. This interest is
so deeply embedded within our system of justice that
we fail to see a set of circumstances under which this
change in law, paired with a petitioner's adequate showing
of actual innocence, would not be sufficient to support
Rule 60(b)(6) relief in this context.11 Put another way, a
proper demonstration of actual innocence by Satterfield
should permit Rule 60(b)(6) relief unless the totality of
equitable circumstances ultimately weigh heavily in the
other direction. A contrary conclusion would leave open
the possibility of preventing a petitioner who can make
a credible showing of actual innocence from utilizing
the fundamental-miscarriage-of-justice exception simply
because we had not yet accepted its applicability at the
time his petition was decided—an outcome that would
plainly betray the principles upon which the exception
was built. Such an outcome would also implicate two
factors of the Rule 60(b) analysis recently identified by
the Supreme Court: “the risk of injustice to the parties”
and “the risk of undermining the public's confidence in the
-, 137 S.Ct.
judicial process.” Buck y. Davis,---- U.S.

WE5TLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

9

Satterfield v. District Attorney Philadelphia, 872 F.3d 152 (2017)

759777871'97"E:Ea:2a"l~(20r7)rTlmsrif-a-p-etitioner-can-make a showing of actual innocence, McQuiggin's change
in law is almost certainly an exceptional circumstance.

12

11

This also marks . the key difference between
McQuiggin and Gonzalez, where the change in law
was a statutory interpretation of AEDPA's statute of
limitations, not an equitable exception to the statute's
procedural requirements.

12

Because the equitable circumstances must be
balanced, we acknowledge that, just as there may be
facts that strengthen the determination that a change
in law is extraordinary, there could also be a set
of heavily unfavorable facts that require a different
outcome.

[7] Given this observation about the importance of the
change in law effected by McQuiggin and the weight it
should carry in the equitable analysis, a court should focus
its efforts primarily on determining whether Satterfield
has made an adequate showing of actual innocence
to justify relief. The change in law brought about by
McQuiggin will only permit him to overcome his timebarred petition if he can make a credible showing of actual
innocence—a burdensome task that requires a petitioner
to “persuadej ] the district court that, in light of the
new evidence, no juror, acting reasonably, would have
voted to find him guilty beyond a reasonable doubt.”
McQuiggin, 133 S.Ct. at 1928, 1935 (quoting Schlup, 513
U.S. at 329, 115 S.Ct. 851). Thus, the miscarriage-ofjustice exception and McQuiggin's holding more broadly
will not be applicable to Satterfield's case if he cannot
make a proper showing of actual innocence, and the
District Court must, determine whether such a showing has
been made as a threshold matter. We leave this inquiry
entirely to the District Court on remand, and recognize
that the issue may require an evidentiary hearing during
which other equitable factors may come into play.

: ;

;

"

~~

McQuiggin also makes relevant whether Satterfield raises
a colorable claim of ineffective assistance of trial counsel,
as the actual innocence exception only provides a gateway
for courts to review a petitioner's separate claim of
constitutional error. See McQuiggin, 133 S.Ct. at 1931;
see also Schlup, 513 U.S. at 316-17, 115 S.Ct. 851 (noting
that petitioners seeking habeas relief carry less of a burden
when their convictions are the result of unfair proceedings
—and the actual innocence threshold standard applies
—than when they have been convicted after a fair
trial). Because Satterfield's claim of constitutional errorcounsel's unreasonable failure to investigate and present
exculpatory eyewitness testimony—is the reason why the
actual innocence exception could apply to his case, the
gravity of that error bears on the weight of his McQuiggin
ciaim.
jn previously granting Satterfield's ineffective-assistance
claim, the District Court concluded that Satterfield's
counsel was ineffective in failing to call the Freeman
brothers as witnesses or otherwise to present their
testimony, and that counsel's error prejudiced Satterfield,
such a finding of constitutionally deficient performance
under Strickland v. Washington, 466 U.S. 668, 104 S.Ct.
2052, 80 L.Ed.2d 674 (1984), is rare. Thus, the District
Court may consider weighing this factor in favor of
finding extraordinary circumstances.
[8] Because the District Court is ruling on a Rule
60(b) motion in the habeas context, it may also
account for the “[principles of finality and comity, as
expressed through AEDPA and habeas jurisprudence” by
“consider[ing] whether the conviction and initial federal
habeas proceeding were only recently completed or ended
years ag0.” Cox, 757 F.3d at 125. When more time has
elapsed since the final conviction, a court will give more
weight to the state's interest in finality.

Among these additional equitable factors, the District
pj The Supreme Court, however, has established that
Court may consider Satterfield's meritorious ineffective- considerations of finality and comity must yield to the
assistance-of-counsel claim. The Supreme Court's recent fundamental right not to be wrongfully convicted. See
decision in Buck v. Davis established that the severity House v. Bell, 547 U.S. 518, 536—37, 126 S.Ct. 2064,
of the underlying constitutional violation is an equitable
165 L.Ed.2d 1 (2006); Schlup, 513 U.S. at 320-21, 115
factor that may support a finding of extraordinary
S.Ct. 851 (citing Murray, 477 U.S. at 496, 106 S.Ct.
circumstances under Rule 60(b)(6). The appellant in
2639); cf. Calderon v. Thompson, 523 U.S. 538, 557, 118
S.Ct. 1489, 140 L.Ed.2d 728 (1998) (“In the absence
Buck sought to vacate the court's judgment so he could
of a strong showing of ‘actual innocence,’ the State's
present an otherwise defaulted claim of *164 ineffective
interests in actual finality outweigh the prisoner's interest
assistance of trial counsel. 137 S.Ct. at 777-79.

WESTLAW © 2019 Thomson Reuters. No claim to'original'll.S. Government Works.

10

Satterfield v. District Attorney Philadelphia, 872 F.3d 152 (2017)

in obtaining yet another opportunity for review.” (citation
omitted)). Hence the District Court should give less weight
to these factors when a petitioner asserts a threshold
claim of actual innocence. The fact that Satterfield's
state proceeding ended a decade ago should not preclude
him from obtaining relief under Rule 60(b) if the court
concludes that he has raised a colorable claim that he
meets this threshold actual-innocence standard and that
other equitable factors weigh in his favor.
As we have explained, though, the weighing of the
equitable factors in this case belongs to the District
Court in the first instance. Though we have pointed
out the importance of the change in McQuiggin and its
weight in the Rule 60(b)(6) analysis—as well as several
other equitable factors for consideration—we express no

opinion on the^final outcomerTh^District Coxirt is^best
positioned to carry out this analysis.

V.
For the foregoing reasons, we will vacate the April 16,
2015 order of the District Court with respect to the denial
of Satterfield's request for Rule 60(b)(6) relief and remand
for reconsideration of the *165 whether the change of
law wrought by McQuiggin, combined with the other
circumstances of the case, merits relief under Rule 60(b)
(6).

All Citations
872 F. 3d 152

End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW. © 2019 Thomson Reuters. No claim to original U.S. Government Works.

11

APPENDIX E

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
PAUL SATTERFIELD

CIVIL ACTION

v.
PHILIP L. JOHNSON, et al.

NO. 02-CV0448

RESPONSE TO PETITION FOR WRIT OF HABEAS CORPUS
LYNNE ABRAHAM, District Attorney of Philadelphia County, by J. HUNTER
• BENNETT, Assistant District Attorney, and THOMAS W. DOLGENOS, Chief,
Federal Litigation, on behalf of respondents, respectfully requests that the Petition for
Writ of Habeas Corpus be dismissed with prejudice and without a hearing and, in support
thereof, states:
1.

A seriatim answer is dispensed with for the sake of clarity. The following

numbered paragraphs outline the procedural background of this case.
2.

Onlune 10, 1985, petitioner was convicted by a jury of first-degree :.

'

murder and possession an instrument of crime for the shooting death of William Bryant.
He was sentenced to life imprisonment. The Superior Court affirmed this judgment of
sentence in a memorandum opinion dated luly 22,1987. Commonwealth v. Satterfield.
531 A.2d 528 (Pa. Super. 1987). On lanuary 27, 1988, the Supreme Court of
Pennsylvania denied allocatur. Commonwealth v. Satterfield. 539 A.2d 811 (Pa. 1988).
3. ■

On April 1, 1996, petitioner filed a ‘Tetition for Writ of Habeas Corpus

Ad Subjiciendum - Inter Alia - King’s Bench Matter” in the Supreme Court of

F'W

A

/>. fiUB ( V
DISTRICT ATTORNEY’S OFFICE

)

__ !____'__ 1_42.LABCH_SZBEET_________

QV' •;

tt^Sp0

PHILADELPHIA, PENNSYLVANIA 19102(215)686-8700

LYNNE ABBAHAM
DISTRICT ATTORNEY

May 13, 2002

Honorable Peter B. Scuderi
United States District Court
U.S. Courthouse
601 Market Street, Room 3015
Philadelphia, Pennsylvania. 19106
Re:

Satterfield v. Johnson, et al.
Civil Action No. 02-0448

Dear Judge Scuderi:
Enclosed please find a copy of our Response to Petition for Writ of Habeas
Corpus, the original of which has been filed with the Clerk.
Respectfully submitted,

7'

1 HUNTER BENNETT
Assistant District Attorney

/cmk
Enclosure
cc:

Paul Satterfield

Pennsylvania, which was denied on June 7, 1996. A petition for reconsideration was
denied October 11,1996. 1
4.

On January 16, 1997, petitioner filed a pro se petition for relief pursuant to

the Post Conviction Relief Act. Counsel was appointed and petitioner subsequently
requested that he be permitted to proceed pro se. Following petitioner’s execution of a
written waiver, counsel was withdrawn. The PCRA court denied petitioner’s pro se
petition on September 21, 1998. On August 22, 2000, the Superior Court affirmed the
PCRA court’s dismissal in a memorandum opinion. Commonwealth v. Satterfield. 764
A.2d 1128 (PA. Super. 2000). The Supreme Court denied allocatur on April 30, 2001.
Commonwealth v. Satterfield, 775 A.2d 805 (Pa. 2001).
5.

On January 28, 2002, petitioner filed the instant pro se Petition for Writ of

Habeas Corpus. Respondents deny that petitioner is entitled to federal habeas relief. His
petition is time-barred and, therefore, must be dismissed.
DISCUSSION
The petition in this case is governed by the federal habeas statute, 28 U.S.C.
§ 2241, et seq., which was amended under the Antiterrorism and Effective Death Penalty
Act (“AEDPA”), effective on April 24, 1996. Section 2244(d) of the statute creates a.
strict one-year time limitation on the filing of new petitions and provides as follows:
(1) A 1-year period of limitation shall apply to an application for a writ of
habeas corpus by a person in custody pursuant to the judgment of a
; State Court. The limitation period shall run from the latest of(A) the date on which the judgment became final by the conclusion
of direct review or the expiration of the time for seeking such
review;
1 This date is taken from petitioner’s Petition for Writ of Habeas Corpus. The
Commonwealth has no record of this denial in its files.
2

(B) the date on which the impediment to filing an application
. created by the State action in violation of the Constitution or
laws of the United States is removed, if the applicant was
prevented from filing by such State action;
(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly
recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or
■
(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of
due diligence
'
28 U.S.C. § 2244(d)(1). These limitations provisions have been construed to allow
prisoners a one-year grace period following the effective date of April 24,1996, in which
to initiate their habeas actions, regardless of the date on which direct review concluded,
as long as that date was prior to April 24, 1996. See Bums v. Morton. 134 F.3d 109, 111
(3d Cir. 1998); Lindh v. Murphy. 96 F.3d 856, 866 (7th Cir. 1996), reversed on other
.grounds, 521 U.S. 320 (1997). Here, direct review of petitioner’s claims concluded in
1988 after the Supreme Court of Pennsylvania denied allocatur. Accordingly, the oneyear grace period is applicable and petitioner had until April 23,1997 to file a timely
federal habeas petition.
However, on January 16, 1997, after approximately 268 days of the limitations
period had already expired, petitioner filed a PCRA petition which tolled the one-year
limitations period, but only while it was pending.2 See 28 U.S.C. § 2244(d)(2) (providing

2.
Petitioner’s “Petition for Writ of Habeas Corpus Ad Subjiciendum — Inter Alia —
King’s Bench Matter” did not toll the AEDPA limitations period because it was not a
properly filed application for State post-conviction or other collateral review. The PCRA
statute states that “[t]he action established in this subchapter shall be the sole means of
obtaining collateral relief and encompasses all other common law arid statutory remedies
for the same purpose that exist when this subchapter takes effect including habeas corpus
3

that “[t]he time during which a properly filed application for State post-conviction or
other-collateral review with respect to the pertinent judgment or claim is pending shall

and coram nobis.” 42 Pa.C.S. § 9242 (emphasis added). As the Supreme Court of
Pennsylvania noted, “the plain language of the statute [] demonstrates quite clearly that
the General Assembly intended that claims that could be brought under the PCRA must
be brought under that Act. .. Where [] a defendant’s post-conviction claims are
cognizable under the PCRA, the common law and statutory remedies now
subsumed by the PCRA are not separately available to the defendant.”
Commonwealth v. Hall. 771 A.2d 1232 (Pa. 2001). Here, the claims raised by petitioner
in his state habeas petition -- countless claims of ineffective assistance of counsel and
prosecutorial misconduct — Were clearly cognizable under the PCRA. Thus, petitioner’s
state habeas petition was not a properly filed application for collateral review since the
PCRA statute and Supreme Court of Pennsylvania mandated that these claims be
presented in the form of a PCRA petition. Accordingly, the petition did not toll the
AEDPA limitations period.
It must be noted that petitioner’s state habeas corpus petition was not treated by
the state courts as a PCRA petition. See Superior Court Slip Op. at 1, n. 1 (noting that
petitioner filed a timely first PCRA petition on the last possible date: January 16, 1997).
Indeed, it could not have been treated as such since it was filed in the Supreme Court
rather than the Court of Common Pleas as the PCRA statute commands. See 42 Pa.C.S. §
9545(a) (“Original jurisdiction over a proceeding under this subchapter shall be in the
court of common pleas. No court shall have authority to entertain a request for any form
of relief in anticipation of the filing of a petition under this subchapter”). •
Even if petitioner’s state habeas petition were given tolling effect, petitioner’s
federal habeas petition would still be untimely. Petitioner’s state habeas petition was
pending from April 1, 1996 until June 7,1996, when the Supreme Court of Pennsylvania
denied it. Since petitioner’s federal habeas petition was filed close to six months too late,
this two-month period is of no moment.
Petitioner’s Petition for Reconsideration of the Supreme Court’s denial of his
state habeas petition did not toll the AEDPA limitations period. “Applications for
reconsideration of denial of allowance of appeal are not favored and will be considered
only in the most extraordinary circumstances.” Pa.R.A.P. 1123(b) (emphasis added).
Rule 1123 requires a petitioner seeking reconsideration to “[bjriefly and succinctly state
grounds which are confined to intervening circumstances of substantial or controlling
effect.” Pa.R.A.P. 1123(b)(1). Here, petitioner cited no intervening circumstances
warranting a grant of reconsideration (undoubtedly, because there were none). Rather, he
confessed that he may have “overreached” in his request for relief in his state habeas
petition. Giving tolling effect to this petition for reconsideration, which did not comply
with Pa.R.A.P. 1123(b)(1) and thus, had no hope of being granted,' would contravene the
purpose of AEDPA.
4

not be counted toward any period of limitations under this subsection”). The Supreme
Court of Pennsylvania denied allocatur from the Superior Court ’s affirmance of the.
PCRA court’s dismissal of the petition on April 30, 2001. Therefore, the limitations
period, of which only about 97 days remained, resumed its countdown on that date,
leaving petitioner until approximately August 4, 2001 to file in federal court.
Nevertheless, petitioner did not file the instant petition until January 28, 2002,
almost six months after the limitations period had expired. His petition is, therefore,
time-barred and must be dismissed.
Petitioner cannot argue that the limitations period under AEDPA should be
equitably tolled. His case is not one of those rare situations in which the “extraordinary
circumstances” necessary for equitable toning are present — indeed, petitioner has failed
to offer any explanation for the fact that his habeas petition was filed more than six
months too late. See Miller v. New Jersey State Department of Corrections. 145 F. 3d
616, 618 (3d Cir. 1998) (equitable tolling ofhabeas may occur only in those rare
circumstances where the petitioner has been prevented in some extraordinary way from
asserting his rights).

5

WHEREFORE, respondents respectfully request that the Petition for Writ of
Habeas Corpus be dismissed with prejudice and without a hearing.

Respectfully submitted,

J. HUNTER BENNETT
Assistant District Attorney

THOMAS W. DOLGENOS .
Chief, Federal Litigation

6

•

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
PAUL SATTERFIELD

'

CIVIL ACTION

v.
PHILIP L. JOHNSON, et al.

NO.

02-0448

CERTIFICATE OF SERVICE
I, J. HUNTER BENNETT, hereby certify that on May 13, 2002, a copy of the
foregoing pleading was served by placing same, first class postage prepaid, in the United
States Mail addressed to:
. Paul Satterfield, #AY-7671
SCI Pittsburgh
: PQ Box 99901
Pittsburgh, PA 15233

faMh/ Jt
• JrHUNTER BENNETT
Assistant District Attorney
District Attorney’s Office
1421 Arch Street
Philadelphia, PA
19102
(215)686-9899

